<html>
<title> - NASA REAUTHORIZATION</title>
<body><pre>[Senate Hearing 107-1075]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1075

                          NASA REAUTHORIZATION

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 8, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                    U.S. GOVERNMENT PRINTING OFFICE
90-268                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGIA ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                                 ------                                

             Subcommittee on Science, Technology, and Space

                      RON WYDEN, Oregon, Chairman
JOHN D. ROCKEFELLER IV, West         GEORGIA ALLEN, Virginia
    Virginia                         TED STEVENS, Alaska
JOHN F. KERRY, Massachusetts         CONRAD BURNS, Montana
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MAX CLELAND, Georgia                 KAY BAILEY HUTCHISON, Texas
JOHN EDWARDS, North Carolina         SAM BROWNBACK, Kansas
JEAN CARNAHAN, Missouri              PETER G. FITZGERALD, Illinois
BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held May 8, 2002.........................................     1
Statement of Senator Allen.......................................     5
Statement of Senator Burns.......................................     8
Statement of Senator Dorgan......................................     7
Statement of Senator Hollings....................................     1
    Prepared statement...........................................     2
Statement of Senator Hutchison...................................    32
Statement of Senator Nelson......................................    20
Statement of Senator Wyden.......................................     1
    Prepared statement...........................................     4

                               Witnesses

O'Keefe, Sean, Administrator, National Aeronautics and Space 
  Administration.................................................    10
    Prepared statement...........................................    14

                                Appendix

Response to written questions submitted to Sean O'Keefe by:
    Hon. Barbara Boxer...........................................    83
    Hon. Ernest F. Hollings......................................    49
    Hon. John McCain.............................................    51
    Hon. Bill Nelson.............................................    79

 
                          NASA REAUTHORIZATION

                              ----------                              


                         WEDNESDAY, MAY 8, 2002

                                       U.S. Senate,
            Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The Subcommittee on Science, Technology, and 
Space will come to order. We're very pleased to be able to be 
joined this morning by the chairman of the full committee, 
Senator Hollings, who has been so supportive of the agenda of 
this Subcommittee, and I want to recognize him at this time.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    The Chairman. Well, I thank you very much, Mr. Chairman, 
and I want to thank you particularly for conducting this 
hearing. I wanted to appear personally to praise and thank our 
friend, Sean O'Keefe. I met him when he was working for Senator 
Stevens on our Appropriations Committee. If he can handle Ted 
Stevens, he can handle space. I can tell you that right now. 
But he's had even a further induction as the Secretary or the 
Navy over there in the Pentagon and as the deputy director of 
our Office of Management and Budget. He knows better than 
anyone that while NASA works exceedingly well in space, it 
hasn't been working too well on the ground financially. And 
that's, I understand, the main thrust of your hearing here. I 
think we've got the right man who can get us all working 
together here.
    That astronaut team is a national asset, and we've tried to 
hold on to that asset and not let the financial problems or the 
space station itself eat us alive. If we can balance this off, 
we've got to, by all means, maintain NASA at its full strength. 
And any way this Committee and, Chairman Wyden, anywhere I can 
help, I'll be glad to do it.
    I'd ask consent that my statement in full be included in 
the record.
    Senator Wyden. Without objection, that's so ordered.
    The Chairman. Thank you both.
    [The prepared statement of Chairman Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    Let's begin by commending Senator Wyden for scheduling this 
hearing. It has been called to allow the Committee to conduct the 
appropriate oversight of NASA's operations. Presently, one of the 
greatest challenge facing NASA is its financial management, which has 
been found to be lacking and insufficient in many respects. Today's 
hearing will largely address this matter.
    I am pleased that Administrator O'Keefe has agreed to appear before 
the Committee today to answer questions about the agency's financial 
management issues. It is well known that he was sent over to NASA with 
one goal in mind--to get the agency's financial management back on 
track.
    I do not need to catalog the problems at NASA, but let me add my 
voice to the voices of the Subcommittee Chairman and others. I hope at 
this time next year we are not sitting here discussing the same 
problems. NASA needs to find a way to make its financial systems work, 
foremost of which include estimating costs in a more consistent and 
realistic manner.
    The fact is that the American people are not interested in the nuts 
and bolts of your integrated financial management system. They want 
NASA to continue leading the way toward more enhanced space discoveries 
and exploration. But these missions cannot be achieved until NASA does 
the basics--which must start with the implementation of sound financial 
oversight practices.
    Now, I am sure that today we will hear about several studies and 
recommendations that are due in the next few months. I, for one, am 
willing to give the agency, and more specifically, Administrator 
O'Keefe, appropriate time to garner the advice and recommendations 
necessary to make sound management decisions, and to put in place a 
more sufficient financial management system.
    Unfortunately, far too often in this town, the word ``study'' is a 
euphemism for delay. It should be made clear that this Committee will 
have little patience if we are left without answers to major questions, 
such as what criteria are going to be used to proceed on the Space 
Station, as we go into the next budget cycle.
    Before I go on, let me just mention the Space Station. Originally, 
the Station was going to cost us $8 billion. Now the life cycle costs 
are expected to be $100 billion. The stated purpose of Station is 
research, but the current configuration will only allow for 20 hours a 
week of crew time for research. Yet the Administration will continue to 
nickel and dime important research programs in NASA and in other 
science agencies because its budget cannot support them.
    Finally, I want to emphasize that although there are serious, yet 
valid questions about NASA's management issues, as an agency and a 
mission, NASA is truly a national treasure. I want to thank the people 
of NASA--from the astronauts and engineers to technicians. The new 
pictures from the Hubble Space Telescope that were published last week 
show us that their work has meaning not just to scientists but also to 
average citizens. The frustration that some may detect arises out of 
the desire to ensure that there are no internal and administrative 
impediments to accomplishing America's space goals. My hope is that we 
can get NASA's house in order so that it can have the tools it needs to 
effectively carry out its mission and successfully achieve its goals.

    Senator Wyden. I thank the Chairman and thank him for this 
effort to proceed on the NASA authorization at this early 
stage. I look forward to working with the Chairman and thank 
you for coming.
    Mr. O'Keefe. Thank you, Chairman Hollings, I appreciate 
your very thoughtful comments. Pardon me.
    Senator Wyden. Today, as Chairman Hollings has noted, we 
begin work on the authorization bill for NASA, and I want to 
begin this discussion in the Subcommittee by stating clearly 
that I want a NASA that is the best possible investment, a NASA 
that pays dividends as rich as those of the early days of the 
space program, when names like Apollo and Mercury leapt from 
the pages of mythology into the stratosphere of cutting-edge 
science. It's clear that in order to regain the glory of the 
past and fulfill its mission for the future, the agency is 
going to first have to address several current and pressing 
challenges.
    NASA must first rebuild the Congress's confidence in the 
agency by getting control of financial management. On March 
20th, the General Accounting Office reported to Congress, yet 
again, that the books at NASA are simply an undocumented 
shambles. NASA's independent auditors and the General 
Accounting Office cannot continue to disclaim opinions on 
NASA's books because not enough backup information exists to 
confirm or to refute financial information.
    I'm especially troubled about the International Space 
Station. When the current design was adopted in 1993, NASA said 
building the station would cost $17.4 billion, certainly no 
more than $2.1 billion per year. Nearly a decade later, the 
agency's admitted cost for completing the space station has 
grown to roughly $30 billion, almost $5 billion more than cost 
caps imposed by the Congress. Continual cost overruns and 
failures to estimate costs with any fidelity from year to year 
simply must stop.
    My colleagues and I are going to want to look in some 
detail at plans for the International Space Station. Cost 
overruns aside, or perhaps in light of the amount of money 
that's been spent, the Congress will certainly want to work 
with Administrator O'Keefe to set ambitious criteria for a 
space station to benefit scientific inquiry for future 
generations.
    Let me make clear that these are not problems created by 
you, Mr. Administrator, but they are problems that must be 
solved on your watch. It is time to nail down the numbers once 
and for all. And this Subcommittee and the Senate are anxious 
to work with you and give you the tools that you need to get 
the agency's financial house in order.
    The reason for draining the swamp of NASA's financial 
morass is more than an economic one, in my view. The agency's 
scientific mission depends on it. The agency has to regain 
financial credibility with the Congress and with the country's 
taxpayers. Unless the agency demonstrates fiscal 
responsibility, there simply won't be the funds needed for the 
far-reaching science of tomorrow. The Congress is not going to 
continually throw good money after bad. But with assurance that 
the boondoggles of today are behind us, I hope that NASA will 
find the freedom to dream for tomorrow and have the support of 
our nation to do it.
    I want to see us recapture the vision of John F. Kennedy's 
commitment to putting a man on the moon by 1970. It's not 
enough, in my view, to endlessly circle the earth in low orbit. 
NASA should set the goal of putting a person on Mars and work 
with the Congress to set a date to do it. But the aim must be 
to reach Mars both safely and cost effectively or not at all. 
Mars is nearly 50 million miles away, and the dangerous journey 
there could take months. A mission to Mars is not an idea for 
the faint of heart or for the frivolous. Getting there is going 
to take daring, it'll take courage, and it'll take discipline. 
The discipline has to begin before the first plan is drawn. And 
that's what this authorization is all about, is putting in 
place the discipline that's needed to do the job.
    When the agency looks to the future, current scientific 
projects cannot be allowed to fall by the wayside either. The 
agency must continue to do what it does well, which is to 
achieve success in human and unmanned space-flight programs. As 
we've stressed in our hearing last fall on shuttle safety, the 
excellence of the shuttle program must be maintained while 
research continues on a next-generation space vehicle. And in 
this regard, I especially want to thank Senator Nelson, who 
hopefully will be joining us shortly, for his dedication to 
that task. The challenge is to keep moving forward with 
projects already on NASA's plate while repairing the mistakes 
of the past.
    Administrator O'Keefe and I are on record as being in 
agreement that the business of the agency has to be science. In 
his nomination hearing 4 months ago, Mr. O'Keefe and I both 
noted that NASA's research supports the technological advances 
to drive our country's economy.
    You've come, Administrator O'Keefe, to the agency to 
oversee a period of great transition. Two recent announcements 
from your agency have offered significant hope for the agency, 
and particularly for scientific research and innovation. The 
new images from the Hubble Space Telescope show that NASA 
research still has the potential to illuminate the universe and 
inspire the world. And your restart of the Teacher in Space 
program indicates that you're ready to inspire the future 
generations of scientists, discoverers, entrepreneurs, and 
astronauts that the country needs.
    Much of the other news coming from the agency, however, has 
been less than inspiring. And it is incumbent on you, Mr. 
Administrator, and this Subcommittee to work together to tackle 
these issues facing the agency. In the next few months, you'll 
be making several recommendations regarding space station 
research and cost estimates and privatizing the shuttle. We're 
going to be looking forward to hearing those recommendations.
    We will be working in a bipartisan way. Senator Allen and 
I, from the start of our joint efforts in this Subcommittee 
have made it clear that we think these issues require a 
significant degree of bipartisanship, and that's the way we 
have approached them.
    And I'm pleased to recognize my friend and the ranking 
minority member, Senator Allen.
    [The prepared statement of Senator Wyden follows:]

     Prepared Statement of Hon. Ron Wyden, U.S. Senator from Oregon

    Today the Subcommittee on Science, Technology and Space begins 
working toward an authorization bill for NASA. I want to begin this 
discussion by stating clearly that I want a NASA that is the best 
possible investment--paying dividends as rich as those of the early 
days of the space program, when names like Apollo and Mercury leapt 
from the pages of mythology into the stratosphere of cutting-edge 
science. It is clear that in order to regain the glory of the past and 
fulfill its mission for the future, NASA first must address several 
current challenges.
    To start, NASA must first rebuild the Congress's confidence in the 
agency by getting control of financial management. On March 20, the GAO 
reported to Congress again that the books at NASA are simply an 
undocumented shambles. NASA's independent auditors and the General 
Accounting Office cannot continue to disclaim opinions on NASA's books 
because not enough backup information exists to confirm or refute the 
financial information.
    I am especially concerned about the International Space Station. 
When the current design was adopted in 1993, NASA said building the 
Station would cost $17.4 billion, certainly no more than $2.1 billion 
per year. Nearly a decade later, NASA has admitted that the cost of 
completing the Space Station has grown to roughly $30 billion, almost 
$5 billion more than cost caps imposed by the Congress. Continual cost 
overruns and failures to estimate costs with any fidelity from year to 
year have got to stop.
    11My colleagues and I will want to look in some detail at the plans 
for the International Space Station. Cost overruns aside--or perhaps in 
light of the amount of money that's been spent--Congress certainly 
wants to work with you to set ambitious criteria for a Space Station to 
benefit scientific inquiry for future generations.
    These are not problems you created, Mr. Administrator, but they are 
problems you must solve. It's time to nail down the numbers once and 
for all. Congress is ready to work with you and give you the tools it 
will take to get your financial house in order.
    The reason for draining the swamp of NASA's financial morass is 
more than economic. NASA's scientific mission depends on it, too. This 
agency must regain financial credibility with the Congress and with the 
nation's taxpayers. Unless NASA demonstrates fiscal responsibility, 
there is not going to be funding for the far-reaching science of 
tomorrow.
    Congress isn't going to throw good money after bad. But with 
assurance that the boondoggles of today are behind us, NASA may find 
the freedom to dream for tomorrow--and the support of the nation to do 
it.
    I want to recapture the vision of John F. Kennedy's commitment to 
putting a man on the moon by 1970. Today, it is not enough to endlessly 
circle the Earth in low orbit. NASA should set the goal of putting a 
person on Mars and work with Congress to set a date to do it. But the 
aim must be to reach Mars both safely and cost-effectively, or not at 
all.
    Mars is nearly 50 million miles away, and the dangerous journey 
there could take months. A mission to Mars is not an idea for the faint 
of heart or for the frivolous. Getting there will take daring, it will 
take courage, and it will take discipline--and the discipline must 
begin before the first plan is drawn. The discipline must begin today.
    While NASA looks to the future, current scientific projects cannot 
be allowed to fall by the wayside either. The agency must continue to 
do what it does well: achieve success in human and unmanned space 
flight programs.
    As this Subcommittee stressed in its hearing last fall on shuttle 
safety, the excellence of the Shuttle program must be maintained while 
research continues on a next generation space vehicle. I want to thank 
my colleague from Florida, Senator Nelson, for his dedication to that 
task. The challenge is to keep moving forward with projects already on 
NASA's plate while repairing the mistakes of the past.
    NASA Administrator Sean O'Keefe and I are on the record in 
agreement that the business of NASA is--or should be--science. In his 
nomination hearing four months ago, Mr. O'Keefe and I both noted that 
NASA's research supports the technological advances that drive our 
nation's economy.
    Administrator O'Keefe, you came to NASA to oversee a period of 
great transition. Two recent announcements from your agency have 
offered much hope for the future of NASA and its scientific research 
and innovation. The new images from the Hubble space telescope show 
that NASA research still has the potential to illuminate the universe 
and inspire the world. And your restart of the ``Teacher in Space'' 
program indicates that you're ready to inspire the future generations 
of the scientists, discoverers, entrepreneurs, and astronauts that this 
nation needs.
    However, much of the other news coming from NASA is less than 
inspiring, and it is incumbent both upon you and upon this Subcommittee 
to tackle the many issues facing your agency.
    In the next few months you are due to make several recommendations 
regarding Space Station research and cost estimates and privatizing the 
Shuttle. This Subcommittee will look forward to hearing those 
recommendations.
    I am hopeful that my colleagues and I can work in a bipartisan 
fashion with you, Mr. O'Keefe, and with the Administration to make some 
progress toward an authorization bill this year.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, and thank you for 
your kind words and your leadership and for having this hearing 
this morning on a very important subject. I would agree with 
every aspect of your comments in your opening statement. I 
would also, of course, thank you, Administrator Sean O'Keefe, 
for being here. And I think it is very important that we do 
work in a bipartisan way on this authorization, that we get it 
passed as quickly as possible.
    I believe, as you do, Mr. Chairman and Administrator 
O'Keefe, that Americans are rightly proud of NASA and its 
achievements for the past 44 years. NASA has accomplished some 
truly impressive feats, including, of course, sending 
astronauts to the moon and today's International Space Station. 
And, of course, my young son, who is 11 years old, was 
absolutely amazed at the pictures from the Hubble Space 
Telescope of the colliding galaxies. And he was pointing out to 
Daddy what all these things were. So it's good to see how that 
is relevant to youngsters and how it gets them thinking and 
asking, ``Well, do you think in all of that there's a planet 
like Earth.'' And those are the kind of questions that are very 
important and gets one to get a sense of where we are, maybe in 
the whole universe, in the mind of God.
    The research and development at NASA has enhanced also 
America's leadership in a variety of ways. It's helped our 
national security. It's also helped our economy and the lives 
of Americans and people around the world. However, as you said, 
Mr. Chairman, we're proud of NASA's past, but this hearing is 
not about the past. This hearing is about discussion of NASA's 
future. And Administrator O'Keefe, you have a daunting mission 
of leading NASA's program management and their finances.
    As you explore these issues, I hope you'll consider certain 
guiding principles. First, in my view, NASA should continue to 
focus on scientific excellence for the competitive leadership 
of America in aeronautics and space. Second, NASA has to be 
fiscally responsible with the taxpayers' dollars. And, finally, 
NASA must ensure that safety is always an essential component 
for all its programs.
    And this morning, I would like to focus on the first ``A'' 
of NASA: aeronautics. According to the NASA aeronautics 
blueprint toward a bold new era in aviation--this is a short 
summary of it, but well produced, and it has the exact 
technological solutions, whether it's in revolutionary 
vehicles, digital aerospace, security and safety, or state-of-
the-art educated work force. It's a good document. Indeed, 
according to this document, U.S. aviation research, ``has 
fallen by more than 50 percent from a 25-year peak in 1987.'' 
Meanwhile, the Europeans are now investing more money in 
aeronautics research than is the United States. In fact, the 
Europeans, in a similar document, I suppose, as far as their 
vision or blueprint--they call it ``Vision 2020''--they're 
striving to be the world's undisputed leader in aviation in two 
decades.
    Now, 25 years ago, the United States had 90 percent of the 
market share for commercial aircraft. Twenty-five years later, 
today, rather than a 90-percent market share, we're at a 50-
percent market share for commercial aircraft. Now, this doesn't 
bode well for the future of the United States aeronautics 
industry, or Langley, in Virginia, or the other research 
facilities, nor does it bode well for America's position as the 
technological leader in aviation. The need for air superiority 
in operation Enduring Freedom underscores the necessity for the 
United States to remain at the forefront in aeronautics 
research and development.
    Moreover, after September 11, Americans are more concerned 
than ever about air safety. NASA research has and should 
continue to play an absolutely essential role in improving air 
safety. And even in this blueprint, there are examples of where 
technology, working with aviation, can make it faster, cleaner, 
more quiet, as well as making sure that the areas that we want 
to be absolutely safe can be better secured.
    The National Aeronautics and Space Act of 1958, as a 
founding document, states that the U.S. aeronautical and space 
activities must be conducted to contribute materially to, ``the 
preservation of the United States' preeminent position in 
aeronautics and space.'' More recently, NASA stated in the 
Aeronautics Blueprint that failure to act--and I agree with you 
completely--failure to act risks significant economic and 
social consequences. Now, given these guiding principles, many 
of which are either in founding documents or the current 
blueprint on aeronautics, I am going to be interested in 
hearing how NASA has determined that it is in the best interest 
to reduce funding for the aeronautics programs by $58 million, 
or approximately 10 percent from last year.
    I think--and I'll get into the questions--and I think that 
your method of presenting a budget is much better than just a 
big, glommed approach, and we'll see what the subcategories 
are, but I will be very interested, and I'll question you more 
closely on that.
    But I understand, Administrator O'Keefe, that NASA has many 
important missions, including the International Space Station, 
the space shuttle, the space launch initiative, but 
aeronautics, in my view, needs to be elevated to a top 
priority, as well. And we're going to work together, I know, on 
this, not only in a legislative and administrative, but in a 
bipartisan way.
    And again, thank you, Mr. Chairman. Thank you, Mr. O'Keefe.
    Senator Wyden. I thank my colleague, and he knows I'm very 
interested in working with you on these aeronautics issues. And 
the Administrator and I have discussed them, as well, and we'll 
be working closely with you on them.
    Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you.
    Administrator O'Keefe, I want NASA to succeed, and I want 
to be a part of this Committee that helps it succeed. My 
feeling is that a society that stops exploring is one that 
loses its vitality and its vision, and I think NASA is one of 
those unique federal agencies that is an exploring agency. And 
we tend to judge NASA by conventional standards. But NASA is an 
agency whose mission pushes the envelope of new technology. 
And, in that, there is significant risk. But there's also the 
offer of a promise of great reward, and we've seen a good many 
things in our daily lives that come from the experimentation 
from NASA.
    And so I really feel that we need--as the Chairman of the 
Subcommittee said, and the Ranking Member said--we need to have 
a good handle on our finances. We need to understand what we're 
investing in. But I also accept that this is an agency that 
perhaps embraces, by its very nature, more risks than other 
agencies, because it is not flying in the comfort zone. You 
are, in almost all circumstances, finding the new edge of 
technology. And so the men and women of NASA, with whom I have 
visited over the years, have been enormously impressive to me. 
I think that what they do has been very substantial and very 
important to our country.
    Mr. O'Keefe, one of the things that I've been involved in 
is taking the massive quantity of information that is produced 
by NASA's satellites and the work of NASA and, through Mission 
to Planet Earth--the old Mission to Planet Earth--bringing that 
down to make it usable information and practical information 
for people here in our country. And we created an Upper Midwest 
Aerospace Consortium, which includes universities in our part 
of the country--Montana, Wyoming, Idaho, South Dakota, and 
North Dakota. And that consortium, working with NASA, has been 
working to provide farmers, teachers, manufacturers, and small 
businesses with information that NASA has but had not 
previously put in a format that provides substantial benefits 
to people here. So we're doing that with NASA. I certainly hope 
that we can count on you to be involved in those efforts, 
because that's a more practical part of what NASA does day to 
day.
    So, Mr. Chairman, the Farm Bill is on the floor, and I 
speak at 10:00 on the conference report. I'm not going to be 
able to stay for the entire hearing, but I did want to say to 
Administrator O'Keefe, there are a lot of us who very much want 
your agency to succeed. We want to be a partner in that 
success. We will work with you, as the Chairman indicated, on 
the financial issues, but I wish you well, and I hope that we 
can work together on some very important issues.
    Mr. O'Keefe. Thank you, Senator.
    Senator Wyden. Well, thank you very much for coming, 
Senator Dorgan, and we'll be working closely with you on it. 
And practical applications of the scientific dreaming really 
states it very well. We thank you for coming.
    Senator Wyden. Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you very much. I know Mr. O'Keefe is 
just elated that all of these speeches have to be made. And 
he's sitting there, you know--and did you have a big breakfast?
    [Laughter.]
    Senator Burns. My statement is very short. I did not have a 
prepared one. But I want to sort of bootstrap onto what my good 
friend from Virginia says. Number one, I don't think anybody 
else makes a better airplane than the United States of America, 
so it sounds to me we need a new sales force. That's, number 
one, because it all boils down to how well we sell our product 
and a good product.
    But I want to dwell on the research. It's been my opinion 
for many years, ever since I joined this body and have seen the 
workings of Government and the way Government handles its 
research and development, we get into terrible turf wars about 
what is located in our respective states. And so we dilute this 
business of research and development, where other countries 
concentrate and get their work done. And, of course, that's 
where the money is concentrated, and it looks a lot larger than 
ours. If you took our total dollars spent on research, I would 
imagine they probably are as great as any other country in the 
world. We just don't get the best use out of the buck. But it's 
like a man said, that when the founders of the country created 
this Government, they created it so inefficient that it could 
not take over the world. But nonetheless, I think we have to 
start looking at what the FAA does, what other agencies do in 
research, as far as aeronautics and aeronautical engineering 
does.
    I am always amazed that about the only place that Boeing 
recruits engineers is at Montana State University, outside of 
the University of Washington. They do that because the basics--
we have no aeronautics division. But why they do it is work 
ethic, number one, and, number two, is their basics are so 
sound that they can take those engineers and really make really 
good engineers both in their R&D and in their everyday workings 
of building airplanes.
    So I think we have to take a good look at where we spend 
our dollars, and can we concentrate those dollars with an 
agency or a part of this Government that can get the biggest 
bang for the bucks, where they have a concentration of dollars 
and we make it a national priority. And I think we do because 
of the development of a supersonic aircraft that'll fly 
suborbital, our reusables that we go into space--we went 
through that. We were not concentrated. We really didn't put 
our best effort forward like we did when President Kennedy says 
to put a man on the moon and bring him back. That is a national 
priority. And I think this is just as important.
    No other agency captures the imagination of young people to 
go into the sciences and the mathematics and physics like NASA 
does. You just take any kind of an astronaut or any kind of a 
presence of NASA in any school--in any school, even higher 
learning. The interest is wonderful, and we must not lose that 
outreach program.
    But I think the Senator from Virginia has hit upon a point 
that we need to think about how we restructure to get the 
biggest bang for our buck when it comes to research, and make 
it a national priority. You can't tell me that the nation is 
not tuned into this, because they know that if we, as 
Americans--if we vacate the idea that we are not reaching out, 
pushing the envelope--and I know we put safety first, but 
there's areas where--you know, there's always risk in anything 
we do, and the American people accept that, and even the people 
that are in programs accept that--then we should find a way to 
restructure and to make it a national priority, because this is 
a national priority of great importance.
    So I thank the Senator, not only my good friend from 
Oregon, but also the Senator from Virginia, because he has 
struck, I think, at the heart of the things that we should be 
looking at as policy makers. And with the directorship of Mr. 
O'Keefe, which is very capable and very able and very positive, 
I think we can do those things.
    But I will tell you, once you start down this road, you'll 
create the damnedest turf war you have ever seen in your life. 
But, nonetheless, we have to do those things that has to be 
done to get the best for the American people in this society 
who expects us to do it, and they expect much from us. And I 
thank you for coming today.
    Mr. O'Keefe. Thank you, Senator.
    Senator Wyden. I thank the Senator from Montana, who has 
probably more capacity to strip this town of all the Washington 
gobbledygook and get right to the heart of saying it in English 
than anybody I know, and I thank him for coming and for his 
comments.
    Senator Wyden. Mr. O'Keefe, welcome. And we'll make your 
prepared remarks a part of the record in their entirety. And 
just please proceed as you wish.

STATEMENT OF SEAN O'KEEFE, ADMINISTRATOR, NATIONAL AERONAUTICS 
                    AND SPACE ADMINISTRATION

    Mr. O'Keefe. Well, thank you, Mr. Chairman, Senators Allen 
and Burns, thank you all very much for your thoughtful opening 
commentary. I concur entirely that Senator Burns does have a 
capacity for getting exactly to the point without mincing any 
words at all.
    Both of you, I think, in your opening comments, mentioned 
the imperative for lofty objectives and certainly, Senator 
Allen, in your commentary, the imperative for thinking through 
the technologies to achieve that. Indeed, one of the three 
quick points I'd like to raise this morning, just as an opening 
commentary, is to discuss some of the factors that we need to 
wrestle with, the first of which is how to establish and how to 
develop enabling technologies to achieve any of those kinds of 
goals. And that, I think, needs to be our first objective. It's 
a very pragmatic one, and it's one that is focused on the view 
that if there are technical limitations and technology limits 
to achieving those kinds of objectives that you've identified, 
then we need to overcome them. Again, to echo so many of the 
opening comments, certainly from Senator Dorgan, as well, of 
considering the exploring agency, our fundamental groundwork or 
basis of our entire foundation and mission and charter of NASA 
has always been to be entrepreneurial and to think about 
overcoming technical limitations and technology limits to 
achieve those kinds of loftier objectives.
    So if there was a summary to one of the key elements of 
what we have attempted to put together in this year's budget 
program, as well as the overall focus of these first few months 
of my tenure, it is to emphasize the enabling technologies best 
represented by one, in particular, that I think is just 
characteristic of this particular theme. At present, our 
ability to launch and achieve low-earth orbit Mr. Chairman, as 
you've said that, in and of itself, is certainly a good portion 
of the challenge. But once you're there, you've got to have a 
set of objectives beyond--we've become really proficient at 
that, and we need to become more efficient at achieving that 
task, but right now, we're able to achieve that particular 
challenge in very short order, within 8 and a half minutes, to 
be at least 200 miles straight up in a low-earth orbit 
condition. After that, we move along at a pace that is roughly 
equivalent to what John Glenn flew at on Friendship VII 40 
years ago. We have not gotten past that technology limitation 
of how to achieve space exploration in any way that's efficient 
or more contemporary, if you will, to really inform the science 
agenda that's necessary to do so.
    So part of what you see in the budget request this year, 
and certainly a longer-term initiative that incorporates the 
next several years, is a propulsion and power-generation 
initiative to achieve just that goal, to increase the amount of 
speed, to decrease the amount of time it takes for exploration 
objectives, or to expand the amount of time we have on orbit at 
any location or any destination that we might choose.
    So establishing those visionary goals of where we might 
want to go is certainly a laudable objective and one we really 
need to focus on. But in order to do that, we've got to get the 
means to get there, or get anywhere, in a means that is current 
enough to inform the agenda, the research, and the science-
driven priorities, as well as actually accomplish something 
that will be contemporary in that regard. So your support for 
that particular effort, particularly as it pertains to an 
object to emphasize the nuclear propulsion systems efforts that 
we're emphasizing this year as part of the program, will be 
greatly appreciated to achieve that first-in-four-decades 
effort to get past that technology limit.
    The second primary area--and, Mr. Chairman, you touched on 
it, I think, very appropriately and very accurately in your 
opening commentary--of wrestling control of the financial 
management questions that certainly pervade throughout the 
agency. The means by which we intend to do that is the rapid, 
aggressive implementation of an Integrated Financial Management 
Program (FMP) as expeditiously as I know how to do that and so 
have poured in an awful lot of effort to achieve that. The 
characteristic of this particular challenge, and clearly what 
has gained the attention of so many, is the International Space 
Station directly, and we are in the process of examining five 
separate, very specific issues as pertains to the International 
Space Station.
    First and foremost, and very much echoing your opening 
comment, Mr. Chairman, is it will be science-driven and must be 
prioritized by the science which we think can only utilize that 
extraordinary capacity of low--or microgravity in that kind of 
condition in low-earth orbit, and that can inform a research 
agenda that gives us an opportunity for breakthrough 
opportunities or science discovery in the course of that 
particular pursuit. So we've assembled a group to look through 
the massive amount of effort in every single scientific 
discipline that has been produced over the last several years 
of what could be performed on station, and have asked this 
group of leading experts in each of their fields in the 
scientific communities to prioritize, to rank, what those 
objectives are on the basis of those two criteria, that which 
emphasizes the microgravity condition and that which leads to 
the greatest potential for breakthrough opportunities in the 
research agenda. I expect to see that prioritization effort 
completed by this time next month, and that will guide our 
thinking, in terms of the requirements for how we would deploy 
science aboard the International Space Station as expeditiously 
as we could possibly put that together.
    At present, what we have is, again, a collection of, and a 
wide array of, scientific objectives, all of which are ranked 
as number-one priority and so, therefore, if everything's 
number one, it means nothing is a high priority. So we're 
attempting to try to work through that with the two criteria 
I've discussed as the science objectives and get on with that 
expeditiously to organize how the efforts aboard station will 
be conducted.
    The second major area to deal with on this front is the 
engineering challenges alone. We've got to remind ourselves 
with regularity, this is one incredible feat, to pull together 
a large-scale systems-integration effort of this magnitude. And 
to attempt to do it in earthbound condition would be 
challenging enough, but just to make it really interesting and 
exotic, we've decided to do it 250 miles straight up in space 
while the object that they're trying to build is moving at 
18,000 miles an hour. That is no mean feat, and it's one that 
has be done with great care and precision. In my judgement, the 
engineering efforts that are required in order to accomplish 
that task are paramount. And what I've developed and I think is 
before you is a very short chart which, by year, describes the 
challenge before us to achieve what is referred to as the core 
configuration for International Space Station. Until we get 
past the core configuration--the size of the crew, the 
dimensions of science, all the objectives we've talked about 
are contained until we achieve that core configuration. And so 
that becomes the milestone objective that I've stressed most 
dominantly.
    Between now and February to March of 2004, there are 10 
different space shuttle flights with payloads to build out the 
station as you see before you in each of the color codings, 
which describes, by year, the manner in which that's done. The 
catch is, in any large-scale systems integration effort like 
this, it requires the successful completion of each mission 
before the next can be accomplished. So each stage in these 10 
flights between now and early 2004 must be successful and must 
be attained in order to build on the success of each of those 
efforts as we move along. It's an aggressive schedule, but it's 
one that we think can be attained by an average of 4 to 5 
flights per year between now and the February/March time frame 
of 2004.
    So our focus is on achieving that core configuration in 
order to facilitate the option to even consider what build-out 
or assembly may ultimately result from International Space 
Station. It's an aggressive schedule and one of the most 
central elements of this particular task, just completed last 
month as part of the STS-110 flight that returned after a very 
successful completion of that installation of the central piece 
of the truss, was a very, very successful enterprise that now 
permits us to build out, beginning, again, with the STS-111 
flight coming up at the end of this month.
    The third area to examine that we're focused on for station 
is very specifically to focus on the issue that Chairman Wyden 
raised, I think, quite accurately, and that is wrestling to the 
ground the issue of cost. In that regard, we are engaged right 
now in an internal cost estimate, which we expect will be 
completed within the next couple of months, and an independent 
cost estimate composed of folks who are engaged very 
specifically in the panel efforts that went on last fall, as 
you may recall, in order to develop an independent cost 
assessment of what's involved here.
    What's in the fiscal year 2003 and 2004 projection budget 
at this point support the profile and the plan before you. We 
expect that to be within the range of what the independent cost 
estimate produces by the end of this summer, but we'll 
certainly advise once that's completed. But the objective is to 
get that run to ground.
    The fourth major area is to examine the international 
agreements as they pertain to our efforts on station. I've 
spent a considerable amount of time working with every 
international partner in order to assure that this particular 
configuration is understood as a means to facilitate that 
opportunity to look at what the ultimate configuration may look 
like beyond 2004, once we have achieved that central 
engineering and systems integration element. So I've endeavored 
to do that as diligently as I know how with every one of the 
international partners.
    And, finally, to look at space shuttle operations to 
support this safely and in a way that is consistent with the 
engineering and system integration model, we've worked out 
schedule as well as a consolidation of all the efforts that go 
into supporting shuttle operations for Orbiter modifications as 
well as major modification efforts going on at Kennedy Space 
Center to assure the one-stop shopping opportunity gets done as 
expeditiously as we can to achieve Orbiter processing to meet 
this aggressive schedule to achieve core configuration by early 
2004. So that's the second area, to discuss station a little 
bit in the context of this larger set of issues.
    Finally, I just wanted to touch briefly, if you would, Mr. 
Chairman, on the education objectives. This is, in my judgment, 
and I think in the comments of so many members here this 
morning, an imperative that we really need to be focused on for 
two fundamental reasons. The first is that, indeed, when you 
look at the human capital circumstance across not only NASA, 
but among and within the aerospace community at large, we are, 
to put it diplomatically, a very mature work force. And as a 
consequence, the opportunity for succession thereafter is 
wanting at this stage. So our objective at this stage is to 
really push our efforts hard at exciting and inspiring that 
next generation of those who would seek to be explorers, and 
prepare them in math, science, technology, and engineering in a 
way that assures that we can continue these exploration agendas 
in the decades to follow.
    I think Senator Allen's 11-year-old son inspired by 
Hubble--my 11-year-old son was equally wowed by that occasion, 
and we need to do more of that and make those kinds of 
information more available to classrooms. And that's the second 
reason that I think we need to focus on this. There are so many 
things that I've seen in this organization and this agency that 
are just absolutely fascinating, and yet we have difficulty 
translating it and making it available, principally to the 
generation of kids who are most likely to be inspired to pursue 
these efforts if it's available to them, and that's the K-12 
area. There are so many college programs and university 
undergraduate and graduate fellowship and scholarship programs 
we pursue. But in my judgment, the area you really need to look 
at is--that inspires, Senator, your 11-year-old and mine--is 
those efforts to really motivate them to think in those terms.
    Senator Wyden. I only want to interrupt Administrator 
O'Keefe to note, for the record, that the talented and 
energetic Lilly Wyden, age 12, shares the enthusiasm of your 
progeny and Senator Allen's.
    Mr. O'Keefe. Indeed.
    [Laughter.]
    Senator Wyden. I apologize for interrupting.
    Mr. O'Keefe. Not at all, sir. We must be inclusive in this 
all the way. I've got two older, who are 12 and 15, who were 
also motivated by this activity. So absolutely, there is no 
question. That is the age group that we really need to focus 
on. One of the comments I heard from General Ed Eberhart, who's 
the CINC of U.S. Space Command, was that he observed as how the 
two factors that motivate kids most are dinosaurs and space. 
Well, we certainly don't want to revert to the former as an 
institutional malady, so we definitely want to look at the 
latter as a means to inspire. As a consequence, there's a great 
opportunity to do that.
    Finally, Mr. Chairman, with your indulgence, I'd like to 
recognize here today Kathy Koshaba, who's here with her Senn 
High School, from Chicago, class that she's brought here to 
town for a Close Up program effort, and they're here to examine 
what's going on, and equally inspired by the activities that I 
think space exploration and certainly the activities of the 
aeronautics as well as all dimensions of NASA provides.
    So, with that, Mr. Chairman, thank you very much for your 
opportunity.
    [The prepared statement of Mr. O'Keefe follows:]

                  Prepared Statement of Sean O'Keefe, 
      Administrator, National Aeronautics and Space Administration

    I appreciate the opportunity to appear before the Subcommittee 
today in my new capacity as NASA Administrator. My objective throughout 
my stewardship of this storied Agency is to ensure that the Congress 
and the public are fully aware of our accomplishments, our current 
efforts and our plans for the future. My job as Administrator is to 
remind everyone of what NASA does and what we are capable of doing. 
It's a responsibility I take very seriously. I believe we are at a 
crossroads in NASA's history. We have an opportunity here and now to 
reinvigorate the Agency's agenda and renew the entrepreneurial spirit 
present at NASA's beginning--a continued characteristic of American 
culture.
    The President's FY 2003 budget proposal for NASA of $15.1 billion 
reflects the Administration's commitment to NASA's core research 
efforts and its fundamental mandate to advance aeronautics and 
aerospace science and technology. This budget initiates exciting new 
efforts in the realms of space transportation and propulsion. It builds 
upon our abilities to measure and understand our home planet and the 
natural--and unnatural--forces that shape our environment. I believe it 
is a well-balanced and progressive budget that allows us to set the 
stage for the future. Enclosure 1 displays NASA's FY 2003 budget 
request.
    In the 4 months since my confirmation, I have traveled across the 
country to visit each of our 10 Centers to meet NASA's dynamic 
workforce and have seen firsthand the remarkable science and technology 
efforts that are the underpinning of our endeavors. In this relatively 
short period of time, the Agency has taken a fresh look at the long-
term management, resource, and technical challenges while continuing to 
expertly carry out highly complex day-to-day operations. Together we 
have charted a vision and mission that I look forward to sharing with 
you this morning.
    My testimony today will focus on the talent and technology that is 
embedded in the NASA organization, the challenges we face, and, more 
importantly, the steps we will take as an Agency to chart a clear 
course for the future. We are intent on continuing the gains made over 
44 years while pushing the edge of the envelope of what appears today 
to be impossible. NASA today is working together, as one Agency, 
committed to a clear vision and refined mission that will serve as the 
blueprint for service to America.
    What NASA needs now is a roadmap to continue our work in a more 
efficient, collaborative manner. I first outlined this roadmap for NASA 
on April 12 at the Maxwell School of Citizenship and Public Affairs, 
Syracuse University. NASA's imperative is not only for the sake of 
knowledge--it is for our future and our security. I have introduced a 
new strategic framework and vision for NASA. It is a blueprint for the 
future of exploration. It is a roadmap for achievement that we hope 
will improve the lives of everyone in this country and everyone on this 
planet.
    That is a bold statement, I know. But, I am confident in saying 
this because the unique work that NASA does truly touches all of our 
lives.
    This is NASA's vision for the future. Our mandate is:

  <bullet> To improve life here;

  <bullet> To extend life to there; and,

  <bullet> To find life beyond.

    This vision is much more than carefully arranged words; it frames 
all that we do and how we do it.
    So, how do we get to that impressive picture of the future? The 
answer is by executing NASA's mission:

  <bullet> To understand and protect our home planet;

  <bullet> To explore the Universe and search for life; and,

  <bullet> To inspire the next generation of explorers . . . as only 
        NASA can.

    To understand and protect our home planet, NASA develops satellites 
to study the Earth form space, and uses their observations to create 
models of the Earth system to enable prediction of climate, weather and 
natural hazards. We are well along in the deployment of the Earth 
Observing System to provide the first holistic view of the major 
interactions of the key components of the Earth system. On May 4, we 
successfully launched the Aqua mission. As its name implies, Aqua will 
observe Earth's water in all its phases (liquid, solid, and gas) and 
how it cycles through the Earth's oceans, atmosphere, and land, 
distributing energy in the form of weather and climate events. We 
believe that, working with NOAA, we can use Aqua and other EOS 
instruments to enable the extension of reliable weather prediction from 
the current 3-5 days to 7 days by the end of the decade.
    In March, we launched the GRACE mission, which will map the Earth's 
gravity field and its variations with a precision never before 
accomplished--a precision that will help measure the effect of these 
variations on Earth's climate. GRACE data will be combined with sea 
surface topography data from Jason to enable more precise measurement 
of changes in sea level, and thus assessment of vulnerability of 
coastal regions to natural hazards. At the end of this calendar year, 
we will launch SORCE to help us understand the influences of solar 
variability on Earth's climate, and ICEsat to measure changes in the 
topography and mass of Earth's ice sheets. We are operating and 
distributing data from the EOS missions already in orbit with the EOS 
Data and Information System, which delivered over 11 million data 
products in response to 2.3 million user requests.
    NASA's contribution to security comes from increased cooperation 
and the sharing of imagery and unique technology with the federal 
agencies charged with the defense of our homeland. Aerospace 
innovations developed at our centers prevent civilian aircraft from 
being used as weapons. Improved air traffic control safety systems and 
engineering that will make future airplanes more efficient and 
environmentally sound are clear examples of our role in the changing 
nature of transportation and our nation's security. Hypersonics and 
quiet aircraft are efforts to speed transport and, in doing so, bolster 
the economy.
    Our mission's second theme is to explore the Universe and search 
for life. NASA will exploit advanced technology, robotics, and will 
eventually use humans to explore and seek the answers and the science 
behind our most fundamental inquiries: How did we get here? Where are 
we going? Are we alone? If we are to achieve our ambitious objective of 
exploring the universe and the searching for life beyond our Earth, be 
it through flights to Mars or observing faraway planets, we must 
continue to learn about and overcome the technical hurdles that remain 
in our quest to answer our most probing questions.
    NASA's recent achievements are only the beginning of the Agency's 
role in rewriting tomorrow's textbooks for America's children, as well 
as for today's astronomers and astrophysicists alike. Just last week, 
NASA released the first images received from the newest science 
instrument on the Hubble Space Telescope, the Advanced Camera for 
Surveys (ACS). The new ACS was part of the recent and highly successful 
STS-109 servicing mission, during which astronauts helped take Hubble 
to the next level of excellence. This new and improved camera now 
offers us 10 times the discovery power than the camera it replaced. 
With the ACS, our view into the depths of our Universe has been taken 
to a new level.
    Later this month, we will launch the GALEX, Galaxy Evolution 
Explorer, which will use ultraviolet light to conduct an all-sky 
ultraviolet survey and detect millions of galaxies located billions of 
light years from our earth. Next year, we will travel further into our 
own solar system with the launch of the Mars Exploration Rovers and 
Mars Express missions. The Mars Rovers will take us beyond the success 
of the Mars Pathfinder mission in 1997 and allow us to analyze rock and 
soil samples on the Martian surface at a microscopic level. Mars 
Express, a mission planned by the European and Italian space agencies, 
will be the result of international collaborative efforts with NASA. 
This mission will take us another step closer to our search for 
evidence of past or present life on Mars. In January 2003, we will 
launch the last of NASA's great observatories, the Space InfraRed 
Telescope Facility, destined to be a cornerstone in our Astronomical 
Search for Origins Program and allowing us to peer into regions of 
space currently hidden from our view.
    If we are to achieve the mission of exploring the universe and 
searching for life, there is much we must still learn and many 
technical challenges that must be conquered. Today's chemical energy 
rockets that have been the engine of exploration since the inception of 
space travel are today at the limit of what they can deliver. Using 
current technology, if we were to embark to explore Pluto in 2006, the 
earliest we could arrive there is 2014-2016; and then, upon our 
arrival, we would only be able to obtain meaningful research for 4-6 
weeks. That is an 8-10 year travel period for 4-6 weeks of science. 
NASA's FY 2003 budget includes nearly $1 billion for a nuclear systems 
initiative as a first step in addressing this challenge. Nuclear 
propulsion is a mature technology that has been used safely by the U.S. 
Navy since 1955. Since that time, the Navy has sailed over 120 million 
miles encompassing 5,000 reactor years without incident. This 
technology may hold the key to overcoming the time/distance challenge, 
and its application to space travel has great potential.
    Propulsion is only one of the challenges facing further human 
exploration of space. Still unknown are the long-term effects of 
radiation and exposure to a microgravity environment on humans. The FY 
2003 budget includes funding for a new initiative for space radiation 
research.
    Our third mission objective is to inspire the next generation of 
explorers. America looks to NASA to build an unequalled scientific base 
of knowledge and motivate our youth to embrace math, science and 
engineering. While opportunities in the technology sector are expected 
to quadruple this decade, the pool of college students enrolled in 
science and engineering courses continues to decline. NASA has an 
obligation to the nation and its own workforce to reverse this trend.
    NASA faces similar challenges with its scientific and engineering 
workforce. During one of my recent Center visits, I found that only 62 
engineers out of a 3,000-person workforce were less than 30 years old. 
In fact, as an Agency, our over-60 population is three times larger 
than the under-30 workforce. Inspiring the next generation of explorers 
to enter fields of science and engineering is integral to NASA's 
success in reconstituting our workforce for the 21st Century 
challenges.
    Students are only part of the education equation at NASA. Our 
Nation's educators are also a critical component of NASA's revitalized 
education focus. Teachers at all levels already possess the skills to 
inspire and plant the seeds necessary for this Nation to grow the next 
generation of science and technology leaders. NASA can best introduce 
itself and the science that it represents into the classroom by teaming 
up with educators, especially at the younger grade levels.
    Inspiring future generations works in synergy with NASA's mission 
to protect our home planet. The U.S. Commission on National Security 
for the 21st Century (the Hart-Rudman Commission) concluded that 
advances in technology and changing economies mandate an increase in 
the level of technology literacy across society. It is clear that 
technological human capital is an essential component of our national 
security equation.
    Our mission concludes with the statement, ``as only NASA can.'' Our 
Agency is one of the nation's leading research and technology federal 
agencies with unique tools, capabilities and expertise that represent a 
national asset. The Agency contributes to America in a broad spectrum 
of areas. Medical technologies, aerospace innovations, spin-offs, nano-
technologies, and countless commercial applications are rooted in NASA 
discovery. Our commitment to the American taxpayer is to continue 
providing a direct and very tangible means of improving life on our 
planet. Extending life beyond the reaches of our earth is not a process 
driven by any particular destination, but by science that will 
contribute to the social, economic, and intellectual growth of our 
society.
    NASA provides a constant return on taxpayer dollars with each new 
discovery, telescope picture, launch, patent, and newly inspired child 
or adult. That being said, none of the ambitious plans that I have 
detailed for the Agency will take root if we fail to improve the 
management of our resources, commit to fiscal responsibility, and 
establish a clear set of priorities. A clear vision and integrated 
mission are important foundations for NASA's future success, but 
success requires that we embrace a wide variety of tools to move us 
forward.
    At NASA, and at other departments and agencies across the federal 
government, we are vigorously implementing the President's Management 
Agenda as a powerful management initiative. Each of the five items 
included in the Agenda applies directly to NASA.
    First on the Agenda is the strategic management of human capital. 
As I mentioned previously, we face challenging times as we reconstitute 
and reshape our workforce for the 21st century. Today we have an 
extremely experienced workforce in terms of overall capability. The 
downside, however, is that almost one-third of the workforce will be 
eligible to retire within the next 3-5 years. We must aggressively deal 
with this leadership and workforce challenge. I have recently forwarded 
a series of legislative provisions to the Office of Management and 
Budget, which address this challenge head-on. These provisions will 
complement the Administration's Managerial Flexibility Act, and I look 
forward to working with the Congress to ensure that these essential 
tools are enacted into law.
    The second element of the Agenda is competitive sourcing. We are 
thoroughly examining the best ways to motivate a competitive sense in 
all we do. By focusing on results and outcomes, we will find the most 
efficient means to accomplish our goals.
    The third element of the Agenda is expanded electronic government. 
We must pay specific attention to information technology and ensure 
that the information technology process is integrated into Agency 
decision-making.
    The fourth element of the Agenda is improved financial management. 
I am pleased to report that we are aggressively implementing our 
integrated financial improvement program, which is now in the third 
year of its implementation schedule. I have tasked the staff to explore 
all options to determine whether we can accelerate implementation 
throughout the Agency.
    The fifth element of the Agenda involves budget and performance 
integration. We must become results-oriented and link our budgets to 
performance. We will breathe new life into the Government Performance 
and Results Act. We in NASA are spending a great deal of effort into 
developing metrics to measure performance.
    I would now like to provide a status of two of our major programs.
International Space Station
    The International Space Station (ISS) is without precedent in the 
history of the U.S. space program. The ISS Program has had a year of 
spectacular technical achievements, which include ground preparation 
and checkout, launch integration, and on-orbit assembly and operations. 
To date, the ISS program has achieved remarkable technical successes; 
however, it has not been equally successful in controlling cost growth. 
Last year, NASA projected an overrun in the amount it needed to 
complete the space station, as then planned, of up to $4.8 billion. 
While some of that growth may be attributable to such factors as 
inadequate initial requirements definition, added content, late 
delivery, and development problems leading to cost variance, there are 
clearly areas of fiscal management and program control that need 
improvement.
    The President's Budget Blueprint for FY 2002 laid the groundwork 
for attaining cost control and regaining credibility for the program to 
reach its full potential. As a result, a course of action was 
prescribed to get cost growth under control and restore confidence in 
NASA's cost management, and to achieve the science priorities for which 
the Nation has made a large investment. We are continuing with the 
reassessment and review activities that we began last year that 
followed the Blueprint, but did not eliminate the cost challenge. The 
President's FY2003 budget projections include about $600 million of 
savings that NASA will realize through the implementation of identified 
program initiatives, and a process that continues to seek additional 
savings while containing the threats to further ISS cost growth. While 
steps taken last year were designed to contain cost growth and to gain 
better understanding of its source and nature, this year will be one of 
corrective action--putting in place the right processes, tools, 
management controls, and measures to improve and evaluate the ISS 
program.
    Thanks to the efforts of the ISS Management and Cost Evaluation 
(IMCE) Task Force, led by Mr. Thomas Young, we are well along in 
effecting proper controls and regaining credibility. I have reviewed 
the Young team's recommendations and have endorsed them as a roadmap to 
improve the ISS Program management. As a result, the ISS management has 
already taken actions to develop implementation strategies.
    The following five points are guiding our efforts at reform and 
revitalization of the ISS program:

        1.  Research Priorities-Establishing an integrated portfolio of 
        science and technology priorities that maximize the benefits of 
        space-based research within available resources. In addition to 
        addressing the cost challenges of the ISS, we must make a 
        renewed determination of the research goals and on-orbit 
        capabilities that we want the ISS to achieve. Our priority 
        should not be to simply build an ISS to a specific hardware 
        complement and then seek research and experiments to make use 
        of the hardware. The ISS Program should be driven by high-
        priority research objectives. NASA has recently established a 
        Research Maximization and Prioritization (ReMaP) Task Force to 
        assess how high-priority research objectives can be best met by 
        ISS within available resources, and how the resulting research 
        strategy might evolve, given the possibility of research-driven 
        enhancement to the ISS beyond U.S. Core Complete.

        2.  Engineering Development/Deployment-Development of a program 
        road map that focuses on successfully achieving a ``core 
        complete'' configuration within budget. This will not be easy, 
        but we are dedicated to making it happen. Therefore, it is 
        imperative that Congress provide us with the requested funds so 
        that we can meet our commitment to achieving a core Station. 
        Should NASA demonstrate that reforms are implemented and cost 
        credibility is regained, this will enable future decisions 
        towards a requirements-driven ``end state'' that will, defined 
        in terms of science priorities, allow an expanded research 
        potential for us and our international partners.

        3.  Cost Estimation and Analysis-The ISS is the largest and 
        most complex engineering development program ever pursued by 
        the United States. Implementation of improved methodologies, 
        tools and controls are underway and will allow us to regain 
        credibility and improve our ability in financial forecasting 
        and strategic planning capabilities. An independent cost review 
        is underway to better understand our costs. These projects will 
        also be beneficial to the Agency at large.

        4.  International Partnerships- An important challenge is 
        maintaining the ISS international partnerships. Our partners 
        have expressed their concerns stemming from NASA working to get 
        the fundamentals right to achieve U.S. core complete; and then 
        to identify options beyond U.S. core complete to realize the 
        full potential of the ISS. Although the configuration of the 
        ISS has been modified to meet the cost challenges we face, the 
        fundamental purposes remain--research and international 
        cooperation. To reaffirm NASA's strong commitment to its 
        international partnerships, I have formed a team to meet with 
        representatives of all our partners to understand their 
        concerns and to work with them in the spirit of cooperation.

        5.  Mission and Science Operations-Advanced planning for Space 
        Shuttle and ISS operations to maximize the productivity of on-
        orbit research and ensure the safety of real time operations.

Space Shuttle

    NASA is proud of its historic record of 106 Shuttle missions and, 
in particular, the accomplishments of the last year in support of the 
ISS. Last year, seven Shuttle missions were flown with five of those 
missions launched during a six-month period.
    This budget continues to invest in safety and supportability 
improvements for the Space Shuttle and increases the investment in 
repairing aging Shuttle infrastructure. These investments, totaling 
$1.35 billion over the next five years, will ensure that the Space 
Shuttle can meet NASA's space transportation needs for at least the 
next decade. NASA seeks to implement these upgrades as quickly as 
possible, and is working to accelerate the availability of planned 
upgrades. These investments are an integral part of NASA's Integrated 
Space Transportation Plan (ISTP), which also includes investments in 
the Space Launch Initiative (SLI) for NASA's next-generation reusable 
space transportation system.
    As recommended by the IMCE Task Force, reducing the Space Shuttle 
flights to four per year appears to be sufficient to meet ISS needs. 
However, we are reviewing this decision to determine whether any 
additional flights are necessary.
    The President's budget also provides for the continued pursuit of 
Shuttle competitive sourcing. The anticipated benefits of competitive 
sourcing include: (1) greater flexibility to recruit and retain the 
skilled personnel necessary to safely operate the Shuttle; (2) avoiding 
potential continued cost growth for Shuttle operations by moving to a 
private organization that has greater flexibility to make business 
decisions that increase efficiency; and, (3) significant culture change 
in Human Space Flight at NASA by making it a purchaser of services 
rather than an operator of infrastructure.
    Mr. Chairman, I believe the vision, mission, programs, initiatives 
and budget I have described represent a strong commitment to a healthy 
and forward-moving NASA. I believe it is deserving of the 
Subcommittee's strong support and I look forward to working with the 
Subcommittee to achieve an appropriation that supports the President's 
budget request.
    I have mentioned the opportunity I have had to meet the men and 
women of NASA, working in our installations across this land. We have a 
diverse and resilient workforce, and they are proud and excited about 
the work they are doing. They are our greatest assets and I believe our 
greatest hope for the future of this Agency. They have shown me their 
desire to be a part of the work contributing to even greater meaning in 
the larger dreams represented by this Agency. Their eagerness and 
dedication and the strength of their resolve tell me that, together 
with the support of Congress and this Subcommittee, we can achieve what 
we have set out in this budget to accomplish--and more.
    Thank you.


     National Aeronautics and Space Administration--Fiscal Year 2003
                                Estimates
                    [In Millions of Real Year Dollar]
------------------------------------------------------------------------
                                          FY 2001*   FY 2002    FY 2003
                                          Op Plan    Initial      Pres
                                          Revised    Op Plan     Budget
------------------------------------------------------------------------
Human Space Flight.....................    7,153.5    6,830.1    6,130.9
  International Space Station..........    2,127.8    1,721.7    1,492.1
  Space Shuttle........................    3,118.8    3,272.8    3,208.0
  Payload & Elv Support................       90.0       91.3       87.5
  Heds Investments and Support.........    1,247.8    1,214.5    1,178.2
  Space Communications & Data Systems..      521.7      482.2      117.5
  Safety, Mission Assurance &                 47.4       47.6       47.6
   Engineering.........................
Science, Aeronautics & Technology......    7,076.5    8,047.8    8,844.5
  Space Science........................    2,606.6    2,867.1    3,414.3
  Biological & Physical Research.......      362.2      820.0      842.3
  Earth Science........................    1,762.2    1,625.7    1,628.4
  Aerospace Technology.................    2,212.8    2,507.7    2,815.8
  Academic Programs....................      132.7      227.3      143.7
Inspector General......................       22.9       23.7       24.6
                                        --------------------------------
Total Agency...........................   14,253.2   14,901.7   15,000.0
------------------------------------------------------------------------
*FY 2001 restructured to reflect two-appropriation structure


    Senator Wyden. Administrator O'Keefe, thank you for getting 
this debate about NASA authorization off on a thoughtful basis. 
And we do have some questions.
    I also want to join you in welcoming the class from Senn 
High School. Ms. Koshaba, thank you very much for bringing all 
of them, they're going to get a sense of what the opportunities 
are in this exciting field, and we're glad the students are 
here.
    We're going to have 10-minute rounds of questioning, I 
anticipate a number of Senators coming in this morning off and 
on, with all the markups and the like. But before we do that, I 
want to recognize first our friend from Florida, Senator 
Nelson, who, in the shuttle program and in so many areas, has 
just done yeoman work, I want to recognize him first for his 
opening statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. Welcome, Mr. 
Administrator.
    I think you have uttered some profound words here in your 
printed statement. ``This is NASA's vision for the future. Our 
mandate is to improve life here, to extend life to there, and 
define life beyond.'' That is visionary. That is where NASA 
should be heading, and I compliment you. And I continue.
    So how do we get to that impressive picture of the future? 
The answer is by executing NASA's mission. One, to understand 
and protect our home planet. Two, to explore the universe and 
search for life. And, three, to inspire the next generation of 
explorers, as only NASA can. Now, if we can do that, your 
administration, under your leadership, will be wildly 
successful. It has been my hope, and it has been my little 
prayer for you--although I have not had a conversation with you 
since you were here for your confirmation hearing, a lot of 
which Chairman Wyden had me conduct--it has been my hope and my 
prayer for you that you would get bit by the space bug and that 
you would become an extraordinary enthusiast for the space 
program. And as such, with your personal relationship with the 
Vice President, and, therefore, your entree into the White 
House, you would be able to marshal, under your leadership, the 
resources that you need to accomplish these particular things, 
which are extraordinary goals and very visionary goals.
    Needless to say, Mr. Chairman, I get a little concerned 
about marshaling the resources, because we have a total agency 
budget in 2001 of $14.2 billion; in present year, 2002, of 
$14.9 billion; and in 2003 of $15.0 billion. In other words, an 
agency budget that is not only flat--it's less than flat when 
you consider the calculations of inflation.
    And in the course of today's discussion, what I'm going to 
suggest for you, realizing the political realities that you 
have to face with all the other agencies of Government wanting 
to divvy up an increasingly shrinking pie of general Government 
tax dollars, what we call ``discretionary--non-defense 
discretionary funds,'' and that is a political battle that you 
face. So in the course of today's discussion, what I'm going to 
suggest--NASA has got to have some relief someplace. NASA can't 
continue operating of trying to put ten pounds of potatoes in a 
five-pound potato sack.
    And so, as you project, over the next 5 years, what are 
your budgets going to do, particularly since we have costly 
things--like we can't scrimp on shuttle safety upgrades, that 
infrastructure down there at the Cape is rusting away, and 
you've got to attend to that, because that's a safety matter--
the only place that I can see that there's relief in your 
budget is to convince the Department of Defense that they need 
to share some of the costs for SLI over the course of the next 
5 years, which would be like found money to NASA if you're 
still operating on a $15 billion budget.
    Now, I have started to sow these seeds. It's too early. As 
we mark up the appropriation--the authorization bill for the 
armed services, of which I am a member, I am going to try and 
insert language in the bill that there should be a commission 
to study that SLI, which is the development of the technologies 
of the follow-on vehicle that will follow the space shuttle. 
Originally, this was going to be in this decade. Well, it's not 
anywhere close to this decade, because we've had stops and 
starts. And it's nowhere close to 2012. We're probably looking 
at keeping this space shuttle well on towards 2020. Ergo, by 
the way, another reason that we've got to attend to the safety 
upgrades on the space shuttle.
    And so my suggestion is--I want to get this community and 
the defense community to start talking about, is it not a 
legitimate use of DOD funds, which also has an interest in 
assured access to space--is it not--and DOD being relatively 
flush with funds, compared to NASA--is it not a reasonable 
point of serious consideration that a participation in SLI be 
not just with NASA dollars but with DOD dollars, as well, with 
NASA managing it?
    And so thank you for the opportunity for these opening 
comments.
    Senator Wyden. I thank my colleague. And, as usual, you 
raise important and provocative issues that we're looking 
forward to examining those this morning and in the days ahead.
    Let me beginning the questioning, Mr. Administrator, with a 
troubling development this morning surrounding a proliferation 
issue. And I'm not sure you're familiar with all of this, but I 
want to give you the heart of it. The press this morning is 
reporting, and I, ``Iran, with an assist from Russia and other 
countries, is developing a long-range missile that would give 
it the ability to strike NATO countries in Europe.'' The story 
goes on to quote Administration officials saying, ``We are 
concerned that Russian technology and expertise is helping Iran 
to increase the accuracy and distance of the missiles.'' I 
think certainly, as the Senate learns more, this is going to 
be, pretty disturbing in light of the fact that we brought the 
Russians into the International Space Station program to employ 
Russian scientists who might otherwise participate in 
activities that would enhance the nuclear capabilities of 
countries like Iran. And then you hear this morning breaking 
developments about how Russian scientists are helping Iran 
develop the capability of attacking NATO.
    So I think I'd like to begin by asking you whether you can 
assure the Senate that our involvement with Russia and the 
space station program is not supporting the scientists who are 
out helping Iran.
    Mr. O'Keefe. Yes, sir. You know, just 10 days ago, Deputy 
Secretary of State Armitage and myself visited Moscow. I spent 
the better part of 2 days with counterparts from the Russian 
Space Agency, Rosaviakosmos, as well as out at Star City with 
our astronauts and the Russian cosmonauts who are preparing for 
future expedition efforts. That's where all their training 
activities go on, comparable to what we've conducted at 
Johnson. In the course of those discussions that Secretary 
Armitage and I have had with both Deputy Foreign Minister 
Trubnikov as well as, very briefly, with Foreign Minister 
Ivanov, the issue of Iran Non-Proliferation Act considerations 
was raised as part of the bilateral discussions that Secretary 
Armitage engaged in in advance of the President's summit 
meeting there later this month, early the next, in specific 
reference to this particular question.
    I cannot confirm, of course, and don't know, the validity 
of this particular story. It is a matter of recognition on the 
part of the officials we spoke to, they're well aware of the 
concern, as well as redoubling their efforts to assure that the 
technology that is advanced is not employed for purposes like 
this. So what the intelligence reports may suggest on this, I'm 
not aware of.
    As it pertains to the space community within the 
Rosaviakosmos and their support for this activity, to my 
knowledge this is not a matter they are engaged in. If 
anything, they are focused very clearly on the important 
objectives of supporting our cooperative and partnering 
arrangements with great conviction. So that's their strong 
position on that.
    Senator Wyden. You're convinced the agency is complying 
with the Iran Non-Proliferation Act?
    Mr. O'Keefe. I don't know that. I think it was raised by 
us. We certainly asserted it. They assert as how they are 
convinced that they can and will and have complied. But I would 
refer you to Secretary Armitage and the State Department folks 
for a more definitive foreign policy judgment on that matter. 
That's my impression, that that is their strongest conviction, 
that they think they are.
    Senator Wyden. Why don't you get back to us in writing on 
that one, Mr. Administrator.
    Mr. O'Keefe. Sure.
    [The information referred to follows:]

            Material Requested for the Record by Hon. Wyden

    Under the Iran Nonproliferation Act of 2000 (Public Law 106-178), 
certain functions and authorities conferred on the President under the 
Act have been delegated to NASA and others to the Secretary of State. 
The responsibility for determination regarding Russian cooperation in 
preventing proliferation to Iran has been delegated to the Department 
of State. Therefore, NASA has referred Senator Wyden's question to the 
Department of State.

    Senator Wyden. It is important that I know the agency is in 
compliance with the Iran Non-Proliferation Act----
    Mr. O'Keefe. Sure.
    Senator Wyden. I think that you've got to have all hands on 
deck in the executive branch on this one.
    Mr. O'Keefe. Yes, sir. Absolutely.
    Senator Wyden. Iran represents such a security threat to 
this country that I'd like to have you all get back to us in 
writing on that.
    Mr. O'Keefe. Yes, sir. That's a perfectly reasonable 
request, and I'll get on it immediately.
    Senator Wyden. Let's go to the questions of financial 
management. We received audit information March 20, and records 
are in shambles, they can't be audited. And I think, at this 
point, with PriceWaterhouseCoopers declining to offer an 
opinion on NASA in the last audit, and the space station budget 
growing by $4.9 billion in fiscal year 2001, we've just got to 
get on top of this financial issue. And I know this is very 
troubling to you, and the reason for it is simple. It's what 
we've got to do in order to take the bold steps that you heard 
Senators talking about this morning on the science side.
    You said in your written statement that the agency is 
aggressively implementing an integrated financial improvement 
program and that you're now in the third year of the 
implementation schedule. How is this going to improve, in your 
view, the agency's financial management?
    Mr. O'Keefe. Yes. Thank you for the question, Mr. Chairman. 
That is the number-one management priority at NASA. There is 
nothing else that's higher than that. We are wrestling to the 
ground what it takes in order to implement the Integrated 
Financial Management Program as rapidly as we can possibly do 
so, because, until then, we're doing estimates on the back of 
an envelope.
    Right now, there are stovepipe systems for accounting, for 
logistics, for inventory, for human resources, whatever. As a 
consequence, this is an effort to try to pull that together and 
implement a full cost-accounting system in which you can 
actually see what the cost is of conducting activities. Right 
now, it's a very incremental process, and it's one that is very 
much stovepipe, divided among those functions, which is not 
acceptable.
    Senator Wyden. When are the stovepipes going to go? I think 
that's a good characterization, of stovepipes. You don't see 
too many stovepipes in houses----
    Mr. O'Keefe. That's right. Exactly.
    Senator Wyden.--in this country anymore, but they seem to 
still be at--I guess they're all stacked up at NASA.
    [Laughter.]
    Senator Wyden. When do you think you're all going to be 
able to get rid of them?
    Mr. O'Keefe. Well, again, the strongest objective of this 
whole integrated financial management program is to do just 
that, so that you, by making sure that the information is used 
for multiple discipline purposes--finance, personnel, 
contracting, inventory control, whatever it is--that, in turn, 
breaks down those individual cultures, or stovepipes, that 
exist that don't communicate otherwise. So that is the key to 
this. And, in my judgment, the faster we implement that, the 
better off we're going to be at achieving that task.
    As you said, we're 3 years into it. If we spent every 
single day, in my judgment, is 1 day longer than it should be 
in order to get that implemented. And I've recruited the very 
best information-technology financial-management talent that I 
know how to recruit in order to wrestle this particular 
question to the ground as rapidly as we possibly can.
    Senator Wyden. Last year's independent audit listed a 
litany of deficiencies in the financial management area. What 
do you think are the most serious from last year's independent 
audit? And what's your strategy for dealing with those?
    Mr. O'Keefe. Well, I think, clearly, the two concerns that 
were most dominant in their reservation on the disclaimer was, 
first, they couldn't access the data to back up or to support 
the financial records. That's flat-out unacceptable. It is not 
anything that even resembles modern financial management 
process. And again, that's a lot of what this integrated 
financial management system is designed to conquer so that 
you're not running around trying to find sheaves of paper to 
support transactions. This becomes a very integrated system, 
and it's one that, again, it must be implemented in order to 
conquer this problem. Otherwise, we're basically supporting a 
19th century approach to accounting and financial management 
systems for the purpose of simply documentation.
    The second area that they raised is more policy-oriented. 
Without getting into the nuances and intrigues of the Federal 
Accounting Standards Board deliberations on these things, they 
have basically tightened the rules and determined that the 
approach we must use, and that every federal agency and 
department must use, is a more corporate-like function of how 
to define expense costs versus investment-kind of 
appropriations, and, in the consequence of doing so, how they 
get differentiated. What's an investment and what's an expense 
is a matter accountants argument back and forth. So that has, 
in part, contributed to their disclaimed opinion, and one that, 
again, as a matter of policy, federal-wide, I think we've 
wrestled that question to a clearer understanding of what is 
required to comply. And I'm more confident on that front than I 
am on the former that we can achieve that rapidly.
    Senator Wyden. Cost estimation, trying to calculate costs, 
has always been hard, because of technology and innovative 
technologies become available, and I think that's well 
understood. But NASA seems to get special criticism for coming 
up with cost estimates that don't even get in the same time 
zone of the final costs. And there's been a lot of criticism on 
this question of the agency's ability to estimate costs. What 
steps are underway to make changes here?
    Mr. O'Keefe. Mr. Chairman, you're definitely appealing to 
the bean counter in me all the way on this one.
    [Laughter.]
    Mr. O'Keefe. There is no question, this is, as you say, a 
fairly, you know, standard malady that is confronted by any 
agency that is looking at technology advances, but particularly 
so at a place like NASA, which is quintessentially a cutting-
edge exploration agency, which, by definition, everything we 
pursue is going to have a substantial element of technology 
risk that will be uncertain to estimate, because it is just 
axiomatic within the technology community that you will see a 
cost on the development side that is always going to be out of 
whack relative to what the original estimates were. And the 
cost of production, for example, in computers has demonstrated 
itself to be lower cost than ever could have been achieved and 
progressively are driven down.
    So as a consequence, the challenge, in my view, in 
technology management is on the front end of that process, 
establishing an estimating procedure with an independent cost 
estimate which we are implementing as a standard organizational 
approach to be reintroduced to the agency, which has been 
dismissed for the past decade or so and now re-instilled, for 
the purpose of--up front, as we establish what program 
objectives are and determine what those program milestones are, 
to also attend to it in the cost estimate before you make 
decisions about resource allocation. Right now, it's after the 
fact. Once the program gets moving, then the judgement's made 
on what that general estimate is, and then we reconcile it 
relative to the resource allocation. That's completely reversed 
of the manner in which it should be conducted, and that's 
changed.
    Senator Wyden. My time is up for this round. I'm looking 
forward to future hearings about NASA and authorization where 
we don't have to talk at the outset about this bean-counting 
exercise. What I'm interested in is the dreaming department. 
I'm interested in the kind of vision that our children are 
talking about, such as exploration to Mars. But there's no way 
we're going to get to that place without being in a position to 
satisfy the financial analysts. These kinds of things are show 
stoppers, in terms of our ability to secure the funds that we 
need for the important science and to have credibility with the 
public. So your work in this area is especially important.
    And on my next round, we're going into the exciting things 
that all of us came to the Senate to work on in the NASA arena. 
This Committee is counting on you to put NASA's financial house 
in order. There is a swamp, a financial morass there that needs 
to be drained, and it's got to be drained quickly.
    And let me recognize the Senator from Virginia.
    Mr. O'Keefe. Well, thank you, Mr. Chairman, for your very 
accurate description of the challenge, because I, too, would 
love to get to the point where we can just debate--discuss the 
policy of the programs and so forth that support that rather 
than, you know, the accountancy of how we achieved it. It's 
terribly interesting.
    I'm sorry, Senator Allen. Pardon me. I was very compelled 
by the Chairman's commentary.
    Senator Allen. Let me just briefly state my view, is that 
you're the perfect person to put in the performance standards 
and the metrics that are necessary as one of those three 
conditions that I said, as far as principles, obviously keep us 
in the cutting edge in research and development and 
advancement. Obviously, the taxpayers need a bang for their 
buck and need to have the confidence in it. At any rate, I 
believe you're certainly--your attributes in those regards, as 
well as your wonderful, engaging personality, are the reasons 
the President put you in charge of NASA.
    Mr. O'Keefe. Well, thank you, Senator. I appreciate that 
comment. Thank you.
    Senator Allen. Let me first bring up something very 
positive about how NASA relates to some of the concerns we face 
and see if you would like to comment on it. Marian Blakey, of 
the National Transportation Safety Board, recently was thanking 
a NASA agency at Langley for their excellent support as far as 
the very worrisome crash of American Airlines 587 in Long 
Island. And would you care to comment on the work there and how 
that helps our country?
    Mr. O'Keefe. Indeed. Thank you, Senator. I appreciate the 
question.
    Senator Allen. I guess something positive here, as a switch 
from the bean counting.
    Mr. O'Keefe. Indeed. It's a great shift. Thank you. I'm 
grateful to you.
    Last Friday, Marion Blakey and I spent the day down at 
Langley Research Center, where we are conducting the forensic 
analytical effort, if you will, of the composite tail section 
of the American Airlines 587 that crashed in mid-November on 
Long Island. And the confidence that the National 
Transportation Safety Board (NTSB) has in NASA to do this 
diagnostic work for what is a terribly important effort to 
determine not only the cause of the crash itself, but also what 
corrective actions we can build into through the aerospace 
industry to prevent these kinds of challenges and problems of 
occurring and disasters from happening again, is an opportunity 
for NASA to contribute in a way that really is an immediate 
manifestation, I think, of Senator Nelson's observation, thank 
you, sir--of what we're trying to emphasize in the vision and 
mission statement. This is a protection-of-the-home-planet kind 
of characteristic that we really are most excited about. And 
the fact the NTSB has turned to the extraordinary prowess and 
capability of the engineers and technologists at Langley 
Research Center under Jerry Creedon's able leadership down 
there, I think it's a testimonial to their extraordinary 
competence and real expertise that can't be found anywhere 
else. We're very proud to be associated with Chairman Blakey's 
efforts in that regard and will support her in any way that is 
necessary to achieve an understanding of the outcome of the 
crash as well as improve the industry standards overall.
    Senator Allen. Thank you. I'd now like to turn to the issue 
of the budget and authorization. And in your statement, you 
said you believed it was a well-balanced, progressive budget 
which allows us to set the stage for the future. I think it 
needs a bit more balance. But, nevertheless, that's part of the 
process. You also talked, on page 3, about the importance of 
improved air traffic control safety systems and engineering 
that will make future airplanes more efficient and 
environmentally sound as a clear example of NASA's role in 
changing the future of transportation as well as our nation's 
security. And you also mention in your testimony hypersonics 
and quiet aircraft, our efforts to speed transport and, in 
doing so, bolster the economy.
    My questions to you here are in a context that the budget 
is estimated--the aeronautics spending, just in 1998, was $1 
billion. I'm talking about just the aeronautics aspect of this. 
And now it's been cut in half in 5 years. All of this has not 
come under your watch. But, nevertheless, it's continuing. 
First you have the blueprint as far as the future. Then you 
look at the details of the fiscal year 2003 budget summary 
estimates. In the area of aeronautics, it's really only in the 
area of--under the category--it says ``Revolutionize 
Aviation.'' This is page SAT 4-1. But regardless, in the 
Aviation Safety Program, that is generally a level funding 
there. On the Vehicle Systems Program, there is a drop of about 
$50 million. For example, the Vehicle Systems Program has been 
reduced from $369 million to $321 million. There are also items 
from the blueprint, such as supersonic technology--again, from 
this blueprint--for which NASA has not allocated any money.
    So, you know, the question I have is whether or not this 
budget includes sufficient resources to realize the goals that 
are set forth in this blueprint, which seems to have great 
acceptance, was thoughtfully prepared, as far as the blueprint. 
I'd like for you to please address that for me.
    Mr. O'Keefe. Well, thank you, Senator. Indeed, the context 
of this, as you've described it in the overall budget, this is 
a sub-element, looking at revolutionizing aviation. Last year's 
request was $527 million. This year's proposal, admittedly, is 
modest in its increase to $541 million. But the enacted level I 
think is what you're looking at, which includes a series of 
one-time kinds of efforts that were included and projects that 
will not be ongoing and so, as a consequence, measuring it from 
the prior year. Nonetheless, your point is well taken. Whether 
it's a little bit down or just a little bit up in that regard, 
depending on how we count here, it is not a significant 
increase.
    The other aspect, though, I think, that's terribly 
important on this is in the overall aerospace technology 
allowance, if you will, of $2.8 billion, which is up $300 
million in our request from the 2002 enacted level, there are 
opportunities, to the extent we see it and is necessary to do 
so and I think you're raising a compelling argument for us to 
examine this carefully in our operating plan, when we come back 
to you after the conclusion of the Congressional deliberation, 
I'll have to see how that sorts out. And, to be sure, that's 
something I'd like to continue to consult with you to see how 
our plan lays out relative to the objectives we've laid out in 
the blueprint to assure that we have complied with that, 
because that is our intent.
    So how the math works out and ultimately the opportunities 
to sort that as part of the operating plan is something I'd 
look forward to the opportunity to enjoin on again. And 
assuming that the appropriation equates to something like $2.8 
billion on the aerospace technology, per the President's 
request, we may have an opportunity to engage on that point.
    Senator Allen. Well, in that $2.8 billion figure, obviously 
in there is--for example, where most of these increases are in 
the Advanced Space Transportation, in particular, the Second-
Generation Reusable Launch Vehicle system, SLI. I have no 
problem with that. I'm just saying that's where most of the 
increase is. And it seems to me that in--most of the reductions 
are in the Vehicle Systems Program, whether it's the advanced 
vehicles concepts--this is getting into sub-subcategories, 
getting into the details, but the advanced vehicle concepts are 
down about $7.6 million; breakthrough vehicle technologies are 
down--I'm using approximates--$21 million; propulsion and power 
research, down $25.6 million; and roto-craft research down 
about $25 million. And if we're going to have this bold vision, 
it does seem that we're going to need to finance that. If 
you're prepared to be able to address some of those specifics, 
you can. If not, we can do it later.
    Mr. O'Keefe. Yes, sir. No, I appreciate that. There is no 
question there is a reallocation, certainly within the 
aerospace technology objectives. It focuses on reusable launch 
vehicle efforts, which, again, complements, in many ways, the 
aerospace technology issues and the aviation questions like 
you've raised.
    But to the very specific point of how does this square with 
the blueprint, that's one I really do take as an earnest 
commitment to go back and look at, as we discussed the other 
day, an opportunity to examine how we come out at the end of 
deliberations this year and the appropriation and to look at 
how that operating plan may best support that blueprint 
objective, because to the extent that there is, you know, a 
deficiency there, we really are committed to that blueprint, 
and I want to be sure that we've supported that in a way that 
carries out those objectives properly. So the adjustments that 
you referred to, we can certainly examine it and see where we 
go.
    Senator Allen. Well, I find these blueprints you 
reference--we talked about the blueprints you're using with the 
Chairman, the corporate comparability. And corporations, well-
run corporations have a strategic plan and they have goals, and 
whether it's market share or whatever--usually just market 
share and selling----
    My final question, since I have 1 minute, do you see a 
competitive nature of things? There's nothing wrong with 
competition, but we are in competition with the Europeans, as 
far as aviation and in the future. I would not say it's just 
all marketing. Airbus is a fine vehicle. It is estimated that 
we're going to need to have a comparable level of funding to 
the Europeans Vision 2020, which is roughly $1 billion a year 
over the next 20 years, to remain competitive. Do you agree 
with that approach? How do you see us competing to, if nothing 
else, keep our 50 percent market share, which is down from 90 
percent? But how can we at least hold what we have and 
hopefully gain, with the help of NASA? It's not NASA alone. The 
private sector is important, as well.
    Mr. O'Keefe. No, no question. The competition in the 
aerospace industry is vigorous. There's no doubt about that. 
And part of our effort, as I mentioned in the opening 
commentary, that I think we really need to stick to our 
knitting on, if you will, is to look at how we develop the 
enabling technologies to get to that next generation or that 
next capability, that leap-ahead technology required. So that 
means looking at aero-structures, propulsion systems, power-
generation capacities that may open up those kinds of 
opportunities and then to assist in that manner by helping to 
migrate that technology into commercial activity. That's our 
greatest contribution. That's the way I think we can be most 
effective at this, is to look at those kinds of technology-
advance opportunities that, by their very risk, in absence of a 
clear return ratio for market evident, becomes our greatest 
opportunity to really contribute in a great way. And that's why 
we're there. In so many ways, again, as Senator Nelson 
emphasized in the mission statement, we want to look at those 
things that only NASA can do. And, by extension, that means if 
we didn't do them, they wouldn't get done. So there are so many 
areas that really we need to focus on that technology leap-
ahead capability, that exploration of alternatives that would 
provide those outcomes, rather than looking at incremental 
improvements here or there. We really ought to be, you know, 
focused more on beating the technology limits of today.
    Senator Allen. Thank you, Mr. Administrator. I appreciate 
it.
    Mr. O'Keefe. Well, thank you, Senator.
    Senator Allen. I look forward to working with you.
    Mr. O'Keefe. Thank you, sir.
    Senator Allen. Thank you, Mr. Chairman.
    Senator Wyden. I thank you my colleague. Senate schedules 
seem hectic, even by the normal frenzy of this place. And we're 
very pleased that the Senator from Texas is here. And I think, 
with her permission, what I'd like to do is let Senator Nelson 
have his 10 minutes of questions, and then we'll recognize the 
Senator from Texas for both an opening statement and for her 10 
minutes of questions. Is that acceptable?
    Senator Hutchison. Thank you, Mr. Chairman.
    Senator Wyden. Great. The Senator from Florida.
    Senator Nelson. Thank you, Mr. Chairman. Last fall, I was 
down at Johnson and had dinner with my old crewmate, Franklin 
Chang Diaz, and I asked Franklin about his plasma rocket that 
he had been developing back since the 2080's at MIT. And he 
said, well, he was able to have it transferred to Johnson. And 
so I asked if I could go and get the tour. And he took me out 
there to that building right next to Ellington Field, where it 
is. It had already been recognized in the November 2000 issue 
of Scientific American, the Bessemer rocket.
    And I was pleased to see in your statement, on page 4, 
NASA's 2003 budget includes nearly $1 billion for a nuclear 
systems initiatives as a first step in addressing this 
challenge. And you used as an example in your statement about a 
mission to Pluto and how much that you could speed up--I think, 
a plasma rocket, for example, instead of taking us 10 months to 
Mars, it could get us there in 39 days. Half of it would be 
accelerating and half of it would be decelerating, so you 
wouldn't have the zero-G problems.
    And, as I was getting my little tour with this rocket that 
is pictured here in the Scientific American article, I asked 
Franklin how long is it before we actually start to build one 
of these things? And he says, ``Well, this is it. This is the 
first test model. And from this model, we could actually 
develop a capability, for example, that you could then use this 
plasma rocket to keep boosting the space station so you could 
save a space shuttle mission and, therefore, a savings of 
cost.''
    Now, it's my understanding--I haven't talked to Franklin 
directly since that time, which was last fall, but it's my 
understanding, through our staff, that that little program just 
keeps hanging on by its fingernails in funding. And if you're 
requesting a billion dollars for nuclear systems initiative, 
does it include this Bessemer rocket, and what are your plans 
there?
    Mr. O'Keefe. Let me take a look, Senator. I don't know the 
answer to that, and I need to get more familiar with the plasma 
rocket. I've heard of it, been aware of it, certainly know it's 
at Ellington Field, but, as it stands now, the nuclear 
initiative is primarily an effort to develop a very mature 
technology that will be, again, intended for, not just, pick 
any destination you like, Mars, wherever--for the purpose of 
cutting down the amount of time to achieve that task. And 
again, to the extent the plasma rocket effort may complement 
that or may be part of that, let me take a look at that. It 
sounds very exciting, and I need to get more information.
    Senator Nelson. I would appreciate it if you would get back 
to me on that.
    Mr. O'Keefe. Yes, sir, you bet.
    Senator Nelson. By the way, Franklin didn't ask me to do 
this, but this is just exceptionally exciting stuff. And, I 
mean, he's been working on this since the mid 1980's. He has a 
Ph.D. in plasma physics.
    Is there anybody on your staff that would have an update so 
that we can get it on the record right here?
    Mr. O'Keefe. Let me introduce Deputy Associate 
Administrator Bill Readdy, who is not unfamiliar to you, 
Senator Nelson, who is certainly, I think, familiar with the 
operational side of this from several missions of his own.
    Mr. Readdy. Good morning, sir. As you know, Franklin is 
preparing for his flight here as we speak. His laboratory out 
at Ellington Field is a concept demonstrator that he has been 
working on for many years. And your characterization is 
correct, as he has a number of graduate students that are being 
supported and doing his research. It's still in its infancy. 
It's a technology demonstrator and comes, really, under the SLI 
banner, in terms of orbit-to-orbit transportation and is 
something that we're looking at very seriously.
    Additionally, we're also looking at partnering with the 
Department of Defense on some of those issues. You may be aware 
that that engine that he has, the plasma engine, requires 
substantial electrical power and is only enabled by having some 
kind of nuclear power to support the electricity required. So 
it's interwoven. It's something that's definitely on our radar 
screen, though, sir.
    Senator Nelson. Is it funded in the 2003 budget?
    Mr. Readdy. I'll have to get back to you, sir.
    [The information referred to follows:]

            Material Requested for the Record by Hon. Nelson

    Over the summer of 2002, the NASA Exploration Team (NEXT) will 
determine the merits of continuing NASA funding for work relating to 
Variable Specific Impulse Magnetoplasma Rocket (VASIMR) technology by 
conducting a non-advocate review of the VASIMR project. The results of 
the review will be announced by the end of September. In parallel NASA 
will determine potential Department of Defense's interest in supporting 
the VASIMR project.
    The Department of Defense components, including the Air Force, are 
reviewing VASIMR technology and infrastructure to determine their 
applicability to military in-space operational propulsion needs. NASA's 
Dr. Chang Diaz will continue to pursue other funding sources outside 
the Agency, including the private sector. There is no funding 
identified in NASA's FY 2003 budget for further VASIMR technology 
development.

    Senator Nelson. Okay. I would appreciate it. And if it's 
not funded, I need to know that soon, because this is a 
technology you don't want to have suddenly stop. He had about 
30 universities that were working on this in a consortium with 
him. And since you all have assigned him to a seventh flight, 
and he's obviously got to go and do that, I don't want this to 
be an opportunity that that research stops, and I want to see 
that the funding continues.
    All right, well, let's talk about the shuttle-upgrade time 
lines. We had a hearing here. The Chairman had held it in the 
first week of September, and the associate administrator was 
one of the witnesses at the time. There was a panel of some 
five folks, inside and outside of NASA, and all were unanimous 
that we had to start moving to incorporate these safety 
upgrades in order to avoid the unthinkable. So I'd like you to 
update me on that.
    I notice that, again, the funding for the shuttle is flat. 
And help me feel a little better about how we're going to 
progress so that we can keep this system flying until--I think 
your latest data point was something like 2020--please?
    Mr. O'Keefe. Let me just offer a couple of comments and ask 
Bill Readdy to elaborate on this a little bit to the amount of 
time he spends dedicated every single day to the safety 
objectives. And let me just mention, you know, three quick 
points.
    First and foremost, I share your conviction that the safety 
objective is paramount. There is no higher requirement than 
that. As a consequence, having attended flight readiness 
reviews, the whole nine yards, leading up to each flight, I 
think, is a critical effort and one that I've found most 
enlightening in terms of the effort that we're involved in 
every day to assure that this is paramount all the way up to 
launch. The last launch occurred with 11 seconds left on the 
window, and I was confident that if there was any reason 
whatsoever the launch director felt there was anything that 
could possibly compromise the safe flight requirements, that 
that would have been deferred. So, I mean, every single 
individual that's involved in that activity, all the way up to 
the last possible second, is fully empowered and expected to 
say, ``No,'' to say, ``Stop, defer this, cancel, delay,'' 
whatever is necessary to assure safety of flight. We are 
committed to that completely.
    The second point I'd offer is, the only other comparable 
community that I've ever witnessed, seen, or been aware of that 
is equally zealous about the safety objective is the nuclear 
community, particularly the naval reactors community. And what 
I'm hopeful and, as a matter of fact, we'll be announcing here 
in the days ahead more formally, is the recruitment of a new 
chief engineer who comes from the naval reactors background, 
very specifically focused on that task, who is equally 
committed to the safety objectives. And that, in my judgment, 
is more and more of an effort to assure that we have focused on 
the safety aspect of this.
    Last, I would offer and very specifically to your 
observation, Senator, that the ASAP panel, the safety group of 
experts that we brought in, are the most impressive collection 
of folks I have seen from industry backgrounds, operational 
backgrounds, certainly as an astronaut who is a member of that, 
as well, and the quality of their expertise, backgrounds, and 
interests in what goes on is just positively stunning. It has 
been a testimonial, I think, to Fred Gregory's efforts to 
recruit each of those individuals in the time that he's spent 
as an Associate Administrator for Safety and Mission Assurance. 
An astronaut himself, and, you may recall, he was the CAPCOM on 
the Challenger--so this is ingrained in his memory, every 
single moment of every day, and, therefore, he is committed to 
that task.
    Having said that, I found in meeting with the ASAP panel 
many times privately and in public sessions, then later on in 
reviewing their recommendations that, while we share and are 
equally convinced that there are concerns we have to look--to 
include the prompting of Fred Gregory, the Associate 
Administrator for Space Flights--to examine what it will take 
to extend the Orbiter beyond 2012, potentially as far as 2020, 
so we can begin to carefully look at that assessment. What I am 
expecting from that panel is a more deliberate, ordered, 
prioritized focus on what those safety objectives and upgrades 
should be, because the sum and substance of their 
recommendation this time out is that more is required and more 
people are required to monitor it. And so I've asked them to 
become a little more specific, in terms of the prioritization 
set, when they convene next, which is now coming around the 
corner pretty quickly, so that we can get a very clear program 
priority set from that.
    The only change that's occurred this year is an electric 
auxiliary power unit that was deferred because of technical 
challenges that we could not overcome in time to include in 
this coming year's budget. Beyond that, the safety objectives, 
the safety upgrades we have pursued are vigorous, in my 
judgment, but should be more so, if need be, based on the 
assessment both of Fred Gregory's request, that we look at what 
it'll take to support the shuttle potentially beyond 2012, and 
this panel of experts, who I think are extremely well 
qualified, to give us a more systematic and specific judgment 
of which upgrades we should be pursuing to assure the safety 
record we have really labored to achieve over these past 16 
years.
    Senator Nelson. Could Mr. Readdy--you had indicated he 
would----
    Mr. Readdy. Well, firstly, I'd like to say that you cannot 
overstate the commitment of our current administrator to flight 
safety. Unprecedentedly, he was at a Flight Readiness Review 
immediately after he was sworn in as our administrator. I think 
the signal that that sent to the community at large was one 
that, all the way to the top of the agency, there is a 
commitment to flight safety, second to none.
    Certainly in the Office of Space Flight, we live that every 
single day, and it's a commitment that I think he has 
reinforced recently with the naming of Brian O'Connor, former 
astronaut, as the Associate Administrator for Safety and 
Mission Assurance. And we look forward to working with Brian. 
We look forward to working with the ASAP on prioritization of 
upgrades for the coming years.
    Senator Nelson. Mr. Chairman, I have other questions, but 
obviously the time is up, so we'll just defer.
    Senator Wyden. I thank my colleague. And let me recognize 
Senator Hutchison. I know that I inflicted a long opening 
statement on the Administrator, and you haven't even begun your 
opening statement.
    So, Senator Hutchison, you may proceed both with your 
opening statement and any questions, as you choose.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman, and I 
apologize for being late. I had another appointment, but this 
is very important and certainly a priority for me.
    Mr. O'Keefe, I thank you for coming. This is obviously the 
first visit since your confirmation, and our first chance to 
look at your early steps. I'm pleased that you took the job as 
early as you could, and now I'm hoping that we can move 
forward.
    I want to say that we cannot have a visionary, exploratory 
NASA if we don't fully fund it. I think you have stated that 
your priority is to determine where the money is best spent and 
to do the most that NASA can do. However, last year, I think we 
made a mistake in not funding the space shuttle safety upgrades 
and cutting the space station's funding by $150 million. This 
year, the Administration requested $250 million less than last 
year's appropriation for the space station.
    I think that NASA must, obviously, get its house in order, 
but I have to state my early concerns. I have said earlier, in 
your confirmation, that I was very troubled by the limit of the 
three-person crew for the space station. With this limited 
crew, 80 percent of astronauts' man-hours would be taken just 
to operate the space station, leaving less than 20 percent for 
the man-hours to conduct research. So I'm worried that we may 
have a permanent situation where we have 80 percent of our time 
just operating and only 20 percent for the innovative research 
that we must get if we're going to make this a priority for 
NASA.
    Second, when the termination of the X-38 crew return 
vehicle occurred in favor of developing a new vehicle, it then 
triggered the thought, are we going to jeopardize safety, which 
I doubt. I don't think anyone would be recommending that. But 
then you've got a delay in the safety return vehicle, so what 
does that do to the timetable? We originally had a 7-person 
crew timetable for the end of 2006 that's now 2008. The X-38 
crew return vehicle now has been cancelled. It was supposed to 
be operational in 2008 to coincide with the 7-person crew. Now 
as you proceed to do a new vehicle, I hope that the decision to 
have a 7-person crew by 2008 is not put off because of the crew 
return vehicle. Now you're looking at possibly waiting until 
2012 for the new vehicle to replace the X-38. I hope that those 
numbers are wrong and I know that you will tell me if they are, 
because I think 2012 would be too long to wait for the 
important research that we want to get.
    So I would like to ask you three questions, if I do have 
time. The first is the REMAP, the research maximization and 
prioritization study that is due out in June. It is to assess 
the significant research that can be performed on the space 
station and it's being conducted without assuming whether there 
would be a 3-person or 7-person crew.
    If the REMAP study finds that significant research can 
better be accomplished with a 7-person crew, will it be your 
goal to expand the station to the crew size, to seek the 
funding, and to make it on a much shorter timetable than 2012?
    Mr. O'Keefe. Absolutely. You've touched on precisely, I 
think, the pacing issue that is necessary to establish, what is 
the requirement for any crew size. And what we've asked the 
REMAP, the prioritization of science panel to do, is to be very 
clear about what they think are the priorities that could be 
pursued to utilize this unique microgravity condition. If it 
can be conducted in a lab here on earth or in your garage or 
anywhere else, then it shouldn't really be qualified in this 
particular case.
    We really look at what the rigorous environment this 
infrastructure provides could do for the research agenda. And 
then second, to also focus very specifically on what those 
research breakthrough opportunities might portend in each of 
those various scientific disciplines. They have taken that 
challenge on.
    I'm impressed with the zeal and enthusiasm with which they 
have done that, the diligence that they had taken to it, both 
Ray Silver, the chair of that panel, from Columbia University, 
and from Dr. Dave Shirley from UC Berkeley, a Glenn Seaborg 
protege as a nuclear physicist there, have taken on this 
challenge and have done a remarkable job, and I fully expect 
they are going to answer that.
    That will then inform us what that capacity should be on 
International Space Station based on that priority set, and 
then we can begin to start looking at what that will entail in 
terms of, based on that priority ranking, what the capacity 
size ought to be, how many crew are required, how many shuttle 
operation flights are necessary to support it, whether Soyuz ia 
an appropriate capacity to count on and for what period of 
time. All those things will then begin to, I think clarify a 
bit more in that process, and we will have a truly prioritized 
scientific agenda that's driven by that requirement. So I very 
much appreciate your observation on that.
    Senator Hutchison. And if we have that priority set, then 
will you go back and revisit the 3 versus 7, and try to make it 
a priority at NASA to fully fund the research that we believe 
can be done from this study?
    Mr. O'Keefe. Two quick observations on that point because, 
I don't mean to be evasive on this; it is more that that I 
think it is driven by two factors. The first one is, in order 
to get to any configuration, any at all that we may imagine, we 
have to first reach the most significant milestone in this 
program, which is what's referred to as Node 2, which occurs in 
early February to March of 2004. We have 10 flights that have 
to be successfully accomplished between now and that time to 
build that space station to the core configuration. The focus I 
have attempted to infuse throughout the agency and indeed, with 
our look at International Space Station, is to get to the 
basics, get to the fundamentals, assure that we do that to 
facilitate the opportunity to have this kind of dialogue about 
how big that configuration ought to be.
    So from an engineering standpoint, no matter what the 
science may tell us, or how much money we may have, independent 
of those two factors, if we don't meet those engineering 
milestones, to integrate this large scale systems integration 
challenge, by early 2004 we are constricted to where we are. So 
that is a very difficult challenge and one that I am really 
fixated on being sure we meet that milestone objective that 
then opens up the opportunity to facilitate a larger more 
expansive excursion of whatever configuration we may deem 
appropriate.
    The second factor is, I think you've touched on the point 
very directly and I appreciate your appreciation and 
observation of it, is that the science objectives will then 
drive what that consideration is of how big that crew size 
needs to be to accomplish that requirement. If that number is 
7, if that number is 10, whatever it is to accomplish it, we 
then have information that we can make some judgements about 
how will we build the capacity to accommodate that, what would 
it cost, and then we have a dialogue and debate in terms of 
what that should be.
    And in terms of my advocacy of that, that is but one 
element of looking at what that prioritization set will inform 
us is worth the time, effort and imposition indeed, on the 
astronauts we've asked to engage in this, to really conduct 
that scientific objective. So the answer is, yes, we will 
certainly reexamine what that size configuration is, driven by 
those two major factors.
    Senator Hutchison. Okay. Let me ask you this. You have said 
that you have to accomplish all of these flights before 2004. 
The study comes out in June. Are you looking at starting the 
process of prioritizing after the study in June or are you 
thinking of waiting until 2004 to determine what is our 
priority and how can we then accomplish what we need to 
accomplish?
    Mr. O'Keefe. As soon after that report is released, I hope 
to muster everybody who's got a focus on this at the agency to 
that very task, to begin organizing those priorities.
    Senator Hutchison. You won't wait until 2004 to begin that 
process.
    Mr. O'Keefe. No. As a matter of fact, we specifically went 
about the business of recruiting Dr. Shannon Lucid as the new 
chief scientist at NASA. She's from Johnson Space Center, and 
certainly well known as the American with the longest record of 
endurance in space of 188 days when she was aboard Mir, and she 
is now along with Mary Kleza, the Associate Administrator for 
Biological and Physical Research, going to be tasked with, and 
taking on willingly, enthusiastically the task of taking that 
report from the scientific prioritization panel and making 
judgments about how we can now reorganize what the payload 
requirements are for successive flights once we have built out 
to core configuration. So that's going to take time and work, 
and they are dedicated to starting right away, as soon as that 
report comes in.
    Senator Hutchison. Okay. Switch gears to the X-38. 
Obviously the Human Space Flight is where the X-38 was 
headquartered, and that was because, of course, that's where 
the humans are. And so now you've got apparently the new 
vehicle that would provide for both cargo and astronaut 
transportation. NASA officials have said that this is going to 
be done at the Space Launch Initiative program.
    My question is, do you plan to have the Human Space 
component of that work for design and production performed at 
Johnson Space Center, where the humans and the research center 
are?
    Mr. O'Keefe. Senator, thank you. Your characterization of 
the X-38 decision on that is precisely right, a single mission, 
single purpose spacecraft that will cost us on the order of at 
least a billion, maybe as much as 2 to develop, to be tethered 
to the International Space Station, is now a design we know how 
to do. The question of whether we want to make that investment 
now at this time, given the alternative of looking at a more 
versatile multipurpose craft, is again, an opportunity that we 
can't pass up. So rather than develop a single purpose craft, 
we can pursue the other. I think we can do it along the same 
time frame.
    Within the Space Launch Initiative effort, you have 
precisely characterized this as a series of derivatives that 
are based on known flight test articles that we have flown, 
demonstrated and know how to do. We are trying to leverage that 
technology with as many other partners as we possibly can 
throughout the federal establishment. And I think we can 
accomplish that task in roughly the same time parameter going 
on.
    When we make that down select decision about what those 
candidates are for prototyping for Space Launch Initiative, the 
opportunity to answer your question precisely of where that 
work will be done and who will be responsible for this in-
service engineering and the other design elements will be a lot 
clearer. Right now it is purely speculative on my part on who 
might win, or what design or what prototype is best.
    But to be sure, absolutely, I don't want to be ambiguous 
about this at all.
    Senator Hutchison. Good.
    Mr. O'Keefe. The Human Space Flight dimension of this is 
paramount. It has got to meet the requirements for an emergency 
rescue capacity despite its multipurpose taskings that may 
ultimately emerge from whatever prototype we select. That 
resident expertise, competency and understanding is deepest at 
Johnson Space Center. We can't move ahead without them. They 
are critical to this activity and we need to make sure we 
collaborate on that effort as widely through this agency to 
meet this challenge as we possibly can.
    Senator Hutchison. Well, I would be very concerned if I 
thought there were going to be any devaluation of the human 
component that is at Johnson Space Center, and of course if 
you're going to have a multiservice vehicle, it must have the 
human transportation side, and I would hope you wouldn't try to 
move that and therefore take away from the strength of Johnson, 
where we have always had the human component headquarters.
    Mr. O'Keefe. Thank you, Senator.
    Senator Hutchison. Is--would you----
    Mr. O'Keefe. No, I fully appreciate your point and I 
understand exactly what your preference is in that regard. 
Again, I think we really need to be--they are central.
    Senator Hutchison. Mr. O'Keefe, I understand that you have 
answered that you understand. But the question is, is there 
anything in your mind or plans or thoughts that could devalue 
the human strength at Johnson Space Center?
    Mr. O'Keefe. It would be speculative on my part. I do not 
want to deceive you by telling you flatly that everything is 
going to stay the way it is today. I don't know that to be the 
case. As we transform this agency, to be focused, selective and 
do what we need to do in order to meet the agenda, the mission 
of what this agency is about, there is going to be change. I 
don't know; I am not holding anything back here; I don't know 
of any change to the present configuration of the Johnson Space 
Center or any other of the 10 centers we operate, that would 
impact on any of the core competencies engaged. I'm not 
attempting to be evasive on this, but I do not want to deceive 
you to tell you that there is somehow going to be an exact 
maintenance of the status quo for as far as the eye can see. I 
don't know that to be the case and I would not speculate on 
that point at all at this juncture.
    It is a very important dimension, though. Human Space 
Flight is critical. We intend to emphasize it. It is central to 
what we do. Johnson Space Center has always been a center of 
core competence on that regard.
    Senator Wyden. I thank my colleague, and let me ask just a 
couple of additional questions if I could, Mr. O'Keefe, and I 
think my colleagues, I know Senator Allen has got a very hectic 
schedule, and Senator Hutchison, you will see us coming in and 
out, but be assured that Senator Allen and I are going to be 
working on a bipartisan basis on this bill with you, with 
Senator Hutchison, Senator Nelson, and all who have been very 
interested in this, and we're going to wrap up in a few minutes 
with just that objective in mind, and we will excuse our friend 
from Virginia at this time.
    Let's talk a little bit about some of those exciting issues 
that are exciting our kids, and make Americans optimistic about 
the future and what's ahead, and let's start by talking a bit 
about a manned mission to Mars. I think what I get asked even 
during my relative short tenure as Chairman of this 
Subcommittee is when we are going to see a manned mission to 
Mars. And I think it would be good to get your sense to the 
extent that you can crystal ball when that would come about, 
and what are some of the factors that go into what's ahead with 
respect to this dream that so many Americans, myself included, 
have with respect to Mars?
    Mr. O'Keefe. Mr. Chairman, I think there are two, at least 
two fundamental limitations on picking any date, time frame or 
means to accomplish a human space flight to Mars, or for that 
matter, any other destination in many respect, is two primary 
factors. And again, there are several others, but these are the 
two show stoppers in my judgment.
    The first is, again, the means to get there by any speed. 
We have a power generation and propulsion capacity right now 
that is very much limited to solar electric. We are looking at 
a range of different technologies that may speed, advance and 
enhance that capacity to actually explore at a rate that would 
inform the resurgent and get to anywhere you want to go in a 
time frame that is reasonable.
    The nuclear power initiative and power generation capacity 
initiative that we have promoted for this year is clearly the 
first major step in that direction, not because of its origins 
but because it's the most mature technology, and as we seek to 
develop other technologies to accomplish that task to get there 
in a way that informs the research agenda sooner, and that 
maintains more on station time for any location, Mars included, 
that would be an advantage.
    The second limitation has a relationship to the first, and 
that is the effects on humans. What we are discovering on 
International Space Station today is that the radiation effects 
and so forth that have been encountered, and what it takes to 
live in space for long durations, and this is our first real 
effort at that in all of our storied history of human space 
flight, that what we've encountered with that question, what 
we've learned from the probes to Mars, certainly the Explorer 
missions that will be coming next year will enhance this, is 
that the radiation effects on human beings would be at least a 
factor of 3 higher than what they are in low earth orbit right 
now, and that's a challenge.
    We're dealing with that today and we know how to work that 
problem, but something that's three times that, we honestly 
don't know. We don't know how to sort through that. So there's 
a range of different capacities to shield astronauts from that 
extensive radiation exposure, but part of it is like anything 
else. When you go to a doctor for an x-ray, it's also a case of 
extension of duration of intensity, so the shorter the amount 
of time that exposure occurs, the more likely--it's not just 
intensity, it's duration of intensity that can be accomplished 
by conquering that first technology challenge.
    If we can meet those two problems and really address that, 
then the answer to your question is, let's pick a date, let's 
figure out when it's going to go. Because there are 
opportunities really then to inform in a way that may make that 
excursion, that expedition possible, if it's informed by 
scientific judgment that says there's a reason to go there. I 
think there's mounting evidence to suggest to us that there 
might be.
    Senator Wyden. You seem to be interested in significant 
changes in terms of the near-term unmanned Mars exploration 
initiative, that's reflected in the budget. I think you really 
touched on that a bit in my first question, but give me a sense 
of how you see our unmanned missions laying the groundwork now 
for future human exploration.
    Mr. O'Keefe. Well, the opportunity to pursue exploration of 
objectives, first with robots, will provide an opportunity, I 
think again, to gather the information, gather the data that is 
necessary to determine what is the effect for human 
exploration. And so we are really ambitiously pushing a series 
of robotic exploration missions, we have two coming in 2003 and 
beyond that are designed for the Explorer mission there, and 
that will gather the information necessary and again, you know, 
blaze the path if you will, to ascertain precisely what the 
conditions would for follow-on human space flight endeavor.
    Again, that's one of the great advantages of International 
Space Station today, is we learn and we can determine, in 
addition to accomplishing the science agenda, the very first 
priority of Station's requirements, is we also learn a lot 
about what it takes for extended duration space flight and 
exposure, that we will need to know before we pursue any 
exploration. The robotic effort that we are pushing real hard 
and the missions that we are advancing will inform that debate 
even better.
    Senator Wyden. Let me ask you, and we're going to examine 
this some more at future hearings as well, your education 
agenda for NASA. I think you're very much on target in terms of 
where you want to take the agency. This too is an opportunity 
to have benefits that will ripple through our society. They 
will, benefit our economy in terms of making it possible to 
have more trained and educated leaders. It will clearly advance 
the science agenda of this country. I think the benefits just 
multiply exponentially when you look at the possibilities of 
what is envisaged in terms of your education agenda.
    I think what I want to ask you is, how do you get there 
from here? I mean, here you are with an agency that's got some 
pretty serious, financial constraints. I've been pontificating 
at some length through a couple of these hearings about the 
financial problems documented by the General Accounting Office. 
And this is an ambitious undertaking that you are seeking in 
the education area. I personally believe that this country 
can't afford not to do this. We can't afford not to pass up 
some of these investments. But tell us how we get there from 
here. I mean, how do you see this all being put in place?
    And I want to also announce a little bit of a bias here. 
When I was a young member of the House, as I say, with a full 
head of hair and rugged good looks, I wrote the Talented 
Teacher Act, which became the Christa McAuliffe Fellowship. 
This is something I'm very interested in and it's an area we're 
going to explore at future hearings.
    But just, if you would, sort of walk us through your sense 
of how you're going to move this agency towards a very 
different focus, one I think is a very good one, into the 
education area.
    Mr. O'Keefe. Well, thank you, Mr. Chairman. I appreciate 
the question. And thank you for your leadership in that regard. 
The efforts that the Christa McAuliffe Foundation and the 
program involved has offered continued hope and inspiration, I 
think, for an entire generation of folks as a consequence of 
your leadership in that regard.
    I think there are three ways we can really focus on the 
education objectives. First and foremost, the one that's been 
most often discussed here in recent weeks, is the 
reestablishment of a program that consistently will have the 
opportunity for an educator to be in the space flight program. 
The educator mission specialist program that we've announced, 
Barbara Morgan will be the first of which, and her mission is 
destined in about 18 months or so, is markedly different from 
where we were 16 years ago with Christa McAuliffe's program. 
Although interestingly, Barbara Morgan was the backup to 
Christa McAuliffe at that time, and so she is exceptionally 
devoted to this particular mission and objective, but won't be 
the last of the education mission specialists.
    What is distinctive is, this is an opportunity to train 
educators through the astronaut candidate program and then 
ultimately the advanced training program, to perform the range 
of mission requirements that are necessary for any astronaut, 
but to view those objectives through the prism and the eyes of 
an educator, and therefore translate that remarkable 
information that they're dealing with and what they see as a 
means to deliver to classrooms in a way that we frankly, 
physicists, astronomers, marine biologists that we've had 
aboard spacecraft, as well as legislators, view it from an 
entirely different perspective. And so educators see this from 
a standpoint of how do I translate this into a classroom, and 
she in turn will be our path blazer, if you will, to looking at 
this through the prism of an educator, and how do we translate 
this to excite that generation of kids. Both Lilly and my son 
Kevin are both of the age bracket who will be motivated in that 
regard by that case.
    Secondary is to look at the range of things we do around 
NASA right now. It's amazing. Every single center I have been 
to, and I have hit all 10, many several times, with the 
opportunity of looking at a wide range of programs that we 
manage and are engaged in, and every single center, all 10 of 
them, have these absolutely phenomenal education initiatives 
going on, or outreach programs, or opportunities to make what 
we do available to classrooms and to universities and colleges 
and so forth and as a consequence, to try to pull all that 
together and do it in a coherent way that really will focus on 
this objective. I would really be excited about the opportunity 
of pursuing in a separate discussion with you, as you have 
suggested, the way to lay out all the things we do right now 
and do it in a more focused, coordinated way that frankly 
doesn't take any more money, I just think it takes more focus 
and concentration.
    Senator Wyden. Do you all even have an inventory of 
everything you're doing in the education area now?
    Mr. O'Keefe. We're just beginning to get that. I mean, that 
was an interesting question all by itself. Going in, I mean, 
this was not for lack of activity throughout the agency. 
There's lots and lots of education outreach efforts, but it 
really hasn't been inventoried that carefully.
    There are some very specific initiatives. Our education 
office within headquarters certainly looks at some very 
specific areas, the grants, and this is the best we've got, and 
I'd like to insert it for the record, but it's incomplete in 
terms of what's involved.
    Senator Wyden. Without objection, we will put it in the 
record.
    [The information referred to follows:]

            Material Requested for the Record by Hon. Wyden

    NASA is establishing an Office of Education, headed by Dr. Adena 
Loston, as a new, mission-focused organization, which will aggregate 
NASA's education programs, management and staff. This office is 
currently in the process of developing an exciting new education 
initiative and at the same time, reviewing existing programs for 
alignment with the new organization's priorities. While the 
Administrator offered to provide a list of current education programs 
or grants we believe it premature at this point as such a list will not 
fully reflect our new focus. This review will not be completed until 
late FY 2003 and we would welcome the opportunity to brief the 
Committee at that time.

    Mr. O'Keefe. Thank you, sir. It's an education summary of 
what we think we have right now but frankly, with the things 
I've seen in the last 4 months, many aren't even discussed 
here, because they are just things that have kind of cropped up 
within the centers that are truly just tremendous outstanding 
opportunities to really be engaged in.
    So, we have to go about a very concerted effort, I think, 
of conscientiously pulling together the efforts of what we're 
engaged in now, and then assessing where we take that for 
greater outreach.
    The last point that I'd mention, Mr. Chairman, if you 
would, is to do this in concert with the Department of 
Education. There is a very strong math-science initiative that 
Secretary Paige has promoted as part of the No Child Left 
Behind efforts in legislation that was enacted last year, and 
as a consequence, really focusing on how we could do this in 
tandem and in a more concerted, focused way. There are a range 
of opportunities that the Department of Education is engaged in 
that Secretary Paige and I have met to talk about how we could 
build off the very specific programs that they have created, 
and lend our capacity to that particular activity as well.
    So on all three of those fronts, I think we are out of the 
starting blocks, but more to follow in a more----
    Senator Wyden. Out of curiosity, is this something that you 
and Secretary Paige think that you could do using existing 
authority, or do you envisage areas where new federal laws 
would be required or things of that nature?
    Mr. O'Keefe. Based on what I know right now, what we need 
to do is use the existing authority we have in a more targeted 
way and a more focused way. To the extent that there are other 
authorities that may be required, I can consult with him and 
determine what may be necessary there, but I know of none right 
now that stand in our way of achieving some of the objectives 
we've talked about.
    Senator Wyden. We will talk some more with you about this 
area, because I think this is one that could really be a sort 
of, flagship initiative on the O'Keefe watch. Because under 
normal circumstances, when everybody says look, you know, the 
records down there are in shambles, and the General Accounting 
Office can't even, begin to review them. And somebody comes and 
says they want to start something new under normal 
circumstances, people say forget it, there's no way we're going 
to let you do anything new until you clean up the problems you 
already have. But I think someone like yourself who does bring 
strong budgeting credentials could well be the kind of person 
who could, make a major education initiative a sort of flagship 
of your service, and is something I really want to be involved 
in. I think it's one of the things that really makes the 
American people and business leaders and other stakeholders, 
interested again in the future of NASA. And we will be talking 
to you about that.
    I want to recognize my friend, Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. First of all, as a 
follow-up on my previous comments about DOD participating in 
the development and research on LSI, I would like to enter for 
the record my question to the Department of Defense on February 
12th of this year, of which Secretary Roche responded, that 
should be a part----
    Senator Wyden. Without objection, that will be entered into 
the record at this time.
    [The information referred to follows:]

      Response to Written Question Submitted by Hon. Bill Nelson 
                           to Secretary Roche

Common Space Functions
    Question. Senator Nelson--Some in the space community caution NASA 
to maintain the ``firewall'' between military and civil space 
activities. This cautious approach to NASA-DoD cooperation ignores the 
reality of greater interagency integration with common objectives to 
save money and denies NASA a critical and appropriate role in 
supporting public safety and global security. I have argued that a 
national space policy that limits DoD's role in reusable launch vehicle 
(RLV) development may need to be revisited to allow significant DoD 
contribution to the Space Launch Initiative.
    What is your position on the future of cooperation with NASA for 
critical, common space functions such as space lift? Will you use the 
Shuttle to meet DoD space delivery requirements?
    Answer. Secretary Roche--The USAF fully supports cooperative 
efforts with NASA to maximize synergy on common space functions such as 
spacelift. Due to national policy restrictions and overall costs, DoD 
has no plans to use the Shuttle for major DoD payloads. However, the 
DoD does use the shuttle for a variety of space experiments and small 
payloads. We are fully engaged with NASA planning for future launch and 
range capabilities. The USAF and NASA have conducted a joint review to 
harmonize future RLV technology efforts. Although our organizations 
have differing launch requirements, we see benefit in working closely 
with NASA in a building block approach to achieve affordable, routine, 
and responsive access to space. Additionally, NASA and the Air Force 
have formulated a Memorandum of Agreement that establishes policies, 
roles, and responsibilities in pursuit of advanced launch and test 
range technologies that are applicable to expendable & reusable launch 
vehicles and ballistic missile testing. In meeting the goal of a 
coordinated national focus on next-generation technologies, NASA and 
the Air Force have established the Advanced Range Technology Working 
Group to serve as a forum of U.S. parties who have an interest in space 
launch support technologies.

    Senator Nelson. And since that earlier round of statement I 
have double checked, and it looks like that we will have the 
appropriate language in the markup of the Armed Services DOD 
authorization bill. So if this makes it all the way through 
this tortuous process, you will have another basis upon which 
to try to get these heads together.
    I want to ask you about the space station. At Syracuse you 
gave a speech that said that from now on, NASA will be science 
driven. What I would like to find out is, given the fact that 
the way the station is configured now, it's basically for its 
care and feeding of the station, and to really get the science 
out of the station, we've got to be able to expand it so that 
we have a larger crew up there. How about commenting on that?
    Mr. O'Keefe. Yes, sir. Without regard specifically to the 
amount of science that can be conducted, again, Shannon Lucid 
is probably an expert that I would defer to on this matter any 
minute of any day. She's been there, done that, and gotten 
several t-shirts, and is a profound scientist as well. So she 
is really looking at this question of what we will do once we 
get the science prioritization set approved.
    As it pertains to station and how much or what it should 
be, the first milestone that must be achieved before we can 
ever talk about what other configuration might be desirable is 
to reach the February-March 2004 Node 2 installation. All of 
the components, all of the modules, everything that would make 
any prospect of station larger than its present configuration, 
may only be feasible is that's successfully accomplished, and 
that's no mean feat.
    Between now and February-March of 2004, there are 10 
flights required. Every single mission must be successful in 
order to build on the advance of the last mission. So if 
there's any deficiencies, and we've got to see it as 
successful, and it was wildly successful on the 110 mission 
that just came back a few weeks back that installed the central 
S-0 truss, that then the entire truss system is built off of. 
If we can't get each of those pieces, each part of that 
milestone, each of those systems engineering challenges 
conquered, any discussion about what would it look like beyond 
core configuration is purely academic, notwithstanding our 
fondest desires or any amount of money.
    Senator Nelson. But you're had extraordinary success thus 
far.
    Mr. O'Keefe. Yes, sir.
    Senator Nelson. I mean, what you've put up is just 
unbelievable.
    Mr. O'Keefe. It's phenomenal.
    Senator Nelson. You know, I mean we need to recognize the 
technological achievement of what we've got.
    Mr. O'Keefe. It is tremendous.
    Senator Nelson. But the thrust of my question is, slowing 
down on an assembly that basically is being completed is just 
going to raise more costs in the future for the International 
Space Station, and how are you going to get to that point where 
you've got six or seven crew members on board so that they can 
do the science?
    Mr. O'Keefe. Yes, sir. Please, let me assure you, we are 
not slowing down the systems integration challenge at all. I 
have repeatedly, regularly, frequently spent time, as a matter 
of fact more time than the project manager of International 
Space Station would like, I'm sure, at Johnson Space Center and 
here at headquarters working through the very specific 
integration challenges to reach the configuration you have on 
the chart in front of you.
    I have asked every single time we have met, is there a more 
aggressive flight rate, is there a way we could integrate this 
system faster than what is on this chart, and the answer is no. 
This is the optimum engineering configuration to meet the core 
configuration as fast as the engineers and large-scale systems 
integration managers know how to do it. And they are doing, as 
you say, an amazing job. This is a technological marvel.
    Senator Nelson. Haven't all the projects on the station 
beyond the core complete been put on hold?
    Mr. O'Keefe. Again, this is chicken and egg. In order to 
get to the next series of configuration options, you must first 
reach the core configuration. Anything that needs to go on now 
to plan for any excursion beyond core configuration, on a 
technical level, is being conducted. The pacing item continues 
to be the actual production, delivery, payload integration and 
launch of Node 2, and that then facilitates the centrifuge 
which is currently under production; habitation modules which 
are under design. Any number of different approaches, the 
ecosystems and so forth, all of which would be the follow-on 
endeavors that would go beyond this are all from a technical 
standpoint being examined. Nothing is being slowed down.
    Senator Nelson. I understand. But you can't put 7 people up 
there unless you've got, for example, an emergency rescue 
vehicle that can handle 7. So when do you crank that in? You 
see where I'm going.
    Mr. O'Keefe. Yes, sir, I do.
    Senator Nelson. I want you to be successful in having 
science on the station, and you said in Syracuse that NASA's 
future will be science driven. So how do you get from here to 
there on the space station?
    Mr. O'Keefe. By sticking to the basics, getting the 
fundamentals right, achieving each milestone and assuring that 
we have an opportunity to have a debate on what that 
configuration will look like if we can achieve all those 
milestones. Because I stand by that statement.
    The primary requirement for International Space Station, 
not the only one but the primary, should be science driven. And 
as we had explored in several discussions here this morning, 
the opportunity to look at the prioritization set on what it is 
that will use that unbelievable gold standard micro gravity 
condition in a way that we can't replicate here on earth in any 
laboratory condition, or even with bioreactors, how do you use 
that. And then second, how do you look at what those research 
breakthrough opportunities would be, that if they wouldn't be 
achievable if it were not for this capability.
    We want to get there as rapidly as we can to do it under a 
very comprehensive systems engineering model. This is an 
aggressive model; it's the one that is considered optimum by 
the program management engineers. I have been through this with 
them on regular occasions in an attempt to look at how could we 
possibly change that configuration to maneuver that set of 
options to optimize that particular effort, and this is it. 
What you see as laid out on the schedule is the fastest we can 
get there according to the engineers and the systems 
integrators involved.
    Senator Nelson. What did you say about Node 3?
    Mr. O'Keefe. Number two is the facilitation piece that 
makes all of the other modules and components to be installed 
in February to March of 2004 feasible. Node 3 becomes an 
opportunity if you achieve that big milestone objective.
    Senator Nelson. Okay. We're going to keep visiting on this. 
Let me shift to something else. Basically your space shuttle 
budget is flat, and you've announced that you are going to have 
four launches, which is a reduction of launches, four in 1 
year. Clearly that's going to impact the constituency of 
Senator Hutchison, it's going to impact the constituency of 
mine, because of anticipated layoffs.
    Why don't you tell us what you can for the record about 
that?
    Mr. O'Keefe. Yes, sir. I would be pleased to provide for 
the record the full launch schedule and what our intentions are 
over the next year to 2 years to achieve this milestone 
objective. What you see in the budget right now are four 
launches, four flights, dedicated to International Space 
Station. What the budget also suggests is that for any other 
flights related to any other activity, research flights, Hubble 
servicing, any other number of opportunities, launch of 
payloads unrelated to either of these, will be reflected in the 
full cost accounting of those specific programs. So that's what 
we're transitioning to this year.
    The last centrally funded or budgeted mission was the 
Hubble mission that just--I'm sorry, no. It will be the STS-107 
mission that's going up in July, which is a research mission. 
Beyond that, they will all be reflected in the actual science 
research objectives that are listed in those programs.
    So the four are dedicated to International Space Station. 
Others will be above that related to the number of programs 
that can support that activity in the full cost that's 
reflected in those programs directly. So, you're going to see 
some number greater than 4 is my confidence.
    Senator Nelson. And the layoffs?
    Mr. O'Keefe. I don't know that there will be any, because 
again, if you're at minimum of 4 any additional flights above 
that for Hubble, research missions, other activities, that we 
will definitely see a number of flights greater than 4, and 
what that ultimate number will be will be driven by the number 
of programs involved. I don't know that there will be any 
layoffs, and I sure wouldn't want to quantify based on 
speculation of what may not occur.
    Senator Nelson. Well, there are naturally, Mr. Chairman, 
there is some concern in the Senator's constituency and mine 
that the layoffs, you've got this incredible talent that is 
there with all of this extraordinary lengthy memory and 
history, and you start laying off some of that, and then 
realize that you've got to ramp back up, then you don't have 
the value of that. From a manager's standpoint, you ought to be 
real concerned about that.
    [The information referred to follows:]

            Material Requested for the Record by Hon. Nelson

    A copy of the shuttle launch manifest consistent with the Agency's 
FY 2003 budget request is enclosed, for your information. NASA remains 
focused on safely completing the International Space Station assembly 
sequence leading to U.S. core complete in early 2004. The reduced 
flight rate applies only to ISS Assembly flights. Between now and US 
Core Complete in the February/March 2004 timeframe, NASA currently 
plans a total of 10 Shuttle flights, 9 of which are for ISS assembly. 
The flight rate after Core Complete is under review.


                                           Current Flights Manifested

                                                             Fiscal Year                   Calendar Year


          2002                                     ----------------------------6------------------------------6-
          2003                                                                 5                              5
          2004                                                                 5                              5



    While NASA now plans an FY 2003 Shuttle flight rate of five, we 
have retained the flexibility in the External Tanks budget to fly up to 
six Shuttle missions a year. The Space Shuttle Program can support up 
to six flights a year beginning in FY 2003, assuming that NASA or 
Commercial/DOD requestors can provide funding. The number of Shuttle 
missions we will fly is not constrained to four flights a year--only 
flights for ISS assembly are limited to four flights a year. NASA is 
reviewing current funded requirements and will assess augmentation of 
Shuttle flights that could be funded by the requesting organization 
(NASA enterprise/DOD/Commercial).
    While the Shuttle Program budget challenges for FY 2003 have not 
been resolved, it would be premature to speculate on contractor layoffs 
at the present time.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. O'Keefe. Yes, sir. I positively am. There is no 
question that the most extraordinary commodity we have 
throughout NASA and the aerospace community are the amazing 
folks that are engaged in it. And as I offered a little bit 
earlier in the commentary and testimony, is again, as 
diplomatically as I can say it, we have a very mature work 
force. There are three times as many folks over 60 in the 
aerospace community specifically related to NASA as there are 
that are under 30. We need to fix that combination and readjust 
it in a way that makes opportunities not only available for 
younger folks moving through the process, and opportunities for 
professions in science, math, engineering and technology, but 
we need to focus on it for the very purposes you've identified. 
It's going to be a challenge. The actuarial tables are driving 
us in a direction where we need to be really fixated on this 
one.
    Senator Nelson. Mr. Chairman, thank you for the generosity 
of your time. I have got to go to a meeting with the King of 
Jordan, if you will excuse me.
    Senator Wyden. I will.
    Senator Nelson. And I would like to, since we had to 
terminate my earlier questioning of Mr. Bill Readdy, I would 
like to submit for the record additional questions on the space 
shuttle safety upgrades that we had talked about at length that 
were absolutely necessary for the future safety of the shuttle, 
which you and I had garnered from that hearing that we had the 
first week of September of 2001.
    Senator Wyden. Without objection, that will be ordered.
    And I just want to tell my colleague, who has great 
expertise on these issues, obviously a strong constituency 
interest, that we will be working very closely with you and 
Senator Hutchison and others on the reauthorization. My hope is 
before too long we can have an authorization draft that we can 
circulate, and among the Senators on the Subcommittee, working 
with the Administrator, we can begin to start those discussions 
quickly, and we will be working very closely with you. We thank 
you for all your time.
    Administrator O'Keefe, I thank you for your patience, you 
know, we've been at it two and a half hours or thereabouts, 
that my sense of what the challenge is all about is to get the 
accounting done and to think big. I think that it all really 
comes down to that. Obviously there's strong feelings in the 
United States Senate about this program, but I will just weigh 
in in my capacity as chair of the Subcommittee by way of 
saying, I think you're up to the challenge of this very big 
undertaking.
    I mean, either piece, the bean counting exercises as we 
call it, and the science piece, either one of those separately 
would be a very big undertaking, but I think what we're 
learning is that the two are absolutely intertwined and that 
your ability to do the significant scientific initiatives that 
the American people want, that our kids are so excited about, 
means that you've got to put the financial house in order.
    So, is there anything you would like to add further?
    Mr. O'Keefe. No, Mr. Chairman. I think I want to associate 
myself entirely with your summary on that point, and it is 
probably the best description of the way I have attempted to 
approach this really tremendous opportunity that the President 
has bestowed on me in a way that I think is responsible, that 
focuses on the management objectives, that really looks at what 
those resource requirements are in the broader sense, not just 
financial, but also human resource dimensions, in making 
decisions about how you then pursue those science objectives 
and those opportunities that really excite us, that really 
inspire that next generation, the folks who will be that next 
group of explorers down the road.
    So, I think you've summarized it exactly right, and I am 
most grateful, sir, for your support. Your understanding and 
enthusiasm for what it is we do is just absolutely 
indispensable, and we appreciate it very much.
    Senator Wyden. I thank you. Let's have our staffs get 
together and under the leadership of Chairman Hollings and 
Senator McCain, and with the various Senators who have such 
strong interest, get to work on the reauthorization and get a 
draft going as quickly as we can.
    And with that, the Subcommittee is adjourned.
    [Whereupon, the Subcommittee adjourned at 11:46 a.m.]

                            A P P E N D I X

 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                              Sean O'Keefe

International Space Station Science Objectives
    Question. Since basic science is so fundamental to NASA's mission, 
can you explain to me why under the current plan there will be only 20 
hours of research per week on the International Space Station? How can 
20 hours/week justify a program that so far has cost billions of 
dollars more than was anticipated?
    Answer. The 20 hours per week figure only refers to the average 
duration of astronaut direct involvement with the instrumentation; it 
does not measure the total research time. A significant portion of the 
scientific investigations only requires an initial set-up and 
activation in order to allow long-duration acquisition of unique and 
valuable scientific data. For example, a 30-minute crew activity might 
initiate a week-long processing of a metal alloy or a 2-week long 
growth of biological tissue samples under computer or remote control 
conditions. As of June 30, 2002, the overall crew time hours logged on 
research are: United States 885 hours and Russia 368 hours.
    A great deal of the value of on-orbit research resides in the 
accumulation of high-value data that can only be obtained under 
microgravity or space conditions. This data cannot, however, be 
acquired unless short-duration but crucial human input is provided at 
critical times. That is why, in restructuring ISS management to affect 
proper controls and regain credibility, we first went back to 
understand the research requirements that determine the capabilities 
needed. To meet these requirements we are looking at operational 
considerations that might provide additional crew time at little or no 
additional cost, and option paths to meet the total research 
requirements in the broader context of the agency's five point plan 
(science priorities, engineering development and deployment, cost 
estimating and analysis, mission and science operations, and 
international partner coordination) to restore confidence in the 
program.
    NASA remains committed to a vibrant ISS Research Program, whose 
objectives are multi-faceted: to enable the human exploration of space; 
to engage in pioneering science in space leading to new discoveries 
that will inspire the next generation of scientists and engineers; and 
to provide the unique on-orbit laboratory facilities which may assist 
researchers to solve practical problems here on Earth.

Financial Management
    Again, it is no secret that I have been exasperated with NASA over 
budgetary issues related to the Space Station, in particular. This is a 
program that was already $10 billion over budget last year when NASA 
reported that completing the Station would cost nearly $5 billion more 
than expected. Earlier this year, your independent auditors, Price-
Waterhouse-Coopers, disclaimed an opinion on your financial condition 
due to lack of documentation for some of your transactions. Shortly 
after that, I received a report from GAO concluding that it was unable 
to verify your compliance with Space Station cost limits due to your 
lack of an integrated modern financial management system. Despite these 
obvious fiscal shortcomings, NASA received a ``yellow light'' for its 
financial management.
    Question. How can you square what appears to be critically flawed 
fiscal management with OMB's scorecard on this issue?
    Answer. This is a timing issue. OMB gave NASA a ``yellow'' score on 
financial management before the PricewaterhouseCoopers audit of NASA's 
FY 2001 financial statements was completed. After 
PricewaterhouseCoopers disclaimed an opinion on NASA's financial 
statements, OMB immediately reduced NASA's financial management score 
from ``yellow'' to ``red''.

    Question. What is it in NASA's management systems that gave OMB 
reason to show even the slightest bit of optimism on this issue?
    Answer. NASA recognizes its financial management problems and is 
taking corrective action. Under the President's Management Agenda, NASA 
has developed, and is executing, a plan that will lead to a ``clean'' 
audit opinion on its FY 2002 financial statements and to the successful 
implementation of a single, integrated financial management system 
across NASA by June 2003. The successful completion of these two 
initiatives should enable NASA to achieve a ``green'' score.

Space Shuttle Privatization
    Question. If NASA implements this ``competitive sourcing'' plan--
which is really just privatization--how will this Committee be assured 
that the Space Shuttle will be competitive, that safety won't be 
compromised, and that the taxpayers will be protected by the government 
recovering all of our sunk costs? What are you doing to ensure that 
this plan is financially sound, and why would this be any different 
from the NOAA experience, particularly when we are dealing with a 
vehicle that would be even less competitive?
    Answer. NASA is aware of the lessons learned during from the 
LandSat privatization experience. However, there is a distinct 
difference between competitive sourcing and privatization. The 
President's Management Agenda calls for the government to take greater 
advantage of the capabilities of the private sector by identifying 
current government activities that can be performed by the private 
sector and conducting a competition between public and private sources 
(``competitive sourcing'') to obtain the most efficient and economical 
source of services to the government. Unlike ``privatization,'' which 
presumes an outsourcing solution, competitive sourcing enables the 
government to strike the best balance between activities performed by 
civil servants and activities performed by the private sector, while 
protecting the interests of the taxpayers. Competitive sourcing offers 
the Agency greater flexibility in dealing with these issues than would 
strict privatization.
    NASA shares an interest in all of the issues that you raised in 
your question. In this regard, NASA commissioned an independent study 
by the RAND Corporation to identify competitive sourcing alternatives 
available to NASA. The ground rules for this study included the issues 
you have identified, and the President's FY 2003 Budget lays out the 
conditions under which a Space Shuttle competitive sourcing proposal 
from NASA would be considered. The intent of this study is to identify 
potential business models that might be considered for competitive 
sourcing and to determine the requirements and conditions necessary for 
each business model to be successful, along with any expected 
consequences of implementation. This information should enable NASA to 
make an informed decision on the best course of action. As we pursue 
competitive sourcing of Space Shuttle Operations, we will keep the 
Committee apprised of the approach we are taking to address these 
issues.

NASA's Vision for the Future
    Question. For many years NASA seemed to maintain a persistent focus 
on the Space Station. You have now set forth a new vision for NASA, 
integrating the Station into NASA's larger mandate is to pioneer 
America's future. Can you elaborate on your vision, Administrator 
O'Keefe? First, to the extent possible, can you fast forward 30 years 
setting forth specific advances to our life here on Earth and elaborate 
on how NASA paved the way for these improvements. Then please expound 
on whether our current funding priorities get us to the futuristic 
vision that you have set forth. What will be the outlook for NASA then?
    Back in 1985, we had a National Space Commission examine some of 
these big picture questions for NASA. Is it time for another Space 
Commission?
    Answer. I introduced the new vision and mission for NASA on April 
12, 2002 at the Maxwell School of Citizenship & Public Affairs at 
Syracuse University in a speech I called ``Pioneering the Future''. I'd 
like to include an excerpt from that speech that addresses your 
question:
    ``Let me take you on a journey to the year 2030. We have sought 
life's abodes: NASA missions have mapped continents on dozens of 
planets circling nearby stars, some of which show signs of life-
supporting atmospheres. Evidence continues to mount for other origins 
of life on planets within our own Solar System, as revealed by advanced 
generations of robotic explorers. Humans and their robotic partners 
assembled complex science facilities in space to unveil even more 
challenging cosmic questions. We understand our home: NASA's missions 
revealed the complex interactions among the Earth's major systems, 
vastly improving weather, climate, earthquake, and volcanic eruption 
forecasting--and the impact that our Sun has on our living world. We 
have connected the world's citizens: NASA's technologies have resulted 
in dramatic improvements in air transportation via ``green'' aircraft, 
higher-speed international travel, and innovative measures to reduce 
aircraft accidents and delays. We have enabled new commerce: Low Earth 
Orbit has become a rapid-growth economic zone, with commercial 
industries taking advantage of low-gravity, abundant solar energy, 
lower-cost access from the Earth's surface, and a vista that 
encompasses the entire planet. We share the vision and the experience: 
Throughout the world, students in earthbound classrooms are learning 
the fundamentals of physics, math, and technology as they actively 
participate with space travelers via ``telepresence technology.'' And 
we continue to prepare the way for humanity's greatest adventures. It's 
quite a world in 2030, and many of the improvements to life on Earth 
began at NASA.''
    We are busy shaping our priorities for future budgets to reflect 
the priorities set forth in the new vision and mission statements. We 
are also preparing an update to the NASA strategic plan, which will 
build on the foundation, set forth by the vision and mission.

NASA's Research Priorities, GPRA/Performance & Management Goals
    Question. As a former OMB Deputy Director, you understand the 
difficulties research agencies have encountered in preparing GPRA 
strategic plans and performance measures for R&D programs. Can you 
elaborate on whether you think GPRA standards that are often 
quantitative in nature can be applied to the long-term research 
missions of the type that NASA is confronted with regularly?
    Answer. The issues you raise are challenging and important, but 
certainly not new. This Administration has worked hard to address some 
of these challenges, and NASA has been working closely with OMB and 
OSTP in crafting an approach to measuring the effectiveness of R&D 
programs. On May 30, 2002, OSTP and OMB issued guidance to agencies on 
R&D priorities, including guidance on R&D investment criteria of 
relevance, quality and performance. Additional guidance was provided 
from OMB to agencies on July 16, 2002 on the planned use of a program 
assessment rating tool (PART) for evaluation of programs in the FY 2004 
budget. One of the PARTs is specifically for R&D programs. I believe 
that the guidelines and tools that the Administration is developing 
will greatly improve how R&D program performance is measured both for 
NASA and across all agencies.

Security
    In November of 2001, NASA's Inspector General released an audit 
titled ``Approvals for Accessing Information Technology Systems.'' The 
audit found that the two NASA Centers investigated ``did not complete 
required security investigations for all personnel who accessed 
sensitive IT systems.'' In fact, at one Center, the audit ``found that 
the Center had completed security investigations for only 17 employees 
[out of a] sample of 100 contractor employees with access to sensitive 
IT systems. Of the 83 employees without the required security 
investigations, the Center did not initiate the investigative process 
for 27 employees and only partially completed the security 
investigations for 56 employees.''
    Question. In light of the tragedies of September 11th, I am deeply 
disturbed to hear that NASA puts so little effort into security. Has 
NASA taken measures to correct this specific problem? If so, please 
describe those measures and others taken to assure that only approved 
individuals have access to sensitive IT systems?
    Answer. Just prior to September 11, 2001, NASA embarked on an 
aggressive restructuring and enhancement of the agency-wide security 
program. In light of this, and as accelerated by the events of 
September 11th, weaknesses and vulnerabilities within the agency were 
identified and are being corrected. Requirements for security checks as 
they pertain to IT access were already in place though not properly 
followed 100 percent of the time. This also has been addressed at all 
appropriate levels.
    NASA is currently re-writing its IT Security policies and 
implementing effective and practical IT security measures to protect 
and back-up critical data while continuing the productive exchange of 
information in furtherance of its scientific missions.
    NASA management concurred with the recommendations provided in the 
Inspector General's audit report and has taken steps to correct the 
problems the audit identified. Center Management at both of the Centers 
cited in the Inspector General's audit have reminded owners of 
sensitive systems of their responsibility to have the necessary 
screening performed. Glenn Research Center Management now carries out 
background screening for all system users requiring such screening, and 
Marshall Space Flight Center Management has put a system in place to 
fund and perform the required screenings in FY 2003.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                              Sean O'Keefe

    Question. Can NASA tell this Subcommittee the status of the 
Strategic Resources Review? When will Congress be able to view the 
results of this SRR? Will any parts of the SRR be implemented before 
Congress has a chance to provide feedback?
    Answer. The Strategic Resources Review (SRR) was a broad-based 
review of NASA's processes and activities at Headquarters and all ten 
operating locations. The implementation of the SRR study meant 
reviewing at a very detailed level such functions or activities as 
machine fabrication shops, testing capabilities, building maintenance & 
repair, economical contract ordering, centralized business services, 
and the enhancement of technology transfer. These are only a few 
examples of the many activities NASA reviewed to exploit opportunities 
for improved economy and efficiency, and to improve NASA's focus and 
performance on the things that really count--the objectives of our 
missions on Earth and in space.
    The SRR review activities, as separate from the budget planning 
process, are completed. Those activities that have been selected for 
implementation will be executed by Center Directors under the 
leadership of NASA's Enterprise Associate Administrators, and will be 
brought forward as a part of the normal budget development process 
within NASA. Items with cost impacts will be prioritized in the context 
of NASA's overall program budget priorities. On August 20, 2002, NASA 
transmitted the final report on the Agency's SRR to the Congress. NASA 
will continue to explore opportunities for improvement consistent with 
the President's Management Agenda.

    Question. How many candidates do you currently have in the 
astronaut program? Do you expect any changes to that number given the 
reduced flight rate in the next few years for the Shuttle?
    Answer. There are approximately 120 astronauts available for flight 
assignment, which includes 17 members of the 2000 class. The number 
will reduce over the next few years due to attrition. There are no 
plans for a new astronaut class prior to 2004.

    Question. You mentioned that an independent cost review of the 
Space Station is underway. Is that a review of the total life cycle 
costs or just the development costs?
    Answer. Last October, NASA chartered two separate cost estimating 
teams in response to the ISS Management and Cost Evaluation (IMCE) Task 
Force finding that the Agency had not accomplished a rigorous estimate 
of station life-cycle costs. The Systems Management Office at the 
Johnson Space Center led an internal NASA cost estimating team, and an 
external team was led by the Cost Analysis Improvement Group (CAIG) of 
the Office of the Secretary of Defense. Both teams were supported by 
proven cost estimating professionals. Each team provided a separate 
life-cycle cost estimate, complete with a risk analysis, and defined 
the possible cost range for the ISS within reasonable confidence 
levels. These reviews have provided an important input into future 
Station budget planning.

    Question. What is the current total life cycle cost estimate for 
the International Space Station?
    Answer. NASA developed an ISS cost assessment requirements document 
(CARD) that served as the basis for the two independent life-cycle cost 
estimates described above. The independent cost estimates were 
completed in August and NASA will be submitting a report of these 
findings to the Committee shortly.

    Question. What is your strategic plan for Wallops Flight Facility, 
does it include testing of manned space flight technology and unmanned 
logistics support for the International Space Station?
    Answer. The Conference Report 107-272 accompanying the FY 2002 VA-
HUD and Independent Agencies Appropriations Act (Public Law 107-73) 
directed NASA to update the Agency's strategic plan for the future of 
the Wallops Flight Facility (WFF). This report is completing internal 
Agency coordination and should be made available for your review in 
late fall.

    Question. In your answers to the Committee in December 2002 and in 
many public addresses and interviews, you have placed an emphasis on 
the importance of focusing on NASA's ability to ``effectively and 
efficiently meet its current challenges.'' Do you believe that it is 
also important to establish a strategy for NASA's future, so that 
early-stage programs, such as the Space Launch Initiative, are fully 
integrated into future NASA space exploration efforts?
    Answer. Yes, it is fundamental to sound management to have a 
strategy for the future, and to ensure that our current decisions are 
not only consistent with but also integral to that strategic context. 
Our new vision and mission statements provide the foundation of our 
strategy for the future, and we are beginning the process of updating 
our strategic plan. I should point out that effectively and efficiently 
meeting our current challenges is one of the most important things we 
can do to ensure our future. We must earn the confidence of our 
stakeholders and the public that we can deliver on what we commit to, 
and meeting our current challenges is paramount to that.

    Question. As required by the NASA Authorization Act of 2000, the 
General Accounting Office (GAO) is required to verify NASA's accounting 
for the space station and shuttle support cost limitations. In an April 
10, 2002, letter to Congress, the GAO reported that it remains ``unable 
to verify the amounts NASA reported to Congress in its fiscal year 2002 
and 2003 budgets and will not be able to independently verify amounts 
reported in the future, either in total or for individual years.'' The 
letter reported that NASA's 10 centers ``operate with decentralized, 
nonintegrated systems and with policies, procedures, and practices that 
are unique to each center.'' Furthermore, ``only 5 of its 10 centers 
are able to provide complete, detailed support for amounts obligated 
during fiscal years 1994 through 2001 . . . .'
    What actions do you intend to take to ensure that all 10 centers 
use the same policies, procedures, and practices as you implement 
NASA's new integrated financial management system?
    Answer. One of the key principles upon which the IFM Program was 
established is the use of an Agency-wide Process Team. These Process 
Teams include functional experts from across the Centers. The Process 
Teams are the cornerstone of the IFMP Project teams. These functional 
experts develop standard Agency requirements and business processes 
upon which the system implementation is based. During the design phase 
of each project, the full time Process Team membership is augmented 
with Extended Team member representation from the various NASA Centers. 
The purpose of this augmentation is to provide additional validation of 
the core design team's efforts but more importantly is to provide 
additional exposure and education to the Centers.
    Each IFMP Project defines the implementation methodology to be 
followed by the NASA Centers. In addition, each IFMP Project provides 
guidance, tools, and products to guide the Centers through their 
implementation efforts. For the Core Financial Project, an Agency 
Rollout Kickoff Meeting was held at the end of October where detailed 
briefings were given explaining the implementation tasks to be 
completed by the Centers; Center resources required; recommended 
project team structures; tools, products, and contractor support to be 
provided by the Project; and high level timelines for the 
implementation windows. As each Center's implementation begins, the 
Core Financial Project conducts a refresher briefing from the Rollout 
Kickoff Meeting and lands a team of implementation experts at each 
Center to support the implementation. At the end of a scope definition 
phase, a readiness review is conducted by the Project to ensure that 
the Center has the proper resources, facilities, and governance 
structures in place to be successful.
    In addition to the Project-provided implementation tools and 
support, the IFM Program Office has established a Program Change 
Management initiative to help the Centers address transformational 
change. Through the Program Change Management effort, each Center has 
established an Implementation Support Team (IST), which provides a pool 
of knowledgeable change management experts to support each project 
implementation and to coordinate Center impacts across the various IFMP 
Projects.
    Through the use of experienced implementation contractors and 
established implementation methodologies and tools, the IFM Program has 
provided the infrastructure necessary to support a successful 
deployment across the Agency. One of the greatest challenges that we 
face is the magnitude of the implementation effort and the impact to an 
administrative workforce, which has been downsized by 25-35 percent 
since 1993. Current Center systems are extremely antiquated and 
inefficient so the desire/need to implement new technology is firmly in 
place. Administrator O'Keefe has clearly affirmed the importance of the 
IFM Program, its goals and objectives. Mr. O'Keefe has acknowledge the 
vital link between NASA's implementation of the IFM Program and our 
fulfillment of the President's Management Agenda. Mr. O'Keefe has 
identified the IFM Program as the most important initiative that NASA 
has underway.

    Question. How do you respond to this GAO report?
    Answer. While recognizing weaknesses in NASA's financial 
management, GAO did not make any recommendations in their report. GAO 
recognized the actions the Agency is taking to implement an integrated 
financial management (IFM) system to resolve the issues identified in 
their report.
    Implementation of the Agency's core accounting module will provide 
the detailed data required to support an audit in a timely manner. NASA 
is taking actions to restore confidence in the space station program 
through improvements in its program and financial management.
    After Safety, the Administrator has made successful and accurate 
implementation of the agency-wide IFM system the Agency's highest 
priority. Mr. O'Keefe has hired a Program Executive Officer responsible 
for financial management who reports directly to him. The Administrator 
has also directed a refocus of Field Center's Chief Financial Office 
structure to include financial analysis and has accelerated the 
implementation of the IFM system.

    Question. Is the GAO assessment correct in your opinion?
    Answer. GAO's assessment was accurate at the time the audit was 
performed. NASA has made improvements since that time.

    Question. You mentioned in your statement that the number of 
employees over 60 is three times larger than the under 30 employees. 
What are your plans for addressing this shortfall?
    Answer. Last year NASA conducted the National Recruitment 
Initiative that identified specific concepts and tools that needed to 
be developed to enable NASA to attract and compete for recent college 
graduates. Three of these currently being developed are:

  <bullet> Using our grants and scholarships to identify the best and 
        brightest college graduates. Over 100 colleges and universities 
        receive scholarship and grant money. By leveraging our contacts 
        with principal investigators assigned to these scholarships and 
        grants we hope to be able to capture the best talent.

  <bullet> Strengthening our NASA employer branding and updating our 
        Student Website to appeal to the students of today. Among the 
        information that we plan to provide to students will include 
        entry-level and cooperative education opportunities in NASA.

  <bullet> Developing interactive recruitment tools, such as a 
        recruitment CD ROM card, to enhance NASA's image as an employer 
        of choice.

    This fiscal year Centers who are positioned to do a significant 
amount of hiring, defined as 50 or more positions, are targeting 
approximately 35 percent of their recruitment towards hiring recent 
college graduates. This will help us to close the age gap and posture 
us to continue to have the experience we need to complete mission-
critical work.
    As we have said, we face challenging times as we reconstitute and 
reshape our workforce for the 21st century. Today we have an extremely 
experienced workforce in terms of overall capability. The downside, 
however, is that almost one-third of the workforce will be eligible to 
retire within the next 3-5 years. We must aggressively deal with this 
leadership and workforce challenge. To help us address this challenge 
head-on, we recently forwarded a series of legislative provisions. 
These provisions will complement the Administration's Managerial 
Flexibility Act, and we look forward to working with the Congress to 
ensure that these essential tools are enacted into law.

    Question. For recent college graduates, what program areas within 
NASA will be hiring in the next 3 years?
    Answer. NASA anticipates the need to hire recent college graduates 
with degrees in Biology, Astrobiology, and Biochemistry; 
Nanotechnology; Systems Engineering; Mechanical, Aerospace, Electrical 
and Computer Engineering; Chemistry; Information Technology and Earth 
Sciences.

    Question. In the NASA Authorization Act of 2000, NASA was required 
to submit a plan to establish an non-government organization (NGO) to 
be responsible for the research utilization and commercialization 
activities on the Space Station. This plan was due September 30 of last 
year. The Commerce Committee was told the plan would be available in 
February 2002. The latest we have heard is that the plan will not be 
available until September of this year. We are also concerned about 
whether this plan would also include the commercialization activities. 
The call for the plan was based on recommendations from the National 
Academy of Science and the need to get these activities started as soon 
as possible during the assembly phase.
    Answer. To respond to the Congressional direction for a report on 
management of ISS science, NASA is taking a comprehensive look at 
research priorities and Agency process and functions.

    Question. Given the delay in finalizing the plan, do you feel that 
this NGO concept can still be effective given the previous 
recommendations from the Academy of Science on timeliness?
    Answer. The Biological and Physical Research Maximization and 
Prioritization (ReMaP) Task Force has performed an independent review 
and assessment of research productivity and priorities for the entire 
Office of Biological and Physical Research (OBPR) scientific, 
technological and commercial portfolio.
    A recently established ISS Utilization Management Concept 
Development Team is undertaking a detailed examination of Agency 
processes and functions for ISS utilization, including an examination 
of various options, including an NGO, for management of ISS research 
utilization.
    NASA will use the products of these two efforts in the formulation 
of its FY 2004 budget.

    Question. Can you highlight any current commercialization 
activities concerning the Space Station?
    Answer. NASA is participating in a Multilateral Commercialization 
Group composed of representatives from each of the international 
partners. The group is making progress toward establishing Recommended 
Guidelines for ISS Commercial Activities, which are consistent with 
U.S. policy, while preserving the autonomy of each partner. As these 
guidelines are completed and applied, we anticipate commercial activity 
will gradually expand.
    NASA has entered into a commercial flight agreement with StelSys, 
Inc., a Maryland biotechnology company that was organized to develop 
commercial applications of NASA's bioreactor technology. In furtherance 
of its industrial research, StelSys desires to use the ISS platform to 
grow human liver cells in microgravity. In the future, should the 
experiment be successful, and StelSys begins to use cells grown on the 
ISS to support ground-based commercial applications, NASA would expect 
to obtain fees from this company.
    NASA remains committed to meeting ``the priority goal of economic 
development of Earth orbital space,'' as stated in the 1998 Commercial 
Space Act. The Agency believes that market-based approaches like 
StelSys are important for maintaining a balanced ISS utilization 
program.

    Question. According to a recent report in Aviation Week (May 6, 
2002 edition) article, attracting and retaining the next generation of 
aerospace professionals is now a top-priority concern for the U.S. and 
Europe. It was further stated that a new set of NASA strategic goals 
will include a bolstered education program to address the issue. Can 
you comment on these statements and the fact the Academic Programs 
account at NASA received a decrease in the budget request?
    Answer. NASA shares the Senator's and others' concerns about 
attracting and retaining the next generation of aerospace 
professionals. NASA's future missions, as well as the Nation's economic 
and national security are dependent upon a steady stream of well-
educated students, especially in the areas of mathematics, science and 
technology.
    NASA's FY 2003 request for Academic Programs is $143.7 million. 
This request has two components--base funding for the Education Program 
($61.6 million) and the Minority University Research and Education 
Program ($82.1 million). The FY 2002 budget of $227.3 million included 
funding for a number of congressionally directed programs. The FY 2003 
request maintains our core program, but does not include continuing 
funding for Congressional interest items, thus the perceived decrease 
in the budget request.
    These future investments, combined with the Congress' and 
Administrations' previous support, have built a remarkable foundation 
for the Agency's education programs. However, in order to meet the 
challenges facing the Nation, this foundation is in need of expansion--
not by the addition of more dollars, but rather through closer 
coordination within the Agency, as well as with our education partners 
such as the Department of Education, National Science Foundation, and 
other public and private sector stakeholders.
    As you know, education has been made one of the core missions of 
the Agency: to inspire the next generation of explorers, as only NASA 
can. Since its inception more than forty years ago, NASA has worked to 
share its findings and missions with the educators and the students who 
wanted to know more about the world and universe that surrounds them. 
The resulting programs and initiatives have targeted our Nation's 
students, teachers, and faculty at all levels. The challenge before us 
today is to extend the reach of our education efforts even further.
    To that end, NASA chartered an internal ``tiger team'' to review 
the current education program and make recommendations for an expanded 
education program designed to meet the Agency's mission. A transition 
team is currently at work implementing the tiger team's recommendations 
and the new NASA education office is expected to be in place early in 
the new fiscal year. The priorities of this new office will be as 
follows:

  <bullet> Motivating K-16+ students to pursue careers in science, 
        math, and engineering . . . as only NASA can

  <bullet> Providing educators with unique teaching tools and 
        compelling teaching experiences . . . as only NASA can

  <bullet> Seeking to ensure that we are investing the taxpayers' 
        resources wisely

  <bullet> Engaging minority and underrepresented students, educators, 
        and researchers in NASA's education program

    More information about NASA's vision for our Education Program can 
be found in the NASA Administrator's June 19, 2002 statement before the 
Subcommittee on Science, Technology and Space, Committee on Commerce, 
Science, and Transportation

    Question. You have mentioned that your third mission objective is 
to inspire the next generation of explorers. You further indicated in 
your written statement that the pool of college students enrolled in 
science and engineering courses continues to decline. The Washington 
Post (5/7/2000 edition) recently reported that NASA settled a class 
action discrimination complaint by black engineers who helped design 
and build the Hubble Space Telescope. How do you plan to ensure this 
type of discrimination does not happen again at Goddard Space Flight 
Center or any other part of NASA?
Clarification
    The Goddard class action suit did not result in a finding of 
discrimination. Neither the EEOC nor any court has addressed, much less 
ruled upon the merits of this case. Instead, the parties entered into a 
Settlement Agreement.
    Answer. The Class action settlement was based upon a claim of 
disparate impact. In other words, the Class alleged that there was 
systemic discrimination on the part of a protected group by the 
administration of a policy or practice.
    Top management from each NASA Center and HQ has been briefed 
several times regarding the issue of disparate impact. They have been 
asked to review their personnel policies, look for similar disparate 
impact situations and address them immediately.
    NASA is committed to ensuring that equal opportunity is afforded 
all employees and applicants and that minorities, women and individuals 
with disabilities are fully integrated into all occupational categories 
and grade levels and are in the pool of outstanding talent from which 
candidates for advancement are selected.

    Question. What are the long-term effects from this settlement on 
NASA's ability to recruit blacks and other minorities in the science 
and technology area.
    Answer. The Goddard class action suit was an unfortunate case that 
has been settled. However, there are many African Americans, other 
minorities and women employed by NASA in the science and technology 
area who have responsible positions and are happy.
    NASA will aggressively leverage its alliances with minority and 
female professional associations and minority colleges and universities 
to increase the pools of minority and female candidates and bring them 
into the workforce.
    Our recruitment strategy to increase minority interest in NASA jobs 
includes personal networking, greater use of the Internet to increase 
awareness about our job opportunities and extensive networking with 
professional associations and minority colleges and universities. Our 
Equal Opportunity offices, and the Minority University Research & 
Education Division (MURED), both have extensive networks with 
professional minority associations as well as minority colleges and 
universities. We plan to aggressively leverage these alliances to 
increase our candidate pools. For instance, by networking with 
principal investigators at minority colleges and universities we can 
ensure that we have access to minority students who are working on 
projects through our research and grant programs. We will use our 
personal networks with members of minority professional associations to 
post vacancies and showcase NASA as an employer of choice.
    We have identified minority-sponsored websites to establish direct 
internet links from these web sites to our NASAJobs web site (http://
www.nasajobs.nasa.gov/). This year, through the National Recruitment 
Initiative, we have sponsored direct links to NASAJobs from the Black 
Collegian, Blacks in Government, Women in Aviation, Hispanic Network 
and the Equal Opportunity Publication web sites. Adding instant access 
to NASAJobs from these websites will increase the level of job 
awareness and serve as a catalyst to increase the number of highly 
qualified minorities and women who apply for our vacancies.

Background Material
    What has Goddard done so that this never happens again?
    Goddard abolished the Manpower Utilization Review Council (MURC) in 
1998, which was the genesis of the EO complaint. The MURC considered 
nominations for promotions to the GS/GM-14 and 15 levels that were 
outside the scope of authority delegated to heads of directorates. 
During the meeting, each such Director presented his/her cases. The 
MURC members then discussed their knowledge of each identified 
employee's duties and performance. The Center Director solicited 
comments from the MURC members about the individual's work performance 
and capability. The employee's position and its responsibilities were 
also considered and discussed. At the conclusion of the MURC, the 
Center Director made the final decision regarding promotion of 
candidates.
    The Class charged that the MURC was a secret and unfair process. 
Some candidates were not told of their nominations while other 
supervisors did inform their employees of their nominations. 
Nevertheless, because there were typically more candidates brought 
forward to the MURC than could be promoted, the relative strengths of 
the cases made for one candidate versus another could affect the 
promotion outcome.
    In response to concerns about the MURC process, the Center Director 
and Executive Council adopted a redesigned promotion process in January 
1999 that required promotion criteria to be aligned with the Center's 
strategic plan, values, and goals. The redesigned promotion process 
delegated authority to Branch Heads to promote employees to all grade 
levels within their documented career ladder with higher level 
supervisory concurrence required for promotions to the GS-14 and 15 
levels. Senior promotion criteria were published and standing panels 
were used for GS-14 and 15 accretion promotions. The panels served as 
advisors to management. The panels consisted of seven diverse GS-15 
experts. There were four panels: Project Management; Engineering; 
Science; and Professional Administrative. The panels provided an 
independent assessment of a candidate's readiness for promotion against 
promotion criteria. They assured consistency in the application of 
promotion criteria across directorates and provided subject-matter 
expert evaluation of a candidate's skills and accomplishments. 
Decisions to promote resided with the supervisor. The redesigned 
promotion process provided organizations with an allocation of GS-14/15 
positions so that they could manage their own resources. Additionally, 
employee promotions were published under the redesigned promotion 
process. In order to ensure accountability, directorates were required 
to present statistical information about promotions at EO Council 
meetings.
    Despite the changes made in the redesigned promotion process, the 
Class charged during the course of mediation that the use of panels was 
unfair. The Office of Human Resources and subject matter experts from 
across the Center have since developed promotion criteria for 
scientists and engineers eliminating the need for promotion panels.
    Employees have been afforded the opportunity to use a web-based 
tool to evaluate their supervisor's effectiveness in organizational 
communication; diversity (respect and inclusion); accountability; 
teamwork; human resources management; employee rewards; change 
orientation; and financial/technical/technological management. 
Aggregated input is discussed at staff meetings to help the supervisor 
develop an action plan to change behaviors. Additionally, employee 
input is considered when the supervisor's performance is assessed and 
when promotion, awards, within grade increases, and training decisions 
are made.
    In an effort to ensure fairness and equity in the Center's 
performance management system, the Center strongly encourages 
supervisors to attend training sessions offered in the following 
subjects:

    Individual Development Plans
    Diversity
    Equal Opportunity
    Cultural Awareness
    Sensitivity Training

    Most notable is a recent pilot training program that introduced 
over 100 Center managers to the topic of cultural assumptions specific 
to white American culture and their impact on employment decisions. The 
Center is planning to offer more workshops on the dynamics of race and 
power in order to raise the consciousness of supervisors about the 
experiences of people of color at Goddard. Supervisors will be required 
to complete a web-based EEO Essentials training course by the end of FY 
2003.
    Additionally, the Center has developed an Accelerated Leadership 
Program which will create a pipeline of diverse individuals to address 
under representation in supervisory and management positions; 
accelerate development of leadership competencies; systematically 
develop individuals as Goddard's future leaders; and, provide promotion 
preparedness and a full performance level increase at the time of 
selection.
    Moreover, the Center has started to take steps to effect a 
significant culture change. We have initiated a number of forums for 
dialogue with employees to understand their perspectives on race, 
gender, and other topics and how they affect their employment at 
Goddard. There are a number of minority and women advisory and 
directorate based groups that focus on diversity issues. We are using 
the NASA Leadership Model to ensure we provide our supervisors with 
more effective competency based training. We have begun to track the 
diversity of task and study teams with the goal of providing more 
opportunities for diverse employees to participate in these activities.
    Pursuant to the Settlement Agreement, Goddard and Class Counsel 
have identified independent experts who will evaluate and if need be, 
redesign Goddard's existing performance management system which 
includes all processes governing accretion and career ladder 
promotions; awards; training; and performance awards. The independent 
experts will make recommendations to assist Goddard in developing and 
implementing a revised performance management system that is non-
discriminatory and fair to all employees.
    The revised performance management system will include, but is not 
limited to:

        a.  Objective measures of performance.
        b.  Standardized performance evaluations and assessment forms. 
        Performance feedback to employees including annual reviews, 
        performance goals, an appeals process, supervisory 
        accountability, and training for Goddard employees.
        c.  Standardized procedures governing the approval of accretion 
        promotions. The requirement that supervisors and managers 
        communicate regularly and openly with all employees within 
        their area of responsibility about work assignment 
        opportunities.
        d.  Training supervisors on the purpose and process of 
        establishing and using Individual Development Plans (IDPs). 
        Requiring supervisors to offer employees at least annually the 
        opportunity to discuss and/or establish an IDP. IDPs will 
        identify the career objectives of the employee; be consistent 
        with Goddard's mission; provide relevant assignments and 
        training (on-the-job and NASA-sponsored); and provide any other 
        grade-enhancing duties or responsibilities that are available.
        e.  Providing career enhancement training to employees. The 
        training will include information on the effective preparation 
        of IDPs and career development.
        f.  Training supervisors and employees on all aspects of the 
        redesigned performance management system prior to its 
        implementation.
        g.  Developing processes and implementation plans to make 
        accessible to African American scientists and engineers on a 
        fair and non-discriminatory basis, participation in Goddard's 
        ``management-track'' training programs.

    The Settlement Agreement includes enforcement provisions. The 
Associate Center Director will provide oversight ensuring that Goddard 
honors all of the provisions of the Agreement. In the event Class 
Counsel feels that Goddard has breached any part of the Agreement, it 
may seek judicial enforcement of the Agreement. Additionally, Goddard 
is required to periodically provide Class Counsel with information 
about promotions, EEO complaints, and participants in management track 
training programs.
    It is Goddard's objective to foster an organizational climate where 
employee diversity and mutual respect are catalysts for creativity and 
team effectiveness. Goddard management is committed to creating an 
environment where each individual can fully participate in the 
activities of an organization to his or her greatest ability without 
facing unnecessary obstacles. Goddard will take measured steps to 
achieve these objectives.

    Question. One major issue confronting NASA and other federal 
government agencies is the declining number of students pursuing 
mathematics, science and engineering degrees. Is NASA able to attract 
engineering students as it competes with the higher-paying private 
sector for a shrinking pool of graduating engineers and scientists?
    Answer. Over the past several years, competition for technical 
skills has become more intense and the need to offer recruitment 
incentives has increased. In FY 2001 there were fewer S&E hires than in 
FY 2000, yet almost twice as many recruitment bonuses were needed to 
attract the FY 2001 hires than the FY 2000 hires. Eighteen percent of 
the new S&E hires in FY 2001 were given recruitment bonuses--in 
contrast to previous years in which the percentages were in the single 
digits.
    To be more competitive with the private sector in terms of starting 
salaries, NASA Centers routinely offer advanced in-hire rates and use 
accelerated training agreements that enable eligible engineers at 
Grades 7 and 9 an opportunity to be promoted after six months at each 
grade level.

    Question. What recommendations do you have for actions that 
Congress can take to create greater incentives for students in K-9, 
high schools, and universities to study mathematics, science, and 
engineering?
    Answer. It is difficult to recommend any specific recommendations 
on actions that Congress can take to create greater incentives for 
students to study mathematics, science, and engineering. These 
incentives must come from a variety of places--schools, teachers, 
parents, the media, public and private sector organizations, and 
students themselves.
    One of the priorities of the new NASA education program is to 
motivate students to pursue careers in math, science and engineering. 
We believe that one of the best ways to do that is to expose students 
to our exciting mission, and give them every feasible opportunity to 
take an active part in that mission--to get ``hands-on'' experience in 
our unique facilities and to interact with our extraordinary personnel.

    Question. You mentioned the time and the amount of research that we 
can expect from a ``chemical energy rocket'' based mission to Pluto. 
(a) How much improvement can we expect from nuclear propulsion? (b) Are 
there other systems, besides propulsion, that may restrict the length 
of these deep space missions?
    Answer. Nuclear fission power not only provides propulsion, but 
offers a host of other advantages as well, such as: (1) allowing a 
single spacecraft to visit multiple targets during a single mission; 
(2) providing more time for surface reconnaissance and discovery; (3) 
providing greater power for complex science instruments; and (4) 
allowing a higher rate of data return. Nuclear power will make space 
science missions much more resilient and adaptable, resulting in far 
more robust scientific discovery in terms of both quantity and quality.
    Other spacecraft systems are limited by current technology, but 
with nuclear fission power, spacecraft capabilities (e.g., 
thermoregulation, power for instruments, data return rates) expand 
significantly.

    Question. In a recent NASA letter that terminated the X-38 Crew 
Return Vehicle project, it was stated the project demonstrated that new 
flight systems can be developed significantly below industry cost 
norms, and the project team is to be recommended for its efforts. The 
project team was some of NASA's finest. Will this model of utilizing 
federal employees for development work be utilized in more NASA 
projects in the future?
    Answer. NASA agrees wholeheartedly that this team had exceptional 
people; they are being redeployed as the project comes to a closure in 
a manner that will fully utilize their individual talents.
    It would certainly be our intention and desire to make full use of 
any and all processes that hold the promise of significantly reducing 
the development costs of Flight Systems. The application of this model 
to future NASA projects will be determined by the particular factors of 
a given project, including the appropriateness of using civil servant 
workforce on projects that could be performed by the private sector and 
the availability in the civil servant workforce of the needed mix of 
skills to undertake the development work.

    Question. The Administration is currently reviewing the U.S. Global 
Change Research Program (USGCRP). One of the proposals is to have the 
Department of Commerce lead the program. Given the fact that NASA 
provides the majority of funding (about $1.3 billion of the total of 
$1.7 billion) for this multi-agency research program, do you feel that 
NASA should have a larger role in the program?
    Answer. The President announced on June 11, 2001, that the 
Department of Commerce (DOC) is the lead for climate change research, 
including setting priorities, reviewing investments, and maximizing 
coordination among agencies. The administration announced further 
details on the organization of climate-related activities on February 
14, 2002. NASA is participating in several capacities:

        1.  The Climate Change Science and Technology Integration 
        Committee
        2.  The Interagency Working Group for Climate Change Science 
        and Technology
        3.  The Climate Change Science Program Office (CCSPO)
        4.  The National Climate Change Technology Initiative

    The CCSPO is an interagency group that includes representatives 
from the participating agencies: NASA, the National Science Foundation, 
the Departments of Commerce, Energy, Agriculture, Interior, and State, 
Office of Science and Technology Policy, Office of Management and 
Budget, and the Council on Environmental Quality. This interagency 
group will report to the Interagency Working Group on Climate Change 
Science and Technology, which in turn reports to the Committee on 
Climate Change Science and Technology Integration. The CCCSTI will 
provide recommendations concerning climate change science and 
technology to the President and will recommend the movement of funding 
and programs across agency boundaries, if needed, to better address 
climate change priorities . . . The inventory of climate change 
research programs is currently under review.
    Dr. James Mahoney, the DOC lead for CCRI, has been communicating 
regularly with NASA on the Initiative, and has requested NASA's 
assistance to provide staffing for the CCSPO.
    NASA's leadership in the essential role of providing the global 
perspective of Earth from space is well recognized in the 
Administration's climate change research management approach. NASA has 
been a leading force in shaping the scientific priorities and 
implementation strategy, and has a long history of supporting such 
efforts, including the USGCRP, and now the CCRI and ongoing USGCRP 
activities. NASA supports the Administration's recognition of the 
importance of addressing the leadership issue for the multi-agency 
climate change program.

    Question. At the recent announcement of the preliminary 15 designs 
for the Strategic Launch Initiative (SLI), NASA set 2012 as the time in 
which a Second Generation launch system would be in place to transport 
crew and cargo to the International Space Station. NASA's Office of 
Space Flight recently began a study on the continual use of the Space 
Shuttle vehicles until 2020. What are the Administration's plans for 
replacing the Space Shuttle vehicles with the new Second Generation 
Launch vehicle?
    Answer. The intent of the SLI program is to identify and close the 
technology gaps necessary to enable the development of a safer, less 
costly, commercially viable 2nd Generation Reusable Launch Vehicle 
(RLV) capable of fulfilling NASA's needs. The capabilities of the 
system will be, to the maximum extent practical, the result of a 
convergence of NASA and commercial needs. Currently, the program and 
its industry partners are narrowing the field of potential 
architectures and refining preliminary full-scale development cost and 
schedules. The architectures were narrowed from hundreds of 
possibilities to 15 concepts this past spring. The architectures are 
being narrowed further to the 3 prime candidates in support of the 
Architecture/Systems Requirements Review this fall.
    The Integrated Space Transportation Plan (ISTP) is the governing 
framework that coordinates and guides NASA's various space 
transportation investments, including Space Shuttle improvements, Space 
Launch Initiative (SLI), and far-term space transportation technology. 
The Agency is currently reassessing its space transportation priorities 
as part of an update to the ISTP. Included in this activity is the 
Shuttle 2020 assessment outlining the cost impacts of extending the 
Shuttle operations to 2020.
    As prudent planning, NASA is examining what upgrades to the Shuttle 
may be required in the event of delays or changes in the SLI 
development schedule. No decision has been made to extend the Space 
Shuttle's operational life to 2020.

    Question. The April 29, 2002, issue of Space News reports that 
United Space Alliance personnel have used the E-Bay website to find 
sources of hard-to-find spare parts for the Space Shuttle. How serious 
a problem is this shortage of spare parts to maintain the Space 
Shuttle? How does this shortage affect Space Shuttle safety? How does 
this shortage affect NASA's plans to operate the Space Shuttle to 2012 
or beyond?
    Answer. The parts mentioned in the article were for non-flight 
ground support equipment. This shortage of the spare parts does not 
affect Space Shuttle safety or Space Shuttle operation to 2012 or 
beyond. The Space Shuttle fleet is safe to fly. Our commitment remains 
to maintain safety and reduce risk by implementing high priority 
upgrades, which are technologically feasible. Upgrades are required to 
ensure that the Space Shuttle supports the International Space Station 
through its lifetime, or as long as the Shuttle is required to fly.

    Question. One major issue concerning all NASA centers is a 
degradation in facilities. The President's FY 2003 budget request 
includes funds for restoring the Kennedy Space Center's (KSC) Vertical 
Assembly Building (VAB) after the status of that building received a 
large amount of attention last year. Does NASA have a strategy for 
prioritizing the maintenance of its infrastructure?
    Answer. NASA currently prioritizes its Construction of Facilities 
funding, which pays for major repair projects over $500,000, within the 
NASA Programs and Enterprises. Facilities maintenance funding is 
prioritized at the Center and by specific programs.
    With respect to prioritization of projects within Human Space 
Flight, NASA infrastructure projects will replace, repair and/or 
rehabilitate systems and capability that have become obsolete, degraded 
to a point where repair is not possible (replacement is necessary), 
spare parts are no longer available, or systems are in poor condition 
and must be upgraded and/or replaced. Priority considerations include: 
support of NASA goals and objectives, impact on flight hardware 
processing, manufacturing & testing, breakdown history, obsolescence, 
life cycle cost, payback, climate, weather and environmental situation. 
NASA has worked hard to identify the infrastructure projects necessary 
to enable the program to continue to operate into the foreseeable 
future. The NASA baseline and infrastructure revitalization 
requirements for all element locations were integrated into a single 
preliminary infrastructure requirements listing.

    Question. One issue of great concern to the Members of this 
Committee is the amount of research that can be performed on the ISS. 
The International Space Station Management and Cost Evaluation (IMCE) 
Task Force found that there are no science priorities for ISS research. 
What actions will you take to establish priorities for ISS scientific 
research?
    Answer. The Research Maximization and Prioritization (ReMaP) Task 
Force of 20 scientists has reviewed the current OBPR research portfolio 
in the context of external reports and recommendations received over 
the past 10 years and has made recommendations on research priorities 
to the NASA Advisory Committee (NAC). NASA will consider the 
recommendations of the NAC/Task Force along with the requirements from 
the other NASA enterprises in formulating priorities for ISS research.

    Question. Will you adopt the IMCE's recommendation that the 
``highest priority'' should be given to ``research directed at solving 
problems associated with long-duration human space flight including 
engineering required to support humans in long-duration space flight?''
    Answer. The members of the ReMaP Task Force were aware of the IMCE 
recommendations. NASA is reviewing the NAC/Task Force recommendations 
in the process of formulating its FY 2004 budget.

    Question. What priority will be given to private sector and 
commercial research?
    Answer. Commercial research was included in the science portfolio 
considered by the ReMaP Task Force.

    Question. As the new Administrator, do you feel that NASA has 
adequately addressed the problems identified from the earlier failed 
Mars missions?
    Answer. NASA and the Jet Propulsion Laboratory responded swiftly 
and addressed all of the findings of the Mars Program Independent 
Assessment Team (MPIAT), and the Mars Climate Orbiter (MCO) and Mars 
Polar Lander (MPL) failure review boards. In addition, the ``lessons 
learned'' identified in the MPIAT report have been addressed. These 
areas, and in particular the ``lessons learned,'' are reviewed 
periodically to ensure that the Program does not fall victim to the 
same mistakes that plagued the failed MCO and MPL missions.

    Question. In August, NASA circulated a draft Space 
Commercialization plan that met with mixed reviews. Does NASA intend to 
release a new draft Space Commercialization plan within the next few 
months?
    Answer. NASA does not anticipate imminent release of a draft 
commercialization paper. NASA will factor space commercialization into 
the Agency's plans for implementing The President's Management Agenda.

    Question. What opportunities do you see for greater private sector 
involvement in space operations?
    Answer. The Administration issued The President's Management Agenda 
in August 2001, which set out a goal through the process of 
``competitive sourcing'' to achieve efficient and effective competition 
between public and private sources where federal employees are 
performing tasks that are readily available in the commercial 
marketplace. NASA is seeking to achieve this goal as it pursues 
initiatives across the Agency, including initiatives related to the 
commercialization of space. Two early initiatives are underway to 
evaluate the opportunity and benefits to be gained from considering 
competitive sourcing for the continued operation of the Space Shuttle, 
and research utilization and commercialization activities on the ISS. 
NASA will achieve optimal safety and operational efficiency by 
determining the appropriate balance between public and private sector 
participation in NASA programs and in developing and utilizing 
commercial capabilities and activities in space.

    Question. NASA has tasked the RAND Corporation with studying 
possible business models to be considered for privatization of the 
Space Shuttle through competitive sourcing. What factors will RAND use 
to evaluate these potential business models?
    Answer. In January 2002, NASA chartered an independent external 
Space Shuttle Business Review Team in January, consisting predominantly 
of industry expertise in financial, banking, investment, insurance and 
technical disciplines. A Business Review Team, comprised of industry 
experts from a variety of disciplines, including insurance, investment, 
financial, and technical fields, is performing a study that will 
identify various business options and their potential benefits for the 
Space Shuttle. As a minimum, these factors include: (1) identify checks 
and balances adequate to ensure continued safe operations; (2) ensure 
continuity of flight capability during any transition; and, (3) create 
and preserve the possibility for future competition. The President's FY 
2003 Budget also lays out criteria under which a Shuttle competitive 
sourcing plan could be considered. NASA intends to use the Business 
Review Team's evaluation to prepare for this interaction with industry.

    Question. How does RAND intend to evaluate the cost of 
privatization for the government? For example, if NASA sells the Space 
Shuttle, will it grant a private vendor a monopoly over transportation 
to the International Space Station?
    Answer. Rand's evaluation and analysis are under NASA review and 
the final report is not due until this fall.

    Question. In March 2000, NASA proposed eight Shuttle Safety 
upgrades. Of those, three were canceled (the Orbiter Electric Auxiliary 
Power Unit, the Reusable Solid Rocket Motor Propellant Grain Geometry 
Modification, and the Space Shuttle Main Engine Block II Study), and 
one (the Solid Rocket Booster/Thrust Booster Control) was deferred. 
What factors caused NASA to cancel and defer these upgrades?
    Answer. For the EAPU, NASA determined that this upgrade was not 
technically ready to proceed with implementation due to immaturity that 
led to schedule slips and significant cost growth. This upgrade was 
cancelled.
    The Reusable Solid Rocket Motor (RSRM) Propellant Grain Geometry 
Modification Upgrade was cancelled because further technical analysis 
did not support achieving the enhanced safety benefits initially 
expected with this candidate project.
    The Space Shuttle Main Engine Block III was cancelled because 
initial studies indicated cost, schedule, and technical feasibility did 
not warrant proceeding.
    The Solid Rocket Booster/Thrust Vector Control (SRB/TVC) was 
deferred due to higher funding priorities in FY 2003. The upgrade had 
successfully gone through Program Requirements Review and was deferred 
in case funds were made available.

    Question. How will the cancel and deferral of these programs affect 
the safety of the Space Shuttle?
    Answer. The Space Shuttle is safe to fly. Cancellation and deferral 
of several safety upgrades implies that the Space Shuttle will be 
operating at the current safety levels.

    Question. How much money did NASA spend on these upgrades before 
canceling them?
    Answer. Two million was spent on the SSME Block III study, no 
investment was made on RSRM Propellant Grain Geometry before it was 
cancelled; and $12 million was spent on SRB/TVC before it was deferred. 
Although $75 million was spent on EAPU before cancellation, the design 
studies could be utilized if the technology matures.

    Question. What lessons has NASA learned from going through this 
process?
    Answer. Major lesson learned was to complete technical reviews 
prior to committing firm development costs.

    Question. What improvements does NASA intend to make to its process 
for studying the feasibility of future Space Shuttle upgrades?
    Answer. Improvements to the process will consist of upgrading the 
selection criteria and systems analyses procedures (identify, screen, 
assess, and prioritize) and completing technical requirements reviews 
prior to establishing firm costs for development projects. Furthermore, 
NASA will continue to seek independent assessment advice on upgrades 
selection procedures from independent groups like the Space Flight 
Advisory Committee, the Aerospace Safety Advisory Panel, and the NASA 
Independent Program Assessment Office.

    Question. The President's FY 2003 budget request calls for NASA to 
strengthen its ties with the FAA to ensure that NASA technology 
investments are incorporated into the national air system. What steps 
has NASA taken to achieve these goals?
    Answer. In order to ensure that NASA technology investments are 
incorporated into the National Airspace System, NASA and the FAA signed 
a Memorandum of Understanding (MOU) in 1995 that established a formal 
partnership between the two agencies in Air Traffic Management (ATM) 
research. The agencies jointly manage an Inter-Agency Integrated 
Product Team (IAIPT) to conduct and coordinate research in the ATM 
arena. A National Plan is produced annually by the two agencies to 
identify, for the community, the specific research and development 
activities being funded by each of the agencies and the implementation 
plans for the resulting products. All ATM research efforts are 
considered, including those by industry that are funded by the 
agencies.
    On October 9, 1998 NASA Administrator Dan Goldin signed an 
agreement with FAA Administrator Jane Garvey to work together on a 
strategic partnership between NASA and FAA to achieve national goals in 
aviation safety, capacity, and space transportation. (Ref: NSTC report 
November 1999: National Research and Development Plan for Aviation 
Safety, Security, Efficiency, and Environmental Compatibility.) This 
agreement recognizes the need for a coordinated federal effort to 
enhance aviation for the future. The agreement has established an FAA/
NASA Executive Committee, which is charged with the responsibility of 
harmonizing our goals, establishing metrics, and monitoring success in 
these and other areas important to aerospace activities.
    Under this umbrella framework between NASA and the FAA, there are 
numerous topic-specific Memoranda of Understanding reflecting 
harmonized interagency goals. These topic-specific Memoranda of 
Understanding lay the foundation for technology transfer from NASA to 
the FAA. NASA's role is to perform research resulting in technology 
demonstrations in relevant environments and the FAA's role is 
technology development for operational use and standards development. 
The four primary areas of technology transfer are Aviation System 
Efficiency (Air Traffic), Aviation Safety, Environment (Noise and 
Emissions), and Aviation Security.
    NASA and the FAA have established a process to assist in the timely 
transfer of technology. This process calls for FAA involvement at 
earlier stages in the research, and NASA involvement (as an advisor) 
during the early implementation process. While this process is in its 
infancy, there have already been improvements in coordination and 
cooperation between the two agencies. For example, the agencies use 
NASA's Air Traffic Management System Development and Integration (ATM-
SDI) contract to facilitate technology transfer. NASA contractors, who 
were awarded task orders to conduct research on air traffic management, 
will be funded by the FAA (through the ATM-SDI contract vehicle) to 
produce implementation documentation. This documentation will allow for 
consistency from initial concept through implementation. The risks and 
costs borne by the government will be dramatically reduced.
    NASA and the FAA have signed a SATS-specific Memorandum of 
Agreement that establishes the working relationship for the most 
effective mutual use of each agencies competencies and facilities. The 
FAA is supporting the development of the requirements by providing 
operational and National Airspace System expertise. Currently, five FAA 
employees have been assigned to NASA and are working with the NASA SATS 
program office.

    Question. The IMCE Task Force recommended establishing an Associate 
Administrator for the ISS, who would manage the ISS Program Office, and 
integrate scientific research requirements into the ISS program. The 
IMCE recommended this structure, because it would ``significantly 
strengthen program control and financial analysis'' at the program 
office and NASA Headquarters. Since you have endorsed many of the IMCE 
recommendations, do you intend to establish this new Associate 
Administrator position?
    Answer. NASA is committed to significantly strengthening program 
control and financial analysis of the ISS program and improving the 
focus and integration of scientific research requirements into the ISS 
program. Since 1993, NASA has managed both the ISS and Space Shuttle 
programs within one office, the Office of Space Flight (OSF), in order 
to take advantage of natural linkages between these programs. Not only 
are their missions and schedules tightly coupled, more importantly, 
these two programs rely on the same heritage of human space flight 
technologies, systems, and operational processes, and of course, the 
personnel who bring these assets to bear. As such, NASA has decided to 
continue fostering synergy between the programs by continuing to manage 
both of them from within OSF.
    In addition, the IMCE recommended organizational structure would 
not create the best environment for research. We felt strongly that we 
needed to develop a science-driven ISS program, and that the best way 
to achieve that was to strengthen the existing Office of Biological and 
Physical Research (OBPR). We need a vibrant ISS Research Program that 
will engage in pioneering science in space, leading to new discoveries 
that would inspire the next generation of scientists and engineers.
    While NASA is not implementing the specific IMCE recommendation for 
a separate Associate Administrator for the ISS Program, we are 
implementing the intent behind the IMCE recommendation. In addition to 
improving the integration of the ISS and Space Shuttle programs, 
additional changes are being implemented to address the underlying 
concerns of the IMCE . . . These actions include:

        1.  Tightening accountability at HQ and the ISS Program Office. 
        The OSF Associate Administrator (AA) is focused on rebalancing 
        center director and program manager roles, improving financial 
        management practices, clarifying accountability of personnel 
        and resources, and streamlining reporting requirements. In 
        particular, he has established and filled the new position of 
        Deputy Associate Administrator (DAA) for ISS and Space Shuttle. 
        The ISS and Shuttle program managers will no longer report to 
        the JSC Center Director, but will report directly to the DAA 
        for ISS and Space Shuttle Programs, who assumes full control of 
        ISS and Shuttle program resources and reports directly to the 
        AA of OSF.
        2.  Basing staffing levels on program requirements, rather than 
        institutional needs. In accordance with a related IMCE 
        recommendation that the ISS Program Manager ``own all ISS 
        personnel,'' OSF is taking steps to fully transfer control of 
        and accountability for civil servants who support the ISS 
        program from the Center Directors to the Program Manager. These 
        include more rigorous tracking of staffing levels by the ISS 
        program, and the implementation of full cost policies and 
        practices into the accounting, budgeting, and management 
        functions.
        3.  Improving coordination between OSF and OBPR. The IMCE noted 
        that the creation of an ISS AA position would address what it 
        saw as a need for better coordination between OSF and the 
        Office of Biological and Physical Research (OBPR). While such 
        coordination is clearly important, NASA's approach to ensuring 
        a robust ISS program is focused on strengthening the 
        accountability of OSF and OBPR for their respective roles in 
        policy, planning, and program management. As a result, the ISS 
        Research Capability budget was transferred from OSF to OBPR 
        beginning in FY 2002.

    Since NASA acknowledges that the joint OSF-OBPR management model 
for ISS must be science-driven, we are developing a good model for 
clear communications, coordination and accountability. The recently 
appointed Associate Administrator for OBPR brings valuable skills and 
experience in both program management and research to her new position. 
Additionally, NASA has established and filled a new position, patterned 
after a model employed successfully by our Space Science and Earth 
Science Enterprises, and designed to strengthen representation of the 
research community in ISS program management decisions. This position, 
the Program Scientist for ISS Research maintains a day-to-day interface 
with the Program Manager in Houston but reports directly to the OBPR 
AA. With OBPR in full control of the ISS research program, and clear 
roles for both OSF and OBPR, NASA is well equipped to ensure effective 
fiscal policy and planning coordination.
    Science will drive the ISS program. To accomplish this, NASA has 
strengthened ISS management accountability while improving synergy 
between the ISS and Space Shuttle programs. This approach is enabling 
NASA to meet the performance goal prescribed by the NASA Advisory 
Council of ensuring ``direct program control of personnel resources, as 
well as streamlined management visibility, reporting, control, and 
accountability.''

    Question. The IMCE also found that ``the centrifuge is mandatory to 
accomplish top priority fundamental research.'' What is the status of 
the centrifuge, and will it be ready for deployment before 2008?
    Answer. At a technical level, NASA and NASDA have agreed on a 
schedule, which will lead to launch of the Centrifuge Accommodations 
Module (CAM) in April 2007. This schedule is technically feasible. NASA 
is monitoring the situation with the Japanese budget for ISS and 
expects continuing dialog with NASDA regarding the CAM schedule.

    Question. Some proponents of the ISS suggest that the United States 
should look for new international partners to help fund its 
construction. Some of the countries suggested as possible allies, 
include Ireland, Qatar, Kuwait, Saudi Arabia, and the People's Republic 
of China. What actions has NASA taken to enlist more international 
partners?
    Answer. NASA is aware of suggestions about seeking new ISS 
participants--either non-partner participants or international 
partners. NASA is not, as present, actively pursuing new ISS 
participants because, in accordance with the recommendations of the 
NASA Advisory Council (NAC), NASA is focusing on implementing the 
reforms within the ISS program to demonstrate the capability to achieve 
U.S. Core Complete within cost and schedule. As a first step, NASA is 
conducting a five-point assessment of the ISS program in the following 
areas: science priorities, engineering development and deployment, cost 
estimating and analysis, mission and science operations, and 
International Partner coordination.
    NASA and its ISS Partners would like the benefits of the emerging 
ISS orbiting research facility to be available and utilized by the 
nations of the world. Should a nation indicate an interest in 
participating in the ISS to NASA, NASA would consult with the 
Department of State to ensure that participation is consistent with 
U.S. foreign policy goals and objectives, including those related to 
nonproliferation norms and guidelines. In addition to consultation with 
the Department of State, the participation of an additional nation in 
the ISS program would require notification to, and consensus by, the 
ISS Partners in accordance with the ISS agreements.

    Question. Your written testimony highlights the importance of 
educators to engaging more students in mathematics, science and 
engineering degrees. What plans do you have for engaging teachers and 
professors in this mission to increase student's interest in 
mathematics, science, and engineering?
    Answer. One of the priorities of the Agency's refocused education 
program is to provide educators with unique teaching tools and 
compelling teaching experiences . . . as only NASA can. NASA already 
enjoys a strong relationship with the formal education community and 
has many years of experience providing opportunities for educators to 
improve their ability to teach mathematics and science.
    Under our new organization, we are developing several new 
initiatives that are designed to provide even more experiences for 
educators. The new Educator Mission Specialist Program will be one of 
the key components. The first EMS, Barbara Morgan, will soon be 
assigned to a Space Shuttle flight after completion of the 
International Space Station core configuration. We believe the 
opportunity to motivate teachers, inspire students, and engage the 
public through Ms. Morgan and future Education Mission Specialists will 
enable NASA to help reinvigorate the teaching profession.

    Question. According to a NASA Inspector General report dated March 
27, 2002, the IG examined 119 services acquisitions made in 2000 and 
2001, which were valued at $3.2 billion. Thirty-two of those services 
were available on the federal supply schedules. NASA contracting 
officers used the schedules for 20 of those orders (63 percent), while 
they did not use these schedules for the remaining 12 services. In 40 
percent of the services acquisitions made through the federal supply 
schedule, contracting officers failed to follow proper procedures. What 
actions do you intend to take to ensure that NASA contracting officers 
use the federal supply schedules, and meet the requirements to get 
competitive bids before making purchases though the federal supply 
schedules?
    Answer. Because the procedures for using Federal Supply Schedules 
(FSS) are described in Federal Acquisition Regulation (FAR) Subpart 8.4 
and special ordering procedures for FSS service contract orders are 
separately prescribed by GSA, the NASA Office of Procurement has issued 
new formal guidance to its procurement personnel to follow both the FAR 
and the GSA ordering procedures. In addition, the Office of Procurement 
is arranging for GSA to provide on-site training at NASA centers on the 
appropriate use of FSS. Compliance with FSS ordering procedures, 
including the requirement to review the offerings of multiple FSS 
contractors before placing an order, will be monitored as a special 
area of concern by the Office of Procurement through its periodic 
reviews of each NASA center's procurement operations.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                              Sean O'Keefe

Shuttle Replacement Timeline
    Question. The Space Launch Initiative (SLI) is supposedly designed 
to help find a replacement vehicle for the Shuttle. While this program 
appears to be well thought out, we have heard several different dates 
as to when we should anticipate the Shuttle being replaced. What is the 
expected initial operational capability (IOC) date for the replacement 
reusable launch vehicle system? Do you have a transition plan that lays 
out the orderly replacement of the Shuttle while maintaining a safe, 
reliable means for human access to space? If not, when do you expect to 
have such a plan? In time to influence NASA's authorization bill, which 
is up for renewal this year? In time to influence next year's (FY 2004) 
appropriations bill?
    Answer. The SLI program goal is to provide the necessary scientific 
and technological data required to design, evaluate, and formulate 
realistic plans leading to a Full-Scale Development (FSD) Decision in 
2006. NASA is pursuing priority investments for designing the 2nd 
generation system, maturing critical subsystems to technology readiness 
levels, and developing credible cost and performance estimates. The 
current target date for IOC is 2012.
    The Integrated Space Transportation Plan (ISTP) describes the 
transition plan between the Shuttle and the Second Generation Reusable 
Launch Vehicle. NASA has an effort underway to update the ISTP to 
reflect an integrated Agency-wide strategy for this transition. The 
appropriate time phasing between Shuttle and the replacement vehicle 
will be a key output from this study. The intent is to have this effort 
complete in time to support the FY 2004 Budget.

Shuttle Upgrade Timeline
    Question. NASA's budget outlook and the current upgrade strategy 
are based on the premise that the Shuttle will be retired in 2012. But, 
last fall, this committee heard testimony from five expert witnesses-
from inside and outside of NASA-who agreed that the Shuttle fleet will 
not be retired for another decade or more. I understand that your 
agency recently issued a directive to officials at Johnson Space Center 
to identify upgrades and supportability investments that may be 
required to fly the Shuttle fleet safely through 2020. This is a small 
step in the right direction. If this and other ongoing studies do 
ultimately recommend that the Shuttle fleet remain viable until 2020, 
will NASA revise their current safety and supportability upgrades, as 
well as infrastructure revitalization requirements to account for the 
longer flight expectancy?
    Answer. As a prudent planning exercise, NASA is currently assessing 
the Space Shuttle elements supportability and upgrade candidates for 
hardware, infrastructure, obsolescence, and review of human capital 
investment required to operate the shuttle beyond 2012. The primary 
objective of this activity is to understand options for maintaining 
safe Space Shuttle operations through 2020. No decisions have been made 
to extend shuttle operations beyond 2012.

SLI in the Long-Term: Help or Hurt Industry?
    Question. The Space Launch Initiative (SLI) is ostensibly designed 
to accomplish two goals: (1) choosing and developing a human-rated 
reusable launch vehicle (RLV) to replace the Shuttle, and (2) assisting 
the commercial launch sector with revolutionary leaps in technology, so 
as to increase commercial launch reliability and dramatically reduce 
the cost of access to space. These sound like excellent goals, and I am 
completely supportive of this program. It is my understanding that, at 
the end of several ``decision gates'' within the SLI architecture, NASA 
will reach a decision on which one-vehicle to build to replace the 
Shuttle. And, it is expected that this vehicle is to have commercial 
cargo value as well as being human-rated. But, if NASA develops a 
vehicle with dual commercial and civil purposes, how would that not 
amount to the government picking which company or consortium should 
dominate the commercial launch market? In this regard, do you believe 
that SLI's architecture is ultimately designed to assist industry? Or 
to compete with it?
    Answer. The goal of the SLI program is to develop the technologies 
and vehicle architecture that will enable development of a reusable 
launch vehicle that provides a safe, reliable, low-cost access to 
space. This can be a key enabler for civil space exploration, National 
security, and the commercial development of space. One of the 
fundamental principles of the SLI program is to create a competitive 
environment to assure the best and most innovative ideas are developed 
by the Program. There are currently 23 Prime Contractors performing 
various technology development and architecture definition activities, 
evidence that SLI is taking advantage of a broad spectrum of corporate 
expertise.
    NASA intends to have the second generation reusable launch vehicle 
be commercially operated. NASA will not directly compete with industry 
for the commercial market segment. It is true that the company 
ultimately selected to be the Prime Contractor could have a strategic 
advantage when trying to capture the commercial market segment of the 
launch industry. However, this company will not be certain to dominate 
the launch market. In particular, the planned reusable launch vehicle 
would likely be much more competitive with expendable launch vehicles 
in the larger GEO satellite market than in the smaller market. This 
market segment has recently been dominated by non-U.S. systems. It is 
expected the added competition and broad-based technology development 
activities will provide benefit to considerably more than just the 
prime contractor.
    Ultimately, NASA believes that development of a safe, reliable, 
low-cost access to space will open up many more business opportunities 
for the benefit of a broader range of the U.S. aerospace industry than 
exists today.

Shuttle Workforce Layoffs
    Question. Lockheed Martin announced a layoff at their Shuttle 
External Tank facility in New Orleans, Louisiana. I believe such 
layoffs will ultimately result in the loss of crucial know-how on the 
Shuttle program, expertise that would surely be required if/when the 
Shuttle begins to fly at a higher flight rate down the line. Do you 
anticipate additional contractor layoffs as a result of the reduced 
Shuttle flight rate? What about NASA impacts? Are you confident that 
you will be able to quickly ramp back up in personnel and expertise, 
should such a future ramp-up be necessary?
    Answer. The reduced flight rate of four a year applies only to ISS 
Assembly flights--we retain the flexibility to fly additional flights, 
assuming that NASA or Commercial/DOD requestors can provide funding for 
these flights. As a result of a recently signed contract with Lockheed 
Martin, we have retained the flexibility to produce no less than six 
External Tanks a year. Because of the possibility of additional Shuttle 
flights, it would be premature to speculate on contractor layoffs at 
the present time. If additional flights are added, NASA will retain the 
appropriate personnel and expertise.

Space Launch Initiative: Division of Labor.
    Question. The Space Launch Initiative is currently budgeted at 
about $5 billion total over the lifetime of the program. How are the 
programs related to SLI being divided among NASA center? How does each 
center's role as a ``center of excellence'' relate to this division of 
labor? When a Shuttle follow-on vehicle is finally selected, and the 
technology is locked-in, where do you anticipate this program to be 
based? Do you believe that the Cape will continue to be the leader 
within the agency for space launch?
    Answer. Ten NASA Centers are involved with the Space Launch 
Initiative program. The support each Center provides is closely aligned 
with its core expertise. The contribution of each Center is summarized 
in the figure below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    There has been no final decision on either the program management 
structure for the flight vehicle or which Center will manage the 
vehicle development phase. Although final decisions have not been made 
on the roles and responsibilities of each Center in these phases, it is 
likely that the support will continue to be broad-based to take 
advantage of each Center's core expertise, including KSC's expertise in 
launch operations.

Shuttle, SLI Synergy
    Question. Is there a plan to reorganize the SLI and the Shuttle 
programs under one Space Transportation Program Executive Official 
[PEO] at NASA headquarters? If so, please describe it. If not, doesn't 
it make good sense to have synergy between the two programs so the 
lessons learned from the Shuttle program that could be applied to the 
follow on?
    Answer. Currently, NASA has no plans to reorganize the Agency such 
that the Shuttle and SLI programs report to a single Program Executive 
Official (PEO). As SLI is primarily a technology development program, 
it relies heavily on the expertise of the research and technology 
personnel and resources managed by the Office of Aerospace Technology. 
Shuttle, on the other hand, is an operational vehicle and relies 
heavily on the launch operations expertise and facilities managed by 
the Office of Space Flight. Being the only reusable human-rated launch 
vehicle, the Space Shuttle is used as the ``lessons learned'' reference 
point for the SLI program. As an example, the Shuttle integrated 
operations models are the starting point for developing SLI 
architectures and assessing proposed and maturing technologies. In 
general, the SLI team honors the lessons learned from programs that 
came before and is being guided by independent review panels and 
subject matter experts. Synergy between the programs has also been 
attained by assigning Shuttle-experienced personnel to the SLI program. 
Technology roadmaps are also being tuned as well as other cooperative 
Agency planning through the Integrated Space Transportation Plan update 
activities this year.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                              Sean O'Keefe

Orbiter Major Modification (OMM)
    Question. In making the decision to relocate the OMM from 
California to Florida, what assumptions did NASA make about the 
availability of skilled workers in the Florida location? Were any labor 
market surveys performed? If not, why not? If so, please provide them.
    Answer. United Space Alliance (USA) is NASA's prime shuttle 
operations contractor. United Space Alliance employs over 6,000 workers 
in Florida whose jobs are technically similar to those of the Boeing 
workers who have completed Orbiter Major Modification (OMM) in the 
past. United Space Alliance and their predecessor, Lockheed Martin, 
have had no difficulty hiring highly skilled initial and replacement 
workers over the 21 years of Space Shuttle operations. Due to USA's 
annual labor market surveys and ongoing compensation surveys, coupled 
with the constant replacement hiring, USA is extremely familiar with 
the local markets and did not find it necessary to conduct an 
additional labor market survey.

    Question. What data were used by NASA to determine that 
approximately 235 new workers would need to be hired at KSC? Does this 
number include management and professional employees?
    Answer. The number of new workers is not 235. The 235 represent the 
total USA planned budgeted workforce. The United Space Alliance 
Management and Planning team is familiar with the work content and are 
experienced and skilled at planning the completion of the work at a 
very detailed level. The quantity of workers required to complete the 
inspections and modifications on OV-103 was developed from the detailed 
work content and is a combination of both current and new hires. OMM 
hiring is complete and is included in the FY03 President's budget. The 
235 total workers include 21 logistics support personnel and 214 
technical and engineering personnel. Management has been drawn from the 
existing Orbiter Element and Ground Operations Element teams. Boeing 
will supply design-engineering skills on subcontract to United Space 
Alliance.

    Question. What data and calculations did NASA rely on to determine 
the costs associated with recruiting, relocating and training 
approximately 235 new employees at KSC?
    Answer. United Space Alliance routinely hires and trains technical 
personnel in Florida to fill the jobs that are vacated through natural 
attrition. The hiring of additional technical workers is not unusual 
and fits well within the experience base. Hiring for OMM is complete. 
The USA plan is to budget at the 235 level. The majority of the hires 
have been local which required no relocation expense. Training cost 
requirements are negligible because training processes and curricula 
exist for the processing workforce and are offered on a recurring basis 
and require no additional costs.

    Question. NASA concluded that 400 employees would have to be re-
hired at Palmdale but that only 235 will have to be hired at KSC. How 
does NASA account for the difference of 165 employees? Did NASA assume 
that 165 employees currently working at KSC will take on additional 
duties related to the OMM? If so, what data and calculations did NASA 
rely on to determine that 165 employees could both continue current 
workload and add work related to the OMM?
    Answer. Boeing's workforce at Palmdale peaked at around 400 workers 
during short periods on past OMMs, but the Boeing number of workers 
associated with the OMM and submitted in the FY01 Program Operating 
Plan was 320 equivalent headcount. The USA plan requires fewer workers 
than required by the Palmdale facility. Based on utilizing synergies of 
a common workforce, United Space Alliance's plan uses 235 workers plus 
30 Boeing engineers for design engineering support to perform OMM's at 
the Kennedy Space Center (KSC).

    Question. What data and calculations did NASA rely on to determine 
the costs associated with training and upgrading the skills of the 165 
current employees who presumably would be assigned to work on the OMM?
    Answer. The USA plan for performing OMM at KSC requires fewer 
workers than required by the Palmdale facility. The total number of USA 
employees who will work on the OMM is approximately 235 plus 30 Boeing 
engineers for design engineering support. NASA relied on USA estimates 
for hiring, training, and certification costs associated with the OMM. 
The work associated with structural inspections and the major 
modifications that will occur during the OV-103 OMM are similar to the 
structural inspections, wire inspection and repair, and ``in flow'' 
modifications that the United Space Alliance workforce at KSC has 
routinely accomplished during the life of the Space Shuttle Program. 
The costs to hire, relocate, train, and certify the workers that will 
conduct the OMM are included in the cost to conduct the OMM.

    Question. Where did NASA assume the OMM would be performed at KSC? 
How did NASA calculate and weigh the costs associated with providing a 
facility for the OMM at KSC?
    Answer. NASA and United Space Alliance will perform OMM's in 
existing Orbiter Processing Facilities (OPF)--a new or refitted 
facility is not required. Orbiter Vehicle 103 was located in OPF Bay 1 
where post-landing work and some preliminary wire inspection has been 
accomplished. As planned, it was moved into OPF Bay three in early July 
to begin its OMM on September 1, 2002. Reduced flight rate alleviates 
processing dependencies on OPF's.

    Question. What is NASA's understanding of the accuracy of media 
reports that the OMM will be performed in a Florida Space Authority 
hangar, requiring $24 million to retrofit? If the reports are accurate, 
who will pay the retrofitting costs and when will the retrofitting be 
completed?
    Answer. News media reports that the Shuttle Landing Facility (SLF) 
Hangar facility owned by the Florida Space Authority and leased by 
United Space Alliance would be used for OMM work are incorrect. The SLF 
Hangar was not considered an appropriate facility to conduct an OMM. 
United Space Alliance is using the SLF Hangar to store ground support 
equipment. USA plans to conduct the work and support the Shuttle 
manifest using the existing facilities in the KSC's Orbiter Processing 
Facility and the Vehicle Assembly Building. A new or refitted facility 
is not required for the OMM. The shuttle program can support up to six 
flights per year without adding any new facilities for OMM work.

    Question. Many employees (active and awaiting recall) from the 
Palmdale, California facility have received offers to relocate to KSC 
in Florida. How many employees have been contacted individually and how 
many have agreed to relocate? How many people attended the recent ``job 
fair'' to recruit skilled workers to relocate to Florida and how many 
agreed to relocate? Please provide copies of the offers being made to 
California workers to relocate to Florida.
    Answer. In September 2001, and March 2002, United Space Alliance 
held an ``Open House'' in Palmdale for the purpose of interviewing and 
extending offers to Palmdale employees to relocate to KSC in Florida. 
Approximately 300 attended the September event, and 90 attended the 
March event. Only 25 employees possessed the skills needed to perform 
the work and were willing to relocate. USA extended 25 relocation 
offers, of which 15 have been accepted. Currently there are no offers 
pending to California workers to relocate to Florida.

    Question. Please provide a copy of the ``independent cost and risk 
assessment'' conducted by JSC Systems Management Office on which NASA 
relied in making the decision to relocate work from California to 
Florida, as well as a copy of the request to JSC to perform the 
assessment.
    Answer. The JSC Systems Management Office independent cost/risk 
assessment is attached as Enclosure 1. Additional independent cost 
assessments were performed (see Enclosure 2). All three assessments 
indicated that cost savings would be realized in moving OMM from 
Palmdale to KSC. The request to JSC for the independent cost and risk 
assessment was made verbally.

    Question. Does NASA intend to maintain the Space Shuttle-related 
work currently being performed at Palmdale in California or will that 
work be relocated out of California in the future?
    Answer. USA and Boeing are conducting studies to determine the best 
location to complete the Space Shuttle work that currently is done at 
Palmdale. It is likely that the recommendation will result in a lower 
cost location, either in California or in another state.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
